<html>
<title> - THE FUTURE OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS HEALTHCARE IN SOUTH LOUISIANA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE FUTURE OF THE U.S. DEPARTMENT

                     OF VETERANS AFFAIRS HEALTHCARE

                           IN SOUTH LOUISIANA

=======================================================================


                             FIELD HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2007
                    HEARING HELD IN NEW ORLEANS, LA

                               __________

                           Serial No. 110-32

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                     U.S. GOVERNMENT PRINTING OFFICE

37-470 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                               __________

                              July 9, 2007

                                                                   Page
The Future of the U.S. Department of Veterans Affairs Healthcare 
  in South Louisiana.............................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    62
Hon. Michael H. Michaud, Chairman, Subcommittee on Health........     6
    Prepared statement of Congressman Michaud....................    62
Hon. Jeff Miller, Ranking Republican Member, Subcommittee on 
  Health.........................................................     5
    Prepared statement of Congressman Miller.....................    63
Hon. Richard H. Baker............................................     2
Hon. William J. Jefferson........................................     3

                               WITNESSES

U.S. Department of Veterans Affairs, Rica Lewis-Payton, FACHE, 
  Deputy Director, Veterans Integrated Service Network 16, 
  Veterans Health Administration.................................    48
    Prepared statement of Ms. Lewis-Payton.......................    81

                                 ______

American Legion, William M. ``Bill'' Detweiler, Past National 
  Commander......................................................    37
    Prepared statement of Mr. Detweiler..........................    73
Disabled American Veterans, Chuck Trenchard, Adjutant, Department 
  of Louisiana...................................................    36
    Prepared statement of Mr. Trenchard..........................    72
Louisiana Department of Health and Hospitals, Frederick P. 
  Cerise, M.D., M.P.H., Secretary................................     9
    Prepared statement of Dr. Cerise.............................    66
Louisiana State University Healthcare Services Division, New 
  Orleans, LA, Michael Kaiser, M.D., Acting Chief Medical Officer    10
    Prepared statement of Dr. Kaiser.............................    65
Military Order of the Purple Heart, Henry J. Cook, III, National 
  Senior Vice Commander..........................................    33
    Prepared statement of Mr. Cook...............................    71
New Orleans, LA, City of, Hon. C. Ray Nagin, Mayor...............     7
    Prepared statement of Mayor Nagin............................    63
Penn, Bill, M.D. Baton Rouge, LA.................................    38
    Prepared statement of Dr. Penn...............................    80
Tulane University, New Orleans, LA, Alan M. Miller, Ph.D., M.D., 
  Interim Senior Vice President for Health Sciences..............    13
    Prepared statement of Dr. Miller.............................    69

                       SUBMISSIONS FOR THE RECORD

Ochsner Health System, New Orleans, LA, Patrick J. Quinlan, M.D., 
  Chief Executive Officer, statement.............................    85
Veterans of Foreign Wars of the United States, Clayton P. 
  ``Sonny'' Degrees, Jr., State Commander, Department of 
  Louisiana, statement...........................................    86

                   MATERIAL SUBMITTED FOR THE RECORD

Charts:
Southeast Louisiana Veterans Healthcare System, Map Showing the 
  23 Parishes with Clinics Serving Veterans in: New Orleans, 
  Baton Rouge, Hammond, St. John Parish, Slidell, and Houma......    83
Southeast Louisiana Veterans Healthcare System, Individual 
  Patients Treated FY 2005-FY 2007...............................    84
Southeast Louisiana Veterans Healthcare System, FY 2007 Patients 
  by Parish......................................................    84


                   THE FUTURE OF THE U.S. DEPARTMENT



                     OF VETERANS AFFAIRS HEALTHCARE



                           IN SOUTH LOUISIANA

                              ----------                              


                          MONDAY, JULY 9, 2007

                    U. S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at at 9:30 a.m., in 
the Supreme Court Building, 400 Royal Street, 4th Floor 
Courtroom, New Orleans, Louisiana, Honorable Bob Filner 
[Chairman of the Committee] presiding.
    Present: Representatives Filner, Michaud, Miller, and 
Baker.
    Also Present: Representative Jefferson.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. The field hearing for the House 
Committee on Veterans' Affairs is called to order.
    We thank you for your attendance, and thank all the Members 
for being here. I'm the Chairman of the Committee. My name is 
Bob Filner. I'm from San Diego, California. Mr. Baker is from 
Baton Rouge; is that correct?
    Mr. Baker. (Nods head affirmatively).
    The Chairman. Mr. Miller from Florida, thank you for 
coming; Mr. Michaud from Maine, Mr. Jefferson from New Orleans.
    I do have to ask unanimous consent that Mr. Jefferson be 
invited to sit in for this hearing today. Hearing no objection, 
that is ordered.
    And we also ask unanimous consent that all Members have 
five legislative days in which to revise or extend remarks and 
presenting statements be made part of the record. And hearing 
no objection, that is ordered too.
    We are here, as you know, to explore the challenges faced 
by the U.S. Department of Veterans Affairs (VA) and other 
healthcare facilities to provide high quality safe healthcare 
to veterans and citizens of this area.
    We know what happened in August of 2005 causing obviously 
significant damage to an incredible large area in the 
southeastern United States.
    In the three-State area of Louisiana, Mississippi and 
Alabama, the VA facilities affected included the Gulfport, 
Mississippi and New Orleans medical centers; New Orleans 
regional benefits office;

and five community based outpatient clinics along the Gulf 
Coast; and Biloxi VA National Cemetery.
    The VA has tried to respond to these challenges. In many 
cases, they have done well, but we still do not have a VA 
hospital that's on the books for planning or that's on the--
that's ready for construction. We have to meet this challenge.
    I noticed in all the testimony that I read beforehand there 
is incredible unanimity on the fact that, given this great 
difficulty that was faced, there is an opportunity to rebuild 
in a different, maybe more responsive, more collaborative way 
and I was extremely interested in the fact that everybody was 
so optimistic even given the bureaucratic challenges.
    We have appropriated as a Congress $625 million and we 
have--and this Committee has urged the Secretary of the VA to 
make the decision about this without any further delay, so we 
are here.
    It's a standard joke, ``we're the Federal Government, we're 
here to help,'' but we are here to help. I don't think the 
Nation responded as it should have quickly enough to the 
situation after Hurricane Katrina. We have a long way to go on 
that.
    This is, I think, the first hearing from a Committee to 
Congress here. We are going to have several other hearings with 
different Committees of the Congress. All the chairmen had met 
and said we are going to, as a group, make sure we understand 
what's going on in New Orleans and the surrounding area and do 
what we can to speed things up in terms of rebuilding.
    We have two local Members from the--from the Louisiana 
delegation here with us. Mr. Baker has been a hard-working 
Member of this Committee. He never lets a hearing or a time go 
by without saying we have got to do something for New Orleans 
and for Louisiana. He's in there fighting all the time and we 
appreciate Mr. Baker's contribution to the Committee.
    And, of course, Mr. Jefferson, as the representative here, 
never lets me pass anywhere in Congress without saying when are 
we going to get the hospital, when are we going to rebuild the 
facilities, so you have--and the rest of the delegation for 
Louisiana are very hard working and they are trying to do the 
job for you and we have to support them.
    Mr. Baker, thank you for inviting us today and we are 
looking forward to your opening statement and your expertise on 
this issue.
    [The prepared statement of Chairman Filner appears on p. 
62.]

           OPENING STATEMENT OF HON. RICHARD H. BAKER

    Mr. Baker. Thank you, Mr. Chairman. I am most appreciative 
of your courtesies and all the effort made to facilitate this 
hearing, and I also appreciate very much your courtesy in 
describing my activities on the Committee. I had thought you 
would characterize them quite differently, so I am very--I am 
very appreciative of your kind remarks of my contributions to 
the Committee's action.
    Let me also add my appreciation to those Members who have 
traveled great distance to be here today. Mr. Michaud, the 
Chairman of the Subcommittee on this matter, as well as Mr. 
Miller from Florida, who was overseas on congressional business 
and came back for this hearing, to both of you gentlemen, I 
certainly am appreciative of the difficulty it is in traveling, 
particularly to get back to the City of New Orleans and curtail 
your own personal travel arrangements.
    And Mr. Jefferson and I, of course, have worked together 
for many years in the Congress and I have come to great 
appreciation for his intellect and knowledge on these matters.
    I need to make several things very clear about my 
motivations and intense interest in the subject matter, and I 
am extremely pleased to see the number of veterans we have here 
in attendance this morning.
    This is about you. It is about the healthcare to which you 
are entitled. It is about the service you have given to this 
country and your undying devotion to meet your obligations as 
they were given to you.
    I find it inexcusable that two years after Katrina we are 
now debating how. It's not a question of what or who's going to 
build it or where is it going to be located. These are 
unacceptable circumstances.
    I do not care where this facility is built, and I want to 
put it on the record because some are running rampant ``Baker 
wants to build this thing in Baton Rouge.'' I do not. What I 
care about, I care about getting this facility built in as 
quick a period of time as is humanly practicable understanding 
the Chairman and Members of this Committee's desire to have the 
taxpayers' interest protected at all costs.
    Now, there are questions I'm going to ask that some people 
may not want to talk about. You deserve those answers and 
taxpayers do as well. It's my job as a representative of 
veterans on the Veterans' Affairs Committee in the United 
States Congress not to leave a stone unturned or a leaf not 
examined in the course of this progress and I fully intend to 
do that. But I want you as veterans to understand what I'm 
doing is exclusively what I believe to be in your best 
interest. There is no other motive.
    If we can build it where it's now proposed and get the 
doors open in 24 months, hey, I'm ready to go. But if we can't, 
we owe it to you to tell you why not and what are our options.
    And, Mr. Chairman, I just can't express to you enough my 
appreciation for you and the Committee Members for coming here 
today to give us the opportunity to hear our expert witnesses 
talk about this subject matter and hopefully facilitate coming 
to a conclusion and a decision that's in the best interest of 
the United States veterans and taxpayers as well. I yield back 
my time.
    The Chairman. Thank you, Mr. Baker.
    As I said, Mr. Jefferson doesn't let me ever go by, pass 
him in the hall or on the Florida house without him saying 
let's get that built, let's get that VA facility built.
    Mr. Jefferson, thank you for your very aggressive 
representation of your district.

         OPENING STATEMENT OF HON. WILLIAM J. JEFFERSON

    Mr. Jefferson. Thank you, Mr. Chairman. I would also like 
to thank the Members of Congress who traveled here, to welcome 
them to my district and to our region.
    I'd like to thank the Chairman for his attention and 
commitment to this issue. He's been unwavering in his support 
for us and we really appreciate the many times he's called the 
Committee together formally to talk about this and the time 
we've talked informally. I thank Richard Baker for the help and 
support he's given us over the years and that he continues to 
give for our recovery.
    Mr. Chairman, I'd like to thank you for this opportunity to 
speak with the Committee today to address the state of our VA 
system in south Louisiana. We all appreciate that the VA has 
committed to a building a new hospital for our veterans and our 
veterans in the greater New Orleans area. They deserve nothing 
less than top notch facilities and treatment, and we are doing 
all we can to keep our promises to them.
    The proposed partnership between the VA and the Louisiana 
State University (LSU) Medical Center represents what is in the 
best interest of our veterans, the healthcare profession of the 
area, and the citizens of south Louisiana. A combined facility 
located downtown will enable LSU Medical Center to continue 
providing its services to the VA, it will lower operating costs 
for both facilities, and will be a tremendous boost to our 
local economy and to our recovery from the devastation of 2005.
    The VA Center in New Orleans has always been a reasonable 
facility, one that has drawn from veterans living along the 
entire Gulf Coast. While the population of the City of New 
Orleans itself may be down, most displaced veterans are in the 
outlying parishes. It would be a tremendous disservice to them 
and to other veterans of the region to use such misleading 
numbers about our people back home to relocate this hospital in 
some other place.
    Both the Louisiana Recovery Authority and the Regional 
Planning Commission have declared their support for the 
downtown location of the VA hospital. Since the downtown 
hospital has remained closed, the VA has done an admirable job 
of ensuring that immediate healthcare needs of our veterans are 
met. The network of local clinics and quick deportment of 
mobile clinics have gone a long way to create the capacity to 
meet outpatient needs; however, if a veteran requires a 
procedure that can only be performed in a full hospital, he or 
she must still travel to Houston or Jackson or some other 
place. To force the veterans to make long trips at times of 
sickness is an unacceptable standards for our Nation. It's 
imperative that we move quickly to resolve this problem. Our 
veterans have waited long enough for this matter to be well on 
the way toward being solved.
    To establish the VA Medical Center as a proposed downtown 
site is vital to us in our restoration. Along with Tulane 
Medical Center, Xavier, and Delgado, the joint facility would 
become a part of the biomedical corridor that exists in 
downtown New Orleans.
    Prior to the storm, nearly 10,000 jobs were located in the 
medical district. The proposed joint VA-LSU center would add 
another 3,400 jobs to that total. Construction of the new 
facility alone is estimated to create an additional 19,000 
jobs. Once the facility begins operations, the capital 
investment area will soon follow.
    In adding in fiscal year 2005 to this hospital's 
restoration, the National Institutes of Health (NIH) has sent 
about $130,000 in grants to our area. We must ensure that this 
engine of economic recovery continues to be in place and we 
respect support from NIH and other support to follow it.
    From a practical point of view, it simply makes sense to 
share--for the VA and LSU to share facilities. By sharing 
lavatories, housekeeping, rehabilitation, radiological 
facilities, these costs, these overhead costs are consolidated 
between these two hospitals. Money would be saved in the short 
and long run and efficiencies would be realized. In so many 
ways, this is the next logical step to the partnership that 
already has existed over years past between LSU and the VA 
hospital.
    I deeply support that our local and State authorities are 
well along the way to having done their part to provide support 
for the required--for this required endeavor. We provided a 
business plan and I think a sound business plan and approved 
the initial land acquisition funding of $74 million to the 
Legislature. We must now follow up these steps with action.
    The VA has committed to building a new hospital in the New 
Orleans area and we are grateful for that, but we must take 
this opportunity to build for the future and create a state-of-
the-art hospital that integrates seamlessly within the 
established medical downtown district. Our veterans should not 
have to wait a day longer while we debate this policy and while 
this policy remains unsettled.
    I, unlike Mr. Baker, have a parochial interest and a 
parochial stake in this and I want to see the hospital built in 
the area that it was built in before. I think that makes the 
most sense. We are here, as he said however, to support our 
veterans in any way that we possibly can; and we appreciate 
your service and we think now it's time for us to serve you 
better.
    So thank you Mr. Chairman. I really appreciate this chance 
to be a part of this Committee this morning. Thank you.
    The Chairman. Thank you, Mr. Jefferson.
    Mr. Miller, thank you for coming from your home district 
and being here with us this morning.

             OPENING STATEMENT OF HON. JEFF MILLER

    Mr. Miller of Florida. Thank you very much, Mr. Chairman. I 
know that many in this room share my concerns about the topic 
of today's hearing, and I'm grateful that you and this 
Committee are holding this meeting to exercise our duty of 
assuring that the actions of the VA are for the benefit of all 
our Nation's veterans.
    As has already been stated here this morning, nearly two 
years after Hurricane Katrina, there is still not a clear 
consensus plan on how veterans' healthcare needs will be 
addressed in this region, and I am troubled by some of those 
proposals.
    The proposal receiving the most attention has cost 
estimates approaching $1.2 billion, yet there is very little 
certainty about where the facility is going to be located. 
Taxpayers and veterans both can better be served if VA would 
take a more fiscally responsible approach and situate a 
facility that won't be subject to a repeat of what happened to 
the old hospital.
    With a declining population of veterans in the area prior 
to Katrina, a medical center where veterans are actually 
located would provide a quicker path to delivering healthcare 
to those in need. Furthermore, new hospitals are going up all 
over this country at one third the cost that is being 
estimated.
    Veterans in southeast Louisiana deserve timely access to 
healthcare just as veterans throughout the rest of the Nation 
do. That is never in question. However, I question the proposed 
joint venture, and the significant amount of time that has 
lapsed with very little progress and that makes me question the 
plan even more.
    Putting a replacement facility in a flood prone area looks 
like no lesson was learned from the past, and putting the 
replacement facility back in the same area after years of 
population shifts looks like VA isn't looking clearly toward 
the future.
    I look forward to today's testimony and hopefully 
constructive ideas on how veterans in this are can receive 
timely access to healthcare at a cost that best serves the 
interest of the veteran and the taxpayer.
    I yield back.
    [The prepared statement of Congressman Miller appears on p. 
63.]
    The Chairman. Thank you, Mr. Miller.
    Mr. Michaud is the Chairman of our Health Subcommittee on 
this Committee and he's come all the way from Maine for today.

          OPENING STATEMENT OF HON. MICHAEL H. MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman. And I can 
assure you that the weather in Maine is much cooler than it is 
down here today. I also would like to thank Mr. Baker and Mr. 
Jefferson for your advocacy for veterans in trying to get this 
hospital built as soon as possible, but I also, Mr. Chairman, 
want to express my thanks to you for holding this hearing 
today.
    This is an important issue for veterans of Louisiana and 
for our VA system. Veterans in southern Louisiana have waited 
too long for a decision to be made on the future of healthcare 
delivery in this area.
    VA has an opportunity to be creative and to benefit the 
community. The decisions need to be made quickly and wisely and 
with good, effective use of taxpayers dollars.
    We must always remember that our responsibility here is to 
our veterans. They deserve to have access to the best possible 
care and they must be the guiding principal as far as where 
this facility goes; and hopefully it will be built sooner 
rather than later.
    And with that, I look forward to hearing our witnesses this 
morning and look forward to having a dialog on this very 
important issue for veterans in southern Louisiana.
    So once again, Mr. Chairman, thank you very much and I 
yield back the balance of my time.
    The Chairman. Thank you, Mr. Michaud. I thank you.
    [The prepared statement of Congressman Michaud appears on 
p. 62.]
    The Chairman. Just to tell you our procedure, we'll have 
three panels of witnesses. There will be testimony of the whole 
panel. Hopefully they will each limit their oral testimony to 
five minutes with their full written statement made a part of 
our record. The Committee will have a chance to ask questions 
of the panel after all the testimony and then we'll proceed 
through the three panels.
    Mayor Nagin, welcome.
    Mr. Nagin. Thank you.
    The Chairman. I think we all feel we know you as America's 
Mayor watching you for so many weeks on television. We 
appreciate your leadership, we appreciate the strong force you 
were to the city. I think the test of your leadership came in 
by the voters.
    Mr. Nagin. Yeah. It continues to be tested every day.
    The Chairman. And I must say, Mayor Nagin, I don't think 
the Federal Government as a whole has responded in a rapid 
enough way and in a comprehensive enough way to the terrible 
tragedy that you had to be part of. It's our responsibility as 
a nation to see New Orleans as a vital dynamic place again and 
we are going to do whatever we can on this Committee.
    Before you came in, I think I mentioned that various 
Committees of the Congress are going to be here in the next few 
months to try to make sure that the plan that the President put 
forward in that evening newscast almost two years ago is 
actually carried out. We have not done the job that you and 
your constituents deserve and we'll continue to work with you 
and appreciate your leadership, and the floor is yours, sir.

 STATEMENTS OF HON. C. RAY NAGIN, MAYOR, CITY OF NEW ORLEANS, 
  LA; FREDERICK P. CERISE, M.D., M.P.H., SECRETARY, LOUISIANA 
DEPARTMENT OF HEALTH AND HOSPITALS, ACCOMPANIED BY MIKE ROMANO, 
 SENIOR CONSULTANT, PHASE 2 CONSULTING; MICHAEL KAISER, M.D., 
   ACTING CHIEF MEDICAL OFFICER, LOUISIANA STATE UNIVERSITY 
  HEALTHCARE SERVICES DIVISION, NEW ORLEANS, LA; AND ALAN M. 
 MILLER, PH.D., M.D., INTERIM SENIOR VICE PRESIDENT FOR HEALTH 
          SCIENCES, TULANE UNIVERSITY, NEW ORLEANS, LA

                 STATEMENT OF HON. C. RAY NAGIN

    Mr. Nagin. Good morning, ladies and gentlemen. I am C. Ray 
Nagin, Mayor of the City of New Orleans, one of America's most 
beloved and culturally distinctive cities, a city that's in 
full recovery, a city that has spent 23 months putting itself 
back together, both our infrastructure and our people.
    We are a city that is about 64 percent of its pre-Katrina 
population. The metropolitan area stands at about 92 to about 
93 percent of its pre-Katrina population, but more importantly, 
some studies that have been done, the remaining residents who 
are not back in our city, about 70 percent of them are planning 
to come back into this region.
    So we are planning for a full recovery. We are building 
much smarter than we were pre-Katrina. We are building higher 
and better and we also have the Federal Government, who I thank 
you for the investments that have been made.
    The Corps of Engineers has been doing some pretty 
significant work investing billions and billions of dollars. 
That's an investment that I think is wise.
    If you look around the world, other areas that have 
challenges with floods have been able to protect themselves 
better. And if it wasn't for some flaws in the design of the 
federally-built levee systems here in New Orleans, we wouldn't 
be here talking about these critical issues.
    So to the Chairman, Congressman Filner, to the Ranking 
Member and Congressman Buyer, to Congressmen Jefferson, Baker, 
and all the other Members of this Committee, I'm not going to 
read my full report, but I do want to highlight a couple of 
things and you can take a look at the report a little bit 
later.
    This VA hospital is critical to our future. It's nestled in 
the middle of a medical--a legislatively creative medical 
district that encompasses more than 30 public, private, and 
nonprofit organizations including several colleges and 
universities, including LSU, Tulane, Xavier, and Delgado. 
Several hospitals are involved to medical schools, nursing 
schools, medical-related offices and businesses, and associated 
biotech companies.
    The presence of the VA hospital in this districts creates 
critical synergies and leveraging ability that clustering of 
these medical facilities achieve. The VA hospital is also 
critical because of its economic development. It will be an 
economic development engine for this entire region. And I know 
you talked about the dollars associated with rebuilding this 
facility, and all that can be achieved if its done in 
conjunction with LSU.
    Recognizing the importance of this development, the City of 
New Orleans along with a coalition of regional partners have 
come together and we all are in full support of them. A 
unanimous resolution was approved by our regional partners as 
it relates to this.
    In addition, the Louisiana Chapter of the American Legion 
with more than a thousand delegates in attendance at its annual 
meeting last month also unanimously supported the rebuilding of 
the VA hospital in this region.
    The city and its partners have the financial means to 
expeditiously acquire the necessary land, and we are very 
confident that we can do that within the 18-month designed 
timeframe that the VA has for reconstructing this hospital.
    In closing, Mr. Chairman and Members of this Committee, I 
would like to once again thank you for the opportunity to 
discuss our plans and hopes for the re-establishment of these 
very critical healthcare institutions in a post Katrina 
environment. We thank you for all of your support.
    I want to make sure that you understand that everything we 
are doing going forward is in full recognition of the learning 
that we have from Katrina. We will not have a repeat of that 
particular episode. We are building smarter and better in this 
city and we need the Federal Government's support as it relates 
to making sure that, as our population comes back, that we have 
a critical healthcare system in place and VA is a big part of 
that. Thank you.
    [The prepared statement of Mayor Nagin appears on p. 63.]
    The Chairman. Thank you, Mayor Nagin.
    From the Secretary of the Louisiana Department of Health 
and Hospitals, Dr. Frederick Cerise, accompanied by senior 
consultant for Phase Two Consulting, Mr. Michael Romano. Thank 
you, Mr. Secretary.

         STATEMENT OF FREDERICK P. CERISE, M.D., M.P.H.

    Dr. Cerise. Thank you, Mr. Chairman and Members of the 
Committee. Thanks for the opportunity to testify today on the 
future of the veterans' healthcare in south Louisiana, and let 
me add my thanks to those of the Committee and the veterans 
here today for their service to our country.
    I'm Fred Cerise, Secretary of the Louisiana Department of 
Health and Hospitals, a Louisiana State agency for healthcare 
in Louisiana.
    Louisiana and the Department of Veterans Affairs have had a 
successful relationship for many years as demonstrated by 
collaboration among the VA, Tulane University and Louisiana 
State University.
    Further, the LSU Sciences Center Healthcare Services 
Division, which operates the system of public hospitals and 
clinics in Louisiana, and the VA have similar missions to 
provide primary and specialty care and other related medical 
services to their populations.
    The two systems have much in common: Both are public 
healthcare systems, both provide a high volume of outpatient 
care, and both have healthcare practices that include 
management for individuals with chronic diseases. Additionally, 
physicians from Tulane and LSU regularly rotate between the two 
systems.
    After Hurricane Katrina, Louisiana Healthcare Redesign 
Collaborative was created through a legislative resolution to 
respond to healthcare issues in the New Orleans region. The 
backbone of the redesigned system of care put forward by that 
collaborative is the ``medical home'' along with--consistent 
with recommendations for improved systems of care put forth by 
a number of professional societies. This model is very similar 
to the VA's current operation.
    Louisiana is moving forward with its redesign work in the 
area of healthcare. In the recent legislative session, funding 
was allocated to pilot the medical home system of care, health 
information technology, and quality initiatives.
    The VA had been recognized for its work for a number of 
years. In July of 2007, Business Week magazine called the VA 
healthcare the best medical care in the U.S. In 2004, an 
article in the American Journal of Managed Care stated that, 
``today, the VA is recognized for leadership in clinical 
informatics and performance improvement, cares for more 
patients with proportionally fewer resources, and sets national 
benchmarks in patient satisfaction.''
    The VA also provides an avenue for healthcare research. In 
New Orleans alone, the VA has 29 active research projects and 
is home to the Mental Illness Research, Education and Clinical 
Center.
    Given the similar mission and goals between the State and 
the VA, a joint partnership between the two entities makes 
sense. What's been proposed is to move from three separate 
patient facilities that existed in New Orleans prior to Katrina 
to a single shared VA-LSU inpatient facility with a more 
dispersed network of clinics. Sharing of common physical plant 
requirements, certain high-end clinical services will create 
hundreds of billions of dollars in operating efficiently for 
our taxpayers and improved health benefits for all those who 
have served.
    The State's commitment to this partnership has been 
unwavering. On February 23rd, 2006, Governor Blanco was present 
as Jonathan Perlin, the VA Secretary at the time, and LSU 
President Lee Jenkins signed an LOU allowing LSU and the VA to 
enter into negotiations to jointly plan and build a shared 
hospital in New Orleans. Extensive detailed planning ensued.
    But in a particular area, the U.S. Department of Housing 
and Urban Development (HUD) approval for spending Community 
Development Block Grant (CDBG) dollars may delay the 
rebuilding. Governor Blanco proposed self financing the State's 
share to ensure that the State can continue to meet the extra 
high costs. The funding was approved by the State legislative.
    Governor Blanco recently signed Act 203 which allocates an 
initial $74 million for land acquisition, acquisition of land. 
The Legislature also will provide the $226 million downpayment 
for the new academic medical center in downtown New Orleans to 
replace the old Charity Hospital, and the remainder of the 
project will be financed through general revenue bonds.
    In addition to these investments, the State's also 
committed $38 million to a cancer research institute which will 
be established in downtown New Orleans. The presence of the 
existing LSU and Tulane Health Sciences Center combined with 
the VA and the new cancer center will create a medical district 
that not only will provide state-of-the-art healthcare to our 
citizens but also will drive economic development in New 
Orleans.
    There is widespread support for this endeavor including the 
Regional Planning Commission for Jefferson, Orleans, 
Plaquemines, St. Bernard, and St. Tammany Parishes, the 
Downtown Development District of New Orleans, the Unified New 
Orleans Plan, the Louisiana Recovery Plan and the Louisiana 
State Legislature.
    Hurricane Katrina was a tragedy for the New Orleans region 
and for our country. Together, we have the opportunity to 
create something new and innovative in the wake of this 
terrible disaster.
    A shared inpatient facility with a dispersed network of 
clinics organized to better serve our citizens is not a simple 
rebuilding of our old systems but a creation of a new model 
that makes sense for those receiving care and responds with 
clinical and financial accountability to the taxpayers 
supporting this care.
    I urge you to recognize the opportunity to do something 
truly innovative for our citizens in supporting this endeavor.
    Thank you for the opportunity to testify this morning.
    [The prepared statement of Dr. Cerise appears on p. 66.]
    The Chairman. Mr. Romano, you have a statement or----
    Mr. Romano. No, sir.
    The Chairman. Thank you very much.
    Dr. Michael Kaiser is the Acting Chief Medical Officer of 
the LSU Healthcare Services Divisions. We welcome you and thank 
you for your collaboration with VA in the past and look forward 
to it in the future.

               STATEMENT OF MICHAEL KAISER, M.D.

    Dr. Kaiser. Thank you. Good morning, Mr. Chairman and 
Members of the Committee. My name is Michael Kaiser. I'm a 
pediatrician and Acting Chief Medical Officer of the LSU 
Healthcare Services Division which consists of seven acute care 
hospitals and extensive outpatient clinics operated by the 
State of Louisiana. These include our rebuilt LSU Interim 
Hospital campus in New Orleans, which was effectively destroyed 
by Hurricane Katrina.
    Similar to other local public hospitals across the country, 
this facility functioned as the core of the safety net for the 
uninsured and was the predominant site for the clinical 
training of physicians and other healthcare professionals.
    The now-closed Charity Hospital sits across the street from 
the VA Hospital, which also suffered catastrophic damage in the 
storm. Following Katrina, nothing has occupied our time and 
attention more fully than the restoration of a public hospital 
and its clinics to serve the people of this region and the 
future healthcare professionals who train there.
    Of necessity, LSU has focused on both the present and the 
future. In the nearly two years since Katrina, we have moved 
from emergency facilitates in tents to the opening of a small, 
interim hospital and a growing number of primary and specialty 
care clinics in several locations. Our capacity is not yet up 
to the level of need in the region, particularly in the 
availability of psychiatric services, some medical specialties 
and dispersed primary care clinics, but we have made 
significant progress. Other major additional steps will be 
taken in the months ahead.
    As we continue to work--as we continue work to address the 
immediate and critical needs of our community, LSU has kept a 
steady focus on the longer term. The region desperately needs 
not only additional healthcare resources but also ways to 
develop and deploy those assets through a better and more 
efficient system than was possible before the storm.
    LSU has long worked toward fundamental improvements in its 
delivery system, such as through its award-winning disease 
management program, but the convergence of the need to rebuild 
and the heightened support today for both a reformed delivery 
model for care to the uninsured and for the financial and 
reimbursement reform necessary to make that new model possible 
present realistic opportunities for our long-term agenda for 
change.
    The potential collaboration between the VA and Louisiana's 
State public hospital system is one propelled by unintended 
opportunity, but it is a core part of our strategic vision. We 
have a chance to jointly design and cooperatively operate a new 
facility that meets the needs of both institutions and the 
patients they serve while at the same time achieving 
significantly enhanced efficiency, cost savings and quality 
healthcare.
    The proposed collaboration is a logical step for reasons 
that extend beyond the destruction of Katrina. The adjacent VA 
and Louisiana-operated public hospitals have a long history of 
working together. Prior to the storm, the New Orleans VA 
purchased over $3 million of clinical and other services from 
LSU. Many physicians worked at both the VA and the Medical 
Center of Louisiana at New Orleans facilities and many medical 
residents, both from LSU and Tulane, rotated to both hospitals.
    For the past 18 months, I have chaired the planning efforts 
with the VA. First, the Collaborative Opportunities Study 
Group, co-chaired with Mr. Michael Moreland, Director of the VA 
Hospital in Pittsburgh, looked at the possibility of a 
feasibility of building together and sharing services. Once 
proved feasible, the Collaborative Opportunities Planning Group 
(COPG), co-chaired with Mr. Ed Tucker, Director of the DeBakey 
VA Hospital, has been studying what services should be shared 
and the details of building together. The COPG continues to 
meet weekly in order to present a final report to the Secretary 
by the end of September 2007.
    The creation of a VA-LSU campus in downtown New Orleans 
will create benefits for both partners that exceed what either 
can accomplish separately in different locations. We have a 
rare opportunity to develop a whole that is greater than the 
sum of its parts. There are enormous benefits to the community 
of a downtown medical complex. It is a synergy created by 
working together that will enhance the services available to 
all our patients.
    The Louisiana Legislature in its just completed 2007 
Regular Session approved outlaying of $1.2 million for the new 
academic medical center which matches the cost estimate for the 
facility contained in the business plan completed by the Adams 
Group, a national hospital consulting firm, and overwhelmingly 
approved by both houses of the Louisiana Legislature.
    The construction of the new academic medical center is 
being managed by the Office of Facilities Planning and Control 
which is an agency within the executive branch of Louisiana 
government. Acquisition of land identified for the new medical 
center and the VA facility is already underway with contracts 
having been issued to complete title and appraisal work. Once 
the VA firmly commits to building of the downtown site, the 
City of New Orleans and the State of Louisiana are prepared to 
immediately proceed with land acquisition for the VA.
    From this point forward and given the preparation of both 
partners, the process of building a new hospital complex 
together can proceed as quickly as choosing to build 
separately. Significant groundwork has been laid for long-term 
mutually beneficial collaboration and we are poised to see it 
through to completion.
    Thank you for your interest and for the opportunity to 
share LSU's perspective on these critical matters. Far from 
being an obstacle to healthcare reform as some have feared, the 
creation of a revitalized academic medical center complex in 
the city will be a catalyst for that reform. Particularly if 
LSU and the VA work together, it will also sustain a reformed 
system in the long run by supporting a viable, mission-driven 
system dedicated to improved access, the highest quality 
medical care and innovative healthcare education in a rebuilt 
community.
    [The prepared statement of Dr. Kaiser appears on p. 65.]
    The Chairman. Thank you, Dr. Kaiser.
    I think, for the record, you meant $1.2 billion with the 
same Legislature. I heard million, but I assume you meant 
billion.
    Dr. Kaiser. I sure did.
    The Chairman. I thought we were getting away cheap.
    Dr. Alan Miller is the Interim Senior Vice President for 
Health Sciences at Tulane University. Welcome, Dr. Miller. I 
just would say that your testimony would have been far more 
compelling had you included San Diego as a bioscience giant.
    Dr. Miller. I have to talk to my consultants.

            STATEMENT OF ALAN M. MILLER, PH.D., M.D.

    Dr. Miller. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to speak to you about the 
importance of fully restoring accessible healthcare to our 
region's veterans and about Tulane's historic and present role.
    Almost 23 months have passed since Hurricane Katrina. We 
have seen enormous progress in some areas; in other areas 
progress has come at a distressingly slow pace. Our primary 
focus now is the timely re-establishment of the highest quality 
care for our veterans.
    The VA has been a valued Tulane partner for nearly 40 years 
and during that time our faculty, residents, and medical 
students have worked side by side with the VA providing patient 
care, educating future physicians, and performing cutting edge 
medical research.
    I'd like to focus my comments on three areas: Provision of 
care before Katrina, the VA's and Tulane's roles in re-
establishing medical care post Katrina, and the importance of 
the VA in medical research and the future of biosciences.
    Prior to Katrina, Tulane provided approximately 70 percent 
of the patient care at the VA with more than 75 faculty serving 
joint appointments. Well-educated and trained physicians are 
essential in assuring access to quality healthcare.
    Tulane's mission of healthcare medical education, and 
research is intimately intertwined with that of the VA.
    Before August 2005, the VA Medical Center provided training 
for approximately 140 residents. 120 of them were from Tulane.
    The VA's integration with the health science centers at 
Tulane and LSU provided a critical synergy that was a key 
strength in the region's overall healthcare and a vibrant 
environment for bioscience research.
    The VA's swift response after Katrina allowed for a 
successful and safe evacuation of hundreds of patients and 
employees. Tulane faculty, residents, and staff were integral 
to the evacuation and in re-establishing a presence in the 
community immediately following the storm.
    The VA's outpatient clinics have reopened and visits are up 
to 75 percent of its pre-storm. Through its partnership with 
Tulane, the VA is now providing new patient care at Tulane 
University Hospital and Clinic as it strives to keep up with 
the rapidly expanding population. Over 40 Tulane physicians and 
26 residents are currently providing services and training at 
various VA locations in the area. Tulane is actively recruiting 
new physicians to accommodate the increasing need in the area, 
many specifically to support the VA's clinical mission.
    As we look down the road, 5, 10, 20 years or longer, it's 
clear that the VA will be a cornerstone for healthcare, 
research and the biosciences industry in our region. Over 8,000 
people are currently employed in bioscience and healthcare 
related fields. Although New Orleans ranks behind bioscience 
giants like San Francisco, Boston, San Diego, and the Research 
Triangle, we outrank other up-and-coming centers including 
Nashville, Birmingham, and Louisville.
    In fiscal year 2005, New Orleans accounted for more than 
$130 million in NIH awards representing 82 percent of all NIH 
funding in the Gulf coast region. That includes New Orleans, 
the Mississippi and Alabama coasts, and the Florida panhandle. 
Tulane itself accounted for 46 percent of all NIH awards in 
that region.
    Prior to Katrina, the New Orleans bioscience district was 
actively building a framework for entrepreneurial success. Key 
pieces included critical Tulane, LSU, State of Louisiana 
partnerships. Construction will begin this fall in the downtown 
bioscience district on an $86 million cancer research facility 
and a $60 million BioInnovation Center.
    The synergy generated by those projects and collaborations, 
each within a few blocks of each other, will create a rich, 
dynamic teaching and research environment that will rival any 
in the country. A strong VA Medical Center is a crucial 
component of this burgeoning bioscience hub. It is hard to 
imagine the district without the VA and the VA being built 
anywhere but in the district.
    I want to thank each of you and your colleagues in Congress 
for demonstrating a strong commitment to the region's veterans 
by appropriating more than $600 million for a new state-of-the-
art VA Medical Center. The State too has now done its part in 
providing funding for a public hospital to be built in tandem 
with the VA. This leverages the Federal investment providing 
substantial cost savings and demonstrating good stewardship of 
taxpayer dollars. In addition, the investments by the city, 
State, and other institutions in the emerging bioscience 
district provide unique opportunities to create a vibrant and 
inter-reliant collaboration.
    It is our hope that the VA and the City of New Orleans move 
quickly to begin the process of land acquisition, planning and 
construction so that we may re-establish the full spectrum of 
care for our veteran population.
    Once again, I thank you for allowing me to speak to Members 
of this Committee. With your help, we will continue to bring 
back healthcare in our city and region not just back to where 
it was but to an even better future.
    [The prepared statement of Dr. Miller appears on p. 69.]
    The Chairman. Thank you, and I thank all of you for your 
commitment to the healthcare of this area. I'm going to just 
ask one question of you before my colleagues, if I can, in 
order to give you a chance to go further than your statement.
    Virtually everybody who has testified in written testimony 
thinks that the hospital should be relocated where it is, where 
it was. I'm sure you heard Congressman Miller, who will have 
his very penetrating questions in a few minutes, but he 
represents a train of thought in the Congress that says why put 
it right back where it was.
    You said we are building smarter, better. Can you just give 
us the arguments that we need, as a Congress, to make sure that 
we can answer those questions?
    Mr. Nagin. Well, the best way I can explain this is, when 
Katrina hit us, the storm surge overwhelmed the levees because 
they were poorly designed. All of those design flaws, as best I 
can determine being a nonengineer, have been corrected and 
there have been other enhancements that have been put in place 
to make sure that if another Katrina came this way we wouldn't 
have the catastrophic flooding that we've had during Katrina. 
That's the first point.
    The second point is that every citizen that is getting a 
building permit and every business that is asking for a 
building permit post-Katrina, if they had at least 51 percent 
damage, they have to elevate their foundations to take into 
account the new Federal Emergency Management Agency (FEMA) 
flood plain maps that are in place.
    So that's probably the biggest arguments that I will make; 
and then we've had several teams from around the world, the 
Netherlands, and to look at exactly what's happening in other 
parts of the world that are even more vulnerable from a 
standpoint that they are even further below sea level than we 
are and their techniques and engineering that can ensure that 
New Orleans and this region is safe going forward.
    The Chairman. Thank you, Mayor. I just wanted you to get 
ready for the----
    Mr. Nagin. Oh, I understand.
    The Chairman. For the questions that Mr. Miller is going to 
have.
    Mr. Nagin. Where is Mr. Miller from?
    The Chairman. Florida.
    Mr. Nagin. Florida. Okay. Good. Let's talk.
    The Chairman. All right. Mr. Baker, you have the floor, and 
I look forward to your questions.
    Mr. Baker. Thank you, Mr. Chairman.
    Dr. Cerise, I'd like to just start with the questionnaire 
that was forwarded to the Governor by Secretary Jackson 
sometime back which outlined about two pages of questions which 
were pertinent to the financial capability of the State to 
engage in this project.
    I did not speak to the Governor about the report and 
response. These are press attributions only, so I say that in 
this context. It appeared that the response was we are just 
going to go ahead on our own. I was not clear as to what we are 
going to go ahead on our own really means. Does that mean the 
LSU-Charity replacement facility will be constructed with total 
State dollars and that they would move ahead in that fashion or 
can you clarify for me what that intent was in response to the 
question?
    Dr. Cerise. I think the--the Governor's concern was that, 
as we are hearing today, the concern over the claim for getting 
this project accomplished, so a great desire to make this 
partnership work because----
    Mr. Baker. Let me interject there. The time would be 
extended by entering the questionnaire? I'm trying to get to 
the reason for not responding and then saying we are going to 
go ahead on our own any way.
    Dr. Cerise. I think the--in fact, I know the responses have 
been drafted and the Governor will respond to that 
questionnaire; however, there is a concern.
    We have been in conversation, or the State, not me 
personally, been in conversation with HUD on these Community 
Development Block Grant dollars and the ability to commit those 
dollars to this project and that process has proved to be a 
prolonged process.
    And so what the Governor was saying is look, I don't want 
this prolonged process to have a negative effect on the state 
and the VA discussions so that this hospital formation can go 
forward; and so I'm committed and the Legislature approved that 
the ability of the State to go this without the HUD dollars, 
not ignoring the HUD questions, not--because she fully feels 
and we fully feel we can answer those questions adequately and, 
as I said, they are drafted and put forward, but the State 
cannot afford--we don't know how long that would play out, this 
discussion with HUD.
    And so for that purpose, she opted to make a commitment 
from the State for the funds for the academic medical center 
because there's broad support for this academic medical center.
    Mr. Baker. Let's stop there for a moment. That's presuming 
there is a definitive decision by someone that the VA facility 
will be built as a collaborative because, otherwise, you are 
going to construct two State facilities with State money while 
waiting on the VA-State relationship to be ironed out or the 
CDBG money to be ironed out.
    Isn't that somewhat of a risk that you would invest State 
dollars in--up front unless you have absolute assurances the 
funding stream will be available to you at a date certain?
    Dr. Cerise. Sir, when you say two State facilities with 
State dollars----
    Mr. Baker. The LSU-VA hospital facility and the 
replacement, whatever it may be called, for the Charity system, 
that are to be on the collaborative campus with the VA facility 
which you are now saying you are going to go ahead without.
    Dr. Cerise. What the Governor is committing to is a single 
replacement facility hopefully in conjunction with the VA 
because we think it makes great sense long-term; but if not in 
conjunction with the VA----
    Mr. Baker. Well, that gets me back to my point. How do you 
design that collaborative facility without a collaborator?
    Dr. Cerise. The collaborative work is ongoing right now. 
What she was trying to answer is a concern that the State was 
going to--was moving too slowly to keep up with the VA's 
timeframe.
    Mr. Baker. Okay. I'll give up and let me go to timeframe.
    As originally reported by the collaborative group, there 
was a study, a report that was issued in which the timeline for 
commencing architectural services was in mid 2006. That 
timeline carried on for an operational opening of end of 2011, 
2012, basically a six-year clock.
    As I view it now, we--we don't now have an architectural 
firm appointed for the three collaborative interests because we 
don't have a collaboration.
    I would assume that with the announcement by the VA that 
the original site of some 30 plus acres is now insufficient and 
additional acreage will have to be acquired and that that would 
push back that timeline of a commencement date to at least, 
let's say, the beginning of 2008.
    Is that an unreasonable assumption based on where we were 
today in the uncertainties of funding?
    Dr. Cerise. I'm going to ask Dr. Kaiser, who has been 
working on that collaborative who has more detailed knowledge 
to address that.
    Dr. Kaiser. Mr. Baker, both the Department of Veterans 
Affairs and the State of Louisiana have selected architects. 
They have not been announced just because of your questions 
exactly, so it's unclear if we're building collaboratively with 
the VA or if we are building separately.
    As soon as the Department of Veterans Affairs makes their 
decision about the location, then the architects have been 
selected, could be announced, and could go to work.
    Mr. Baker. So we could assume if everything went swimmingly 
that by September we could have architects at work designing a 
facility?
    Dr. Kaiser. Yes, sir.
    Mr. Baker. Okay. Well, that would mean we would then be 
2012, 2013. I think this is the point that has not been made 
clearly to the veterans.
    Some have assumed that if we don't take the deal as it's 
outlined, where it's proposed, in the terms in which it's 
proposed that they are going to be without healthcare. Even if 
you take it the way it's been prescribed, you are without 
healthcare for the next six to seven years any way. Now, is 
that an acceptable time window?
    I look up, drive up and down the interstate between Baton 
Rouge and New Orleans and see hospitals and healthcare 
facilities being built all the time in tow or three years or 
less. I have not yet had an adequate explanation from HUD, the 
VA, or anybody else why this process is so doggedly long.
    There are extraordinary uncertainties about how we are 
going to go forward. And I again make the point to veterans: If 
you are worried about healthcare, the collaboration makes it 
extraordinarily more complicated to get the facility opened and 
operational for your purposes.
    And my question will be of a lot of the veterans who are 
here today: How long is long enough? Is it five years; is it 
six years; is it seven years? When does it get to be too long? 
I think it's too long right now, but let me move on.
    Mr. Chairman, my time has long since expired. I am more 
than willing to yield to other Members and come back for 
additional rounds, but I'm at your direction, sir.
    The Chairman. We will come back to you, Mr. Baker. Mr. 
Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman. I really have lots 
of questions to be answered that cannot be answered by you at 
the table.
    I think you tried to make the point and I want to ask, 
maybe help you make the point that our State has done all that 
it can, that it has been asked to do any way, to position 
itself in the event this collaborative is struck, this 
agreement is struck between LSU, Tulane, and the VA. Is that 
not what you have been discussing with us this morning?
    Dr. Cerise. That's correct.
    Mr. Jefferson. And the criticism that was coming forth from 
some Members of Congress was that the State had not itself made 
a sufficient commitment and that it would not make a sufficient 
commitment to be a good partner; and this has been cleared up, 
has it not.
    Dr. Cerise. That's correct.
    Mr. Jefferson. One of the questions for a detailed budget, 
a detailed plan, has that been delivered through the 
legislative process and through administrative action.
    Dr. Cerise. The Legislature has made the commitment of 
three issues: The $74 million for land acquisition and 
planning, $225 million or $226 million, which is the balance of 
the downpayment for the State's portion of this, essentially 
making the State commitment to build the State's share of this 
center in New Orleans. And so the commitment to acquire the 
land and to build the State facility there in conjunction with 
the VA.
    Mr. Jefferson. I want to make it clear. It won't be the 
State's responsibility to build this facility all by itself, 
and there has to be some planning, some cooperation here. But 
the deadline, the timeline for building it----
    When I went to a meeting in Mr. Filner's office and the 
Members of the Committee and others, we were all fussing about 
how long it might take to get this done, but they told us there 
was no way to quicken the process, that for most VA hospitals 
that are being built it take's this sort of period of time: The 
five, six, seven years. And that entirely is not the fault of 
the State or legislative process; isn't that correct?
    Dr. Cerise. It's my understanding that to do this 
separately or together at this point is--will--to do this with 
the State, it will not delay the VA as opposed to doing it 
separately from----
    Mr. Jefferson. So it isn't the idea of the collaboration 
itself that brings up the time issues in place. It's just a 
matter of how physically one can build a hospital in this 
period of time. It just takes that much time to do it is what 
we've been told; is that correct?
    Dr. Cerise. That's correct.
    Mr. Jefferson. But the things that will come out of this 
process, this collaborative process, I think can be a model for 
what might happen in other places.
    As the Mayor stated--and I may ask him this. I don't know. 
As the Mayor stated, had it not been for the faulty levees, we 
would not be discussing our recovery, at least not today in 
these terms. And the State has undergone some process where it 
has established a strong building code across the State, in 
particular down here, to do what it can in the event of another 
such catastrophe to at least elevate so that there wouldn't be 
such a tremendous record loss.
    Some of us used to think that it was better to have records 
in the basement or the lower levels of Charity Hospital or to 
have them some other place than now, but a lot has been learned 
from that.
    Can you maybe--I want to ask the Mayor. I'll ask you this. 
Can you talk about the way we planned for the future with 
hospitals, with our record keeping restoration, with making the 
facilities available at the time of the storm and that sort of 
thing so that we might provide some assurance to Members of the 
Congress, others around the country that we made good plans to 
deal with these questions?
    Mr. Romano. Mr. Jefferson, I think I might be able to help 
respond to that.
    Part of--the question was asked earlier about the cost of 
the facility, the $1.2 billion, and that cost really comes from 
three main areas.
    The first really has to do with the planning for a 
university type medical center. In order to be able to teach in 
a facility, it's basically required, and so forth.
    It also talks about additional technology that's required 
for some of the record keeping that you are describing to 
become electronic as opposed to paper based and making the 
storage of those records much more disaster proof for the 
future.
    And then, finally, when you talk about hurricane hardening, 
the way the facility is being planned, it is essentially to put 
the essential services above the flood plain; and so a lot of 
the cost has to do with ramps and everything that will create 
an emergency room that's 22 or 26 feet above sea level at the 
required spot. And so the lower levels would be more for retail 
type things, clinics and such space that would, if something 
disastrous were to happen again, would not be essential 
services on those lower levels.
    And so those are just some examples of how planning is 
going forward to address some of those issues for the 
hospitals.
    Mr. Jefferson. On Tulane's part, you have anything to add 
to that, sir?
    Dr. Miller. Certainly not in terms of--facilities is not my 
thing, but there's other costs, Mr. Jefferson, that--that can't 
be measured in terms of the construction costs. Those are the 
cost benefits or some of the synergies that are created by 
having LSU, Tulane in close proximity to both hospitals, the 
State hospital and the VA hospital.
    The fact that our physicians can provide services there, it 
takes less total full-time equivalents (FTEs) to be able to 
provide the same type of services as opposed to the VA that is 
built basically isolated from the universities. So there's 
tremendous benefits to the synergy created by the location.
    Mr. Jefferson. Thank you, Mr. Chairman for the--my time has 
expired. I appreciate that.
    The Chairman. Thank you, Mr. Jefferson. Mr. Miller?
    Mr. Miller of Florida. Thank you, Mr. Chairman. Following 
up my colleague's question in regard to the cost of the 
facility, Dr. Cerise or Mr. Romano, can you explain, other than 
ramps to get out of the flooding area, how the cost has 
escalated from $630 million, which was the estimate I think in 
the fall of just last year, to $1.2 billion today; and what 
assurances do we have today that that number won't continue to 
escalate.
    Mr. Romano. I think the best answer to the question is that 
the initial estimates that were provided were based on a 
facility sizing that, again, at that point was an estimate that 
didn't have any real science behind it. And as the estimates 
have become refined and the business plan has evolved, the size 
of the facility has grown, first of all; and so that is the 
biggest impact that accounted for the change from the $650 
million to the $1.2 billion.
    Mr. Miller of Florida. So it has doubled in size?
    Mr. Romano. Excuse me?
    Mr. Miller of Florida. So it has doubled in size?
    Mr. Romano. No. And then that's not the only factor.
    In addition to that, the cost estimates became what we 
would call fully loaded in terms of including all of the 
financing costs and interim financing costs associated with the 
facilities incorporating all of the various outpatient 
components that would have to go with it. Again, as the 
business plan evolved, those things become clearer and the 
estimates became sharper.
    Mr. Miller of Florida. If I can interrupt. Do we assume 
that the business plan will continue to evolve and costs will 
continue to escalate?
    Mr. Romano. There's no assurance that the costs couldn't 
escalate for other reasons, but the business plan has been 
brought forth reasonably and in its final form.
    Mr. Miller of Florida. Dr. Cerise, my colleague, Mr. Baker, 
was asking you about Secretary Jackson's letter to Governor 
Blanco. I didn't get a decent response from you as well in 
regard to why the answers haven't been given to HUD.
    You said we are working on it, when will they will be 
provided. When will they be provided? Also I would like to 
request that a copy of those answers be provided to this 
Committee for the record today. Can you elaborate just a little 
bit?
    [The information was not provided to the Committee.]
    Dr. Cerise. Sure. I think, again, the concern of--we have 
been in negotiations or discussions with HUD for a period of 
many months now regarding the $300 million and Community Block 
Grant (CBG) and----
    Mr. Miller of Florida. I'm still--I apologize. You're 
filibustering me. I want to know when? You've got to know in 
your mind when that questionnaire is going to be answered.
    Dr. Cerise. I think that----
    Mr. Miller of Florida. The letter was June 21st.
    Dr. Cerise. And I imagine--like I said, I know that there's 
a draft of responses posed, so I think it's reasonable to think 
within a week or so that could be finalized.
    Mr. Miller of Florida. It had $74 million attached to it?
    Dr. Cerise. Excuse me.
    Mr. Miller of Florida. It had $74 million attached to it. 
Isn't that a pretty good incentive to get those questions 
answered?
    Dr. Cerise. Again, when the Governor prioritized, she made 
our priority a commitment of the funds to demonstrate that the 
State was willing to commit funds to make this happen. That was 
a priority above responding to the questions and getting that 
final form back.
    Those questions can be answered I think--again, I'm 
speaking for the Governor now, but within a week or so I think 
is reasonable.
    Mr. Miller of Florida. Thank you. That's what I needed, a 
week or so. We'll be awaiting your response.
    Can you tell me what the $74 million in Community Block 
Grant (CBG) funds are going to be used for and are those the 
same funds that the Governor is saying that the State is 
allocating for acquisition of the lands?
    Dr. Cerise. That's right. The State has made a commitment 
to put forth $74 million.
    Mr. Miller of Florida. Is that the same money that's coming 
from HUD?
    Dr. Cerise. No, sir.
    Mr. Miller of Florida. What will the HUD money be used for, 
because I understand these funds will enable the State of 
Louisiana to acquire land and continue design work for a new 
academic medical center in downtown New Orleans. That is not 
the same money?
    Dr. Cerise. That's right.
    Mr. Miller of Florida. It just happens to be the exact same 
number, $74 million?
    Dr. Cerise. What the Governor did and the Legislature did 
was put forth State funds to make sure that this project would 
move along as opposed to HUD dollars.
    Mr. Miller of Florida. That money is for what?
    Dr. Cerise. For land acquisition and planning and design.
    Mr. Miller of Florida. And the CBG funds are for what?
    Dr. Cerise. The use, I do not know.
    Mr. Miller of Florida. It says land acquisition and design 
work. It appears to be the exact same thing. I just want to 
make sure that everybody's up front and honest who is providing 
money and where, is it coming from the Federal Government or is 
the State Government providing it?
    Dr. Cerise. The State is relying on those Federal dollars 
to replace--to go toward replacement of this facility; and that 
process has turned out to be a very prolonged protracted 
process and the State did say we're going to put forward State 
dollars to make sure this happens, to make sure the State does 
not delay this, and use those Federal dollars in appropriate 
places elsewhere.
    Mr. Miller of Florida. Those appropriate places are to 
acquire land and continue design work for an academic medical 
center.
    Dr. Cerise. That was the plan for those funds up until----
    Mr. Miller of Florida. I'm sorry, my time has run out. I 
apologize. I'll get you in the next round.
    Dr. Cerise. We will not be spending those dollars in two 
places. They are being deployed----
    Mr. Miller of Florida. I'll get you in the next round; and, 
Mayor, I'll see you in the next round too. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Miller. Mr Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. I have a 
couple of questions for Dr. Kaiser.
    There's been a lot of discussion about the facility here in 
downtown. How difficult would it be to maintain that current 
relationship with some of your other facilities? You mentioned 
in your opening comment you have seven acute care hospitals and 
extensive outpatient clinics, so my first question is: Could 
you still have that relationship in one of these other 
facilities that might not be downtown? And my second question 
is: Since you're asking for the Federal Government to have a 
strong partnership with LSU to take care of our veterans and 
since you have so many acute care hospitals, do you provide a 
TRICARE--do you accept TRICARE in your hospitals?
    Dr. Kaiser. The--the seven hospitals run by the healthcare 
services division are scattered across the State. The one here 
in New Orleans formally known as Medical Center of Louisiana in 
New Orleans, now an interim hospital, well, those seven 
hospitals continue to work together. We have many programs. I'm 
the Director of those seven hospitals.
    For--the collaboration with the VA is critically important 
here in New Orleans because of the synergies that will be 
created by putting the facilities next to each other, their 
operational savings, but it doesn't really have an influence on 
what's going to happen around the rest of the State. Have I 
answered your question, sir?
    Mr. Michaud. Could you--does the facility have to be in 
downtown? Could it be five, ten miles out of the city? Does it 
have to be downtown to still have that collaborative effort.
    Dr. Kaiser. The State of Louisiana, LSU and our partners 
have all agreed that the replacement hospital, the replacement 
State hospital should be in downtown New Orleans and will be.
    Mr. Michaud. But does LSU, do you feel that collaboration 
can be elsewhere? I know you talked about the collaborative 
effort with all three. In your opinion, can LSU do it 
elsewhere?
    Dr. Kaiser. With the VA, no, sir.
    Mr. Michaud. Okay. And what about TRICARE; do you accept 
those.
    Dr. Kaiser. The hospitals around the State all have 
collaborative relationships with the Department of Veterans 
Affairs and provide services as needed for veterans when they 
are not available through the veterans system.
    Mr. Michaud. So does--the seven acute hospitals I assume 
then do take TRICARE.
    Dr. Kaiser. I'm not positive. I'm not positive really.
    Mr. Michaud. You don't know. Okay.
    My question, Mr. Mayor, you had mentioned about you're 
building smarter and I can appreciate that, but it's my 
understanding that the levee has not been fixed; is that 
correct?
    And what are you doing as far as a possible terrorist 
attack? I'm sure it's being taken care of as far as hurricanes 
or tornados, but can you elaborate a little more? Because as 
the Chairman mentioned, that's going to be a big issue for 
those of us who try to, you know, use Federal dollars wisely is 
to build in an area where it would be safer.
    Mr. Nagin. Well, most of the areas that had breached pre-
Katrina or during--right when Katrina hit have been repaired to 
the new standards that the Corps of Engineers has designed. The 
entire system of levee protection that encompasses the entire 
metropolitan area of the New Orleans region has not been 
completed, and the Corps of Engineers gives us estimates that 
by 2010 or possibly 2011 the entire system will be complete, 
so----
    And we are pretty comfortable that the new design builds 
the levees much higher, they're re-enforced, they are armored, 
and there also is a gated system that protects us against storm 
surges at the lake, which we didn't have prior to Katrina.
    As far as terrorist attacks are concerned, we work with the 
Federal Government on a number of different initiatives. 
Particularly the target area that seems to generate the most 
concerns is our port; and our port has invested a significant 
amount of dollars with various technologies that allow us to 
scan, you know, cargo that comes off the ships themselves and 
we work with the Office of Homeland Security on a regular basis 
to assess threats.
    With what happened recently in London, we were on 
conference calls on almost a realtime basis to make sure that 
there weren't any collateral threats to the City of New 
Orleans, and we were given the clear light that we weren't.
    Mr. Michaud. Thank you. Thank you, Mr. Chairman.
    The Chairman. I appreciate your testimony on building 
smarter and the hardening. What do you call it, hurricane 
hardening?
    Mr. Nagin. Hardening, yeah.
    The Chairman. And I certainly have the confidence that that 
is going in the right direction, so thank you for that.
    As I read the testimony from all of you looking at the 
opportunities for the future, I mean taking the tragedy and 
saying now we can rebuild and, in fact, put new models and even 
better collaboration, one thing that I saw was missing, at 
least in the written testimony, was--you can tell me in actual 
fact--is the issue of mental health for not only our older 
veterans but those coming back from Iraq and Afghanistan.
    This Congress, in the wake of what I call the Katrina of 
the U.S. Department of Defense health system; that is, the 
Walter Reed scandal, because it deserves a silver lining and we 
were able to get tremendous new resources for the VA, in fact, 
$13 billion over last year, almost a 30-percent increase, 
unprecedented in our history, and much of that is in the area 
of mental health, post traumatic stress disorder (PTSD), 
traumatic brain injury, and I would just, I guess, advise that 
as you go forward with planning, these injuries are going to be 
more and more prevalent in the population, in those returning 
from Iraq. And I think you would do well to anticipate that 
need and look forward and look further in new ways of dealing 
with these injuries, many of them hit at least at the beginning 
of their--their effect.
    I guess that's just off the top. If there's any response, 
I'd be grateful.
    Dr. Miller?
    Dr. Miller. Yes. Mr. Filner, one of the advantages of 
building the VA downtown is that both of our medical schools 
have outstanding departments of psychiatry with experts who 
have a lot of experience in the area of post traumatic stress 
disorder and have already begun working with the area's 
veterans now in the post-Katrina period, so it would be a very 
important part of our missions to continue that and expand that 
as we regrow the medical facilities.
    The Chairman. Would these--a lot of these veterans are 
falling through the cracks when they return to their home 
areas. There's not only the resources in place, so as we are 
building, we need to have those firmly in place. Dr. Kaiser, 
you want to answer that?
    Dr. Kaiser. Ms. Catellier when she testifies I'm sure can 
talk about the plans for the VA, but in the plans for both LSU 
and the VA are mental health services. They are built--they are 
both built in.
    The Chairman. I think we really need some creative 
mechanism especially for those who come back from Iraq, to have 
ways of dealing with these issues with their peers with 
whatever techniques, you know, to expand on those and research 
on those because we have not done this right.
    We failed, I think, our veterans from Vietnam. 200,000 
homeless veterans on the streets tonight are Vietnam vets. 
That's a terrible tragedy this government allowed to happen, 
and we haven't given up on those yet.
    And I will tell you a startling statistic that seems to 
have credence: As many Vietnam vets have now died from suicide 
as from the original battles, I mean, from the original war. 
And that's a testimony to how we need these mental health 
services and begin to make sure these tough marines and 
soldiers and sailors know that, you know, it's okay to admit 
this and get it done because it could be more tragic than any 
original wound that they had.
    Mr. Baker, we will have another round of questions.
    Mr. Baker. Thank you, Mr. Chairman.
    Dr. Cerise, I'm going to move past the earlier line of 
questions to a subject which other Members have brought up; and 
that is, the replacement structure as envisioned in the initial 
collaborative report that was made to Congress which included 
the original timeline, so that's the frame of reference from 
which I'm making my questions.
    That was the plan that was to have begun mid-year 2006 with 
a completion late 2011, 2012, so we are talking about the same 
general outline. I have not seen any other study released or 
recommendations for construction.
    At the site which is now proposed, there would be a 
defendant place philosophy which would require certain assets 
being deployed at the site, meaning if there were to be a 
recurrence of a flooding event, you could successfully take 
care of and administer to those who were on the site for a 
period of eight days.
    The first question would be: How long did it take the Corps 
to pump the water out the last time? It's longer than eight 
days.
    Mr. Nagin. Yeah. It's 22 days.
    Mr. Baker. My point is, if we are going to do this defend-
in-place, we need to have the capacity to have cookies and soft 
drinks and bathroom facilities. It also goes to the cost 
estimate of $1.2 billion. In this same description of the 
project site, it requires the elevation of the perimeter of 
site to repel post-Katrina flood levels, current elevation 
assumption is 15 feet above sea level. Now, I'm a Congressman. 
I'm not sure what that means. I think that sounds like a levee.
    Was it the intent in this report to levee the VA site from 
the potential of a recurring flood event?
    Dr. Cerise. Yeah. I'm going to--I'll defer to those that 
are more familiar with the actual construction and business 
plan. I will say that it's not uncommon--in fact, when we 
looked around the country after--immediately after Katrina to 
see that particular philosophy of protecting----
    Mr. Baker. Oh, I understand it's not avid, but I'm just--
I'm trying to make clear are we leveeing the site or are we 
not?
    Mr. Romano. I think the direct answer to your question is 
no, but at the same time to again design--and, again, I was--
performed the business plan portion. The financial portion was 
not my----
    Mr. Baker. Well, let me just read to you again from the 
report. Elevation of the perimeter of site to repel post-
Katrina flood levels, current elevation assumption is 15 feet 
above sea level. Now, I don't know how you get that done 
without some--something stopping the water, a wall of some 
sort, a retainer.
    The next question would then be, since the modification of 
the proposal, which was originally 35 acres, we are now in the 
70-acre plus site. I'm understanding the leveeing criteria was 
a concern of the VA, to protect their assets. It may not have 
been the criteria the State was looking at.
    Would we now just levee off the VA facilities or would we 
levee off the entire 70 acres? Has the leveeing cost been 
included in the $1.2 billion projection?
    Mr. Romano. Well, again, the $1.2 billion projection 
includes the cost for the LSU site--the site and it includes 
building the facility to such a height that it would be able 
to----
    Mr. Baker. Oh, I'm not missing that point. In the same 
document, it says the first 15 feet of vertical elevation will 
not be utilized for any purpose whatsoever. Homeland Security 
won't let you use it as a garage, the VA won't let me use it as 
a hospital, so this thing is going to be on 15-foot piers 
surrounded by a levee.
    Dr. Kaiser. No, sir. The hospital will be elevated, the 
critical services will be elevated at this point probably 25 
feet and there can be service underneath. It just will be not 
critical medical services for both the LSU portion I believe 
and that's also planned for the VA portion.
    Mr. Baker. Well, if you would review the portion of the 
report which says elevation of the perimeter of the site to 
repel post-Katrina flood levels and explain that to me in 
writing at a later time.
    [The information was not provided to the Committee.]
    Further, vehicular ingress and egress ramps for emergency 
access to State or Federal highway system elevated above the 
hundred-year flood plain. Now, has the cost of elevating the 
roadways in and out of the facility been included in the $1.2 
billion or whose cost is that?
    Mr. Romano. Yes, it has.
    Mr. Baker. Amazing. I'd like to see those numbers.
    Are you going to elevate a State or Federal--I assume it 
only means one roadway in and out above the hundred-year flood 
plain, which I assume has got to be 14 or 15 feet above mean 
sea level.
    Mr. Romano. And, again, I believe as Dr. Kaiser referenced, 
that's the 24 foot number for the essential services that the 
project's been working with.
    Mr. Baker. And this also means we have to have a self-
generating independent power source that's also 15 or 25 feet 
above the mean elevation of the building site?
    Mr. Romano. Yes, sir.
    Mr. Baker. Okay. That will run at least eight days we hope?
    Mr. Romano. Yes, sir.
    Mr. Baker. Okay. Great. I'd like to see those numbers too.
    Mr. Chairman, I've got 11 seconds and I don't want to get 
into my financing questions because they certainly are going to 
take me more than 12 seconds. And I hate to suggest it, but I'm 
going to withhold for another round, unless you want me to go 
ahead.
    The Chairman. Yeah. To get to the rest of the panels in a 
reasonable time, I think this will be the last round, but I'll 
give you a couple minutes to ask some more questions.
    Mr. Baker. Mr. Cerise, the project is proposed to be funded 
by revenue bonds. What have private hospitals done post Katrina 
with regard to the number of beds being provided? Have they 
expanded the number of beds within the Orleans market?
    Dr. Cerise. No, sir. There are fewer beds in the Orleans 
market now than before Katrina.
    Mr. Baker. And is that--that's the private market decision?
    Dr. Cerise. That's correct.
    Mr. Baker. And the public market decision with this project 
is to increase the number of beds in the public facility over 
what was pre-Katrina?
    Dr. Cerise. No, sir.
    Mr. Baker. So the number of beds provided will be the same 
or less or----
    Dr. Cerise. That's correct. It's a smaller overall bed. Dr. 
Kaiser can tell you----
    Mr. Baker. That's okay, because I want to get to the 
concerns of funding this project.
    You are going to go to Wall Street and ask people to buy 
bonds issued by the State for the purposes of financing this 
project of at least $900 million. The financials that I saw had 
a 30-year rate estimated at 4.85 percent for the feasibility of 
the project. Is that what your belief is today?
    Mr. Romano. Yes, sir.
    Mr. Baker. Okay. Well, morning rate for treasuries had a 
yield of 5.1. You are not suggesting that revenue bonds issued 
by a project which has revenues a little bit not clear are 
going to beat the market rate for U.S. Treasuries.
    Mr. Romano. No. That's understood, sir. We've done some 
subsequent sensitivity analyses because that was one of the 
questions by the HUD Secretary. And even if the rate were to go 
up by as much as a half a point, it would not significantly 
effect the financing.
    Mr. Baker. So we've got a tenth of a point margin from 
today. We are at 5.1, the projection was 4.85. Technically, I'm 
wrong. It was 5.204 this morning, so we are at about four and a 
half points of your five-point limit this morning.
    Secondly, the effect of the issuance of $900 million of 
revenue bonds on the State's general obligation capacity, you 
are suggesting, I think LSU has I believe suggested, that the 
issuance of the revenue bonds would have no impairment on the 
State's general obligation capacity?
    Mr. Romano. I'm not certain one way or the other, but I do 
believe that the figure that we've been working with as what's 
being borrowed at $800 million, so $1.2 billion less $400 
million from other sources.
    Mr. Baker. That's a new figure. I've seen $900 million. But 
my point for asking is the Time program, which none of you have 
any reason to be familiar with, is a program funded by revenue 
bonds secured by the gasoline taxes on gasoline sold at the 
pump. That is a very clearly identifiable steady source of 
revenue from which a person holding the obligation has a fairly 
sophisticated analysis of the likelihood of return and the 
security of that transaction.
    In the case of the Time program, those revenue bonds did 
adversely impact the State's general obligation abilities. We 
are sitting today at a capacity of about $300 million in annual 
general obligation bonds that could not be sold into the 
market.
    I haven't seen anything in the literature which discusses 
in-depth the financial implications of going to a market for 
nine--your $800 million worth of revenue bonds for a proposal 
that does not make clear the source of the revenue for 
repayment nor have I seen a statement from, let's say, the 
State treasurer or the rating agencies or anyone else that it 
will not have an adverse effect on the State's general 
obligation bonding capacity.
    Can--may I request that that information be provided to the 
Committee?
    [The information was not provided to the Committee.]
    Mr. Romano. Certainly. And I believe that those pieces are 
in process as sort of the next step now that the business plan 
has been completed.
    For ten seconds worth of a comment as far as the 
identifiable revenue sources, again, the business plan tries to 
speak to the patient revenues and where those would come from 
in terms of where those bonds would be repaid.
    Mr. Baker. Mr. Chairman, not to impose on the Committee, I 
know we have other panels to come. There are innumerable more 
questions that I would like to ask. I'll pose in writing and 
submit them to you, Mr. Chairman, perhaps for follow up from 
this panel.
    [The Committee did not receive a copy of the questions, nor 
responses from the witnesses.]
    This is the best panel we've got to answer the specific 
operational questions about this proposal. I thank you, Mr. 
Chairman.
    The Chairman. Thank you, and we will submit those questions 
on behalf of the Committee.
    Mr. Baker. Thank you, Mr. Chairman.
    The Chairman. Mr. Jefferson?
    Mr. Jefferson. I'm reluctant to wait until Mr. Baker's 
financial questions, so I'm going to start anyhow.
    More than 20 years ago--you may or may not know this--the 
State created a Time program to which Mr. Baker referred. It's 
been a long, long time ago when Mr. Romer was Governor. And 
when it did that, it also put some limits on this general 
revenue bond obligations voluntarily. They weren't imposed or 
required by an outside authority. I don't know if you know this 
or not. I'm just asking if you do, but it now has a limitation 
which it puts on itself to only do so much. In the old days, we 
didn't stop there. We put more and more bond time.
    Is it your understanding that the--if you can answer this--
that the limitation that the State has, it's operating under is 
a self-imposed limitation and that if the State--no one knows 
what the State's full capacity for general obligation bonds 
because it hasn't explored it for many, many years. Are you 
familiar with this at all?
    Dr. Cerise. No, sir, I'm not. I can tell you this project 
has been discussed and approved by a joint budget Committee of 
the State Legislature and certainly bond commission and----
    Mr. Jefferson. So the State has made a judgment it has no 
effect on this other than it's not detrimental; is that 
correct.
    Dr. Cerise. The State----
    Mr. Jefferson [continuing]. Has made a decision that it 
doesn't detrimentally effect this.
    Dr. Cerise. That it can do this.
    Mr. Jefferson. So we needn't worry about that on our end of 
it. The State has to kind of make that judgment about it.
    I want to talk about something we need to worry about and 
Mr. Baker has raised another question, which is the one about 
the raised--the 15-foot security against flooding above sea 
level I think is how it was described.
    Now, if one understands the State--I just do this for the 
benefit of the people, the Members who aren't from here, coming 
from the river--which we can see, it's out this way 
(indicating) a little bit--to the lake, the city goes down a 
little dip then--It's higher on this--toward the river than any 
other place in town, and so the flooding that took place up 
around here was far less than what took place on the lake and 
would be the case in any event of a flood. So the need to raise 
the area is really going well beyond what you need to do in 
order to protect yourselves from what happened before.
    I'd like to ask you. How much flooding was there; what was 
the level of flooding in the Charity Hospital system? How many 
feet of water was in the Charity system?
    Dr. Cerise. The basement was full up to the first floor. At 
the street level, it was about at mid thigh, maybe a little bit 
higher than mid thigh at the street level, in that area.
    Mr. Nagin. Yeah, two to three feet.
    Mr. Jefferson. Two to three feet. So what's happening here, 
with the worst flooding one could imagine and with the city 
under water, you had two to three feet of water there, which 
means that to raise it 15 feet above sea level is to go to 
extraordinary lengths to give assurances that nothing else can 
happen that would be totaled. But even with the worse we can 
imagine, which that was the worst, the city became part of Lake 
Pontchartrain, that's what happened there. So I suggest that 
you've gone well beyond the need to assure to talk about 15 
feet.
    Now, someone mentioned that Mayor Nagin went to the 
Netherlands sometime ago, I guess almost a year and a half ago 
now. Where most of it is 15 to 20 feet below sea level, I 
should tell the Committee that it's been for I guess the last 
30 years fairly well safe of the sea storms that have come 
because they have taken protections that have worked well.
    We call it leveeing here. They have breakers out in the 
sea. They have the same sort of designs we are talking about 
now with our partners and have discussed with honoring the 
levees and all the rest with dikes and dunes and all and the 
protection against surges. That's all technologically possible; 
we know that.
    In fact, a lot of the consulting done with the folks in the 
Netherlands was done by our own Corps of Engineers. We have 
known for 20 years how to prevent the flooding here. We just 
haven't put it in place because there wasn't the urgency to 
fund it.
    So I want to make sure that the Committee understands and 
the Members of Congress understand that this is a doable and 
possible situation without going to the extraordinary lengths 
you are going to. I commend you for what you've done to go this 
far, but frankly, when you look at it, it's probably more 
assurance than is needed.
    Now, the last thing is on the acreage for the site. There 
was some talk about not being enough space for it. Can you tell 
us--maybe Mr. Mayor and someone else--I only have a few minutes 
here, a few seconds--it has been taken under eminent domain. 
Most of the land, as I appreciate it, is nonresidential and not 
occupied.
    Mr. Nagin. Yes.
    Mr. Jefferson. Tell us how you can meet this footprint 
requirement that the VA has--and maybe someone from the State--
how quickly this can be done and how efficiently this can be 
done.
    Mr. Nagin. We have identified a large enough site to 
accommodate anything that the VA could build both now and in 
the future, and there are two specific areas.
    The first site that we have identified is very near the 
LSU--well, all of them are very near where LSU has planned to 
build their facility.
    The second that the Congressman mentioned, there's not a 
lot of residential people there and we can accumulate that very 
quickly. We have signed a cooperative endeavor agreement with 
the State, we've identified the funds, we are going to use our 
quick-take authority both at the State level and the local 
level so we can do this fairly quickly.
    Just to give you some perspective, quick-take expropriation 
at the city level takes anywhere from 45 to 60 days max; so we 
feel very comfortable--the State's Legislature is much stronger 
than ours, so we feel as though we can move a lot quicker.
    In addition to that, there's another parcel of land that's 
next to the targeted area that we have. That is more 
residential, but it's rental; and we feel as though if we 
needed to expand the footprint that we have today and identify 
it that we could do that fairly quickly also, so I don't think 
footprint is going to be an issue.
    Mr. Jefferson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Jefferson. Mr. Miller?
    Mr. Miller of Florida. Thank you, Mr. Chairman. If I could 
yield to my colleague, Mr. Baker, for questioning.
    Mr. Baker. I thank you gentlemen, and just a brief comment 
on this bond obligation authority. It really goes to the 
State's revenue stream. We are at a $30 million budget this 
year. I don't know what the prognostications are. Some of the 
market may feel that the State revenues may be done as the 
Katrina effect tails off from the Federal revenue streams and 
other sources of one-time revenue, but it is a very slippery 
slope.
    It is a market-driven decision and it's not a self-imposed 
decision and it's what the market is willing to let us borrow 
their money for given our ability to repay it; and that is 
clearly driven by our net balance sheet as a State entity. And 
so there are a lot of significant concerns about the $800 or 
$900 million of revenue.
    I thank you all. I yield.
    Mr. Miller of Florida. Strike that. I yield to the 
gentleman for the State, Baker. He is eminently clear always.
    Dr. Miller, you talked about former collaborative efforts. 
If I understood Dr. Kaiser correctly, he said that LSU and the 
VA could not continue collaboratively and I will ask you to 
clarify your answer.
    If it was, if the VA hospital were not built adjacent, do 
you see an opportunity for the VA and Tulane to continue a 
collaborative research effort even if the VA decides not to 
build the medical center adjacent to the Tulane campus?
    Dr. Miller. The collaborative, the downtown collaboration 
is more than just hospitals. It's about research, education, 
and patient care and the proximity to the medical schools is 
evaluated in that.
    After 40 years of partnership, we certainly wouldn't want 
to walk away from the VA, but it would definitely be more 
difficult for us to carry on all of our missions if the VA were 
not proximate to where our medical schools and our other 
teaching hospitals are; and that would effect the clinical 
service where it undoubtedly would take more FTEs to provide 
the same amount of clinical care and it would be a different 
type of clinical care than could be afforded when one has 
teaching faculty who are every day involved with the patient 
care at the VA.
    All the VAs I've been associated with during my career, 
including Miami, Gainesville, and New Orleans, have had close 
proximity to the medical schools and so that's the model that I 
know.
    Research would become more difficult because you lose the 
synergy of being next to the research labs of others doing 
similar research, so you don't have that every day, day-to-day 
collaboration to the same extent that you had.
    And, finally, education becomes more difficult for the 
residents and medical students who have to go back and forth to 
be able to attend their lectures, to use the libraries, and 
have direct contact with the faculty. So would we continue, 
yes, we would; would it be to the same extent and to the same 
benefit we had before, I don't think we could.
    Mr. Miller of Florida. Dr. Kaiser?
    Dr. Kaiser. I think it was said well by Dr. Miller.
    I certainly didn't mean to imply that we wouldn't be able 
to collaborate with the VA should they choose another location. 
We will work with them. Our faculty, our residents, our 
education has been done conjointly with the VA for many years, 
but there are huge opportunities of working together in the 
synergy if you put the facilities next to each other.
    Mr. Miller of Florida. Thank you. I appreciate your 
clarification. Mayor Nagin?
    Mr. Nagin. Sir?
    Mr. Miller of Florida. Nice to see you again, sir, and 
congratulations on your reelection. There is all kind of talk 
out on the streets today that there may be another type of 
announcement coming sometime soon. Can you elaborate, sir?
    Mr. Nagin. No, I won't elaborate on any of that. You know, 
I guess a lot of those races are getting pretty boring and they 
are looking for a little spark, so we'll see what happens in 
the future.
    Mr. Miller of Florida. Can you tell me about the new site? 
How many residential units are in the new speculative site?
    Mr. Nagin. Yes. Most of the--most of the structures in the 
targeted site are commercial, and there's very few residential 
in the initial first phase site. And if there are, they are 
rental units that we feel pretty comfortable that we could go 
in and quick-take. And when we quick-take, we have to basically 
compensate the owners for fair market value, so we don't see a 
big issue there.
    We do have some community groups that we have talked to and 
worked through some issues with, but we think we can still get 
it done pretty quickly.
    Mr. Miller of Florida. Quick-take, is that another word for 
eminent domain?
    Mr. Nagin. Yes. It's a piece of legislation.
    Mr. Miller of Florida. Let me just assure everybody on the 
panel that even though some of our questions appear to be 
rather blunt and argumentative, nobody here wants to cast 
aspersions on anything that the medical centers do, that the 
city wants to do. The President has made it very clear.
    From where I come from, I have the largest veteran 
population in the country out of the congressional districts 
and I do not have a VA medical center. However, it would 
surprise you to know that a recent study that was just given to 
this Committee by the Veterans Administration, we can solve the 
issue that is before us in northwest Florida for less than the 
CBG block grant that HUD just gave Louisiana.
    So, for anybody that may be here today thinking that I want 
to stop a hospital from being built here, that is not at all 
what my desire is to do.
    I have heard, although we are talking about teaching and 
students and you are talking about research, my concern is for 
the veterans. The veterans that are sitting here that have 
served our Nation. They need a veterans hospital, and it may 
not be that it needs to be downtown collaboratively with LSU or 
Tulane.
    That's what this Committee is trying to decide today. So, 
Dr. Cerise, any of the questions that have been asked today are 
specifically to get answers to the questions, so I appreciate 
your patience.
    Mr. Nagin. We understand that, Congressman. And, you know, 
you have our full commitment if you need a VA hospital in 
Florida, we will lobby with you to make sure it gets done after 
this one is done.
    The Chairman. Thank you, Mr. Miller.
    Mr. Nagin. Mr. Chairman, I have a noon flight to catch, so 
if it's okay with this Committee, I'd love to be excused.
    I'm going up to Washington D.C. to testify in front of the 
Homeland Security Subcommittee on FEMA, so if I could be 
excused, I appreciate it. Thank you.
    The Chairman. Thank you. I appreciate your leadership.
    Again, Dr. Miller, once again you gave a list of close 
proximity of hospitals and the VA Center and you missed San 
Diego. We are going to have to get you out there.
    Dr. Miller. Sir, I haven't had the pleasure of working at 
the San Diego facility. I was talking about those that I had 
experience at, but certainly I'll come out and do a couple of 
months.
    The Chairman. We welcome you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. Just one 
quick followup question and it deals with the levee, if anyone 
can answer it.
    The Mayor had mentioned about 65 percent or 64 percent of 
the people are coming back. My concern is well, how many of 
those are actually going to be veterans? Will there be the 
need--this might be a better question for the VA--for a full-
fledged hospital, whether it's here in New Orleans or 
somewhere, but by the time----
    My question is: The Mayor had mentioned that the levee will 
be taken care of by I think it was 2010 or 2011, so at the time 
that you're--if this hospital is to be built downtown New 
Orleans, what's the timeframe of the hospital being built or 
the VA facility being built and the levee system? Is it pretty 
much on the same timeframe if you are able to start?
    Dr. Cerise. That's my understanding, but I'm not as 
familiar with the timeline for the levee system.
    Mr. Romano. Again, I'm not sure about the levees, but the 
hospital on both sides still plans to be open in 2012, so it 
seems like that planning jives with what the Mayor was talking 
about.
    Mr. Michaud. And my last question, Mr. Chairman, goes to 
Dr. Kaiser. Because when I asked a question about a TRICARE 
since, you know, $1.2 billion is a lot of money and I notice I 
saw some veterans in the back shaking their heads as far as 
whether you would accept TRICARE.
    If this joint venture moves forward with LSU and if LSU, 
the hospitals that you represent, do not accept TRICARE, would 
you be opposed if it was part of the agreement that you do 
accept TRICARE patients with such a large amount of money?
    Dr. Kaiser. There would be no problem, but it's important 
to emphasize that the planned facility downtown looks at the 
existing VA sharing responsibilities and looks at how services 
can be shared back and forth between LSU and the VA, and 
there's a great benefit to both my patient populations for the 
quality of care that we can offer.
    There's great expertise, rehab services in the VA that 
we'll be able to offer to some of our citizens. We have some 
specialties that the VA doesn't currently have that we'll be 
able to offer back to the veterans. And so the synergy--we talk 
about medical education, we talk about research, but we also 
need to talk about quality of services for both populations. 
Thank you.
    Mr. Michaud. Thank you. Thank you, Mr. Chairman. I yield my 
time.
    The Chairman. We thank you all, we thank the panel. We've 
been here for a long stretch this morning. We thank you for 
your information, for your commitment to healthcare. And we'll 
excuse Panel One, and Panel Two will consist of representatives 
and independent veterans to testify.
    The Chairman. Again, thank you for being with us, for 
helping us deal with this critical issue.
    We hear first from Henry Cook, the III, the National Senior 
Vice Commander for the Military Order of the Purple Heart. And 
as I was talking with him earlier, he had close association 
with a legend in your area former Chairman of this Committee, 
Sonny Montgomery; and we welcome you here and welcome you in 
honor of Sonny also.

    STATEMENTS OF HENRY J. COOK, III, NATIONAL SENIOR VICE 
COMMANDER, MILITARY ORDER OF THE PURPLE HEART; CHUCK TRENCHARD, 
ADJUTANT, DEPARTMENT OF LOUISIANA, DISABLED AMERICAN VETERANS; 
    WILLIAM M. ``BILL'' DETWEILER, PAST NATIONAL COMMANDER, 
     AMERICAN LEGION; AND BILL PENN, M.D., BATON ROUGE, LA 
                     (INDEPENDENT VETERAN)

                STATEMENT OF HENRY J. COOK, III

    Mr. Cook. Thank you very much, Mr. Chairman. Chairman 
Filner, Members of the Committee, ladies and gentlemen, I am 
Henry J. Cook, the III, National Senior Vice Commander of the 
Military Order of the Purple Heart (MOPH).
    It is my honor today to appear before this Committee which 
is of such great importance to all veterans. And please keep 
that in mind during this hearing: The importance of our 
veterans.
    I heard a lot of testimony today about Tulane, about LSU, 
about public hospitals, about bureaucrats, but I didn't hear 
much about veterans; and this is where we have to keep the 
focus of this hearing. Please do that.
    I'm accompanied here by fellow members of the Military 
Order of the Purple Heart, and I will remind you that these are 
veterans who have shed blood on the battlefields of this 
country; and for that, they were awarded the purple heart meal.
    I'm also accompanied today by the State officers for both 
the States of Louisiana and Mississippi, and also present are 
members of our ladies auxiliary.
    I would like to preface my remarks today with a statement 
of thanks first to the Department of Veterans Affairs in both 
Louisiana and Mississippi for the way they reacted and took 
care of veterans when Hurricanes Katrina and Rita struck. 
Almost all our government agencies at both State and Federal 
levels were overwhelmed by the sheer magnitude and 
consequences. However, the Department of Veterans Affairs and 
the regional office in both Louisiana and Mississippi 
maintained their focus on care for veterans during this trying 
and challenging time. The services to the veterans provided by 
them--were without equal and, in some cases, heroic.
    I know of cases where nurses from the ICU stuck by their 
patients while they transferred them all the way to Washington, 
D.C. without giving a thought to their own home that they knew 
was destroyed. That is dedication to veterans. I ask that you 
commend the Department of Veterans Affairs by the way they 
continue to care for veterans in the aftermath of those 
catastrophic events.
    Your Committee and the Department of Veterans Affairs 
Medical Center in New Orleans are both very important to the 
members of my organization and all veterans for both Louisiana 
and Mississippi who were served by that facility. As we sit 
here today, your Committee is here in town but our VA is gone. 
It's gone, and we have veterans, World War II veterans, who are 
dying at the rate of 1,300 a day nationally and they can't wait 
until 2011, 2012, 2013. They need care today, and I 
respectively present that to you.
    From our perspective, the Department of Veterans Affairs 
medical system in New Orleans and on the Mississippi Gulf 
Coast, those two were very intertwined. They are struggling to 
deliver at best fragmented services.
    We are looking for your Committee to restore the New 
Orleans Veterans' Affairs Medical Center as a badly needed 
service provider to our members and all veterans in the area. 
This should be done as soon as possible so as to prevent the 
further loss of services and to provide full restoration of 
earned entitlements that these veterans have earned.
    To better explain what I meant by saying fragmented, I'm 
going to tell you that while the Department of Veterans Affairs 
in New Orleans is, in fact, providing service for veterans, 
many of them have to go to other locations for their care and 
think again of the World War II veteran, quite elderly.
    Now, in my particular situation, I received, prior to 
Katrina, my orthopedic care, here in New Orleans at the VA. 
Now, I either have to go to Pensacola or Mobile. Fortunately, I 
am physically able and financially able to do that. A lot of 
veterans cannot. They can't get someone to--they can't drive, 
they can't get someone to drive them, so what do they do? They 
go without care. We need to fix that. We need to fix it now.
    Now, the VA, of course, will tell you, along with some 
other agencies, that they sort of fixed this by the fact that 
when they ask a veteran to travel more than 28 miles from their 
home to a VA facility for treatment or even a private facility 
that they send them to, as they are doing now, they pay them 
for their travel. You may be shocked to know that they 
reimburse veterans for travel at a rate of 11 cents per mile 
when the Federal rate is 47 and a half cents per mile. The IRS 
approved rate is 47 and a half cents a mile. We pay the 
veteran, we reimburse him 11 cents a mile to travel and we also 
subtract a deductible. He has to pay a deductible if he uses it 
for the first three times of the month. If he has to travel 
four times in a month, he gets to keep the whole 11 cents of 
the mile. Something else that needs fixing, gentlemen. Gas is 
over $3.00 a gallon. If a veteran needs someone to take them to 
the hospital, they do ask for gas money. We can't even give 
that to veterans.
    We in the MOPH have members now who routinely travel to 
Mobile, to Jackson, to Pensacola and as far as Houston for care 
from the VA Medical Affairs system. The system of healthcare 
for the veteran in this area is very fragmented by every 
definition of the word. Please return to the veterans here a 
world class medical facility for veterans that can serve our 
membership and all veterans at one location and as soon as 
possible.
    There is one other problem area relative to veterans care, 
members of the veterans regional offices that were disturbed 
here in Louisiana. This involves a loss of ability of veterans 
to pursue claims that they had pending before the Department of 
Veterans Affairs.
    The Director of the State Veterans' Affairs Claim Division 
for the State of Mississippi at the time Katrina struck 
informed me that many veterans, most of the veterans that were 
having their claims processed in the New Orleans regional 
office when they lost that, those claims were then moved to 
Jackson. Well, it wasn't easy and it's still not easy, again, 
for those veterans, many of them World War II, to go to Florida 
to meet with a case officer, to go to Jackson to meet with a 
case officer to talk about their claim, to go to doctor's 
appointments in Jackson, Houston, Pensacola to support their 
claims. We need to bring it all back here, gentlemen, and we 
need to bring it back now.
    The transfer in those claims has created a terrible burden 
not only on the VA system as it exists and is operating 
fragmented, but on the also neighboring regional office in 
Mississippi. I do not know the status of the backlog now on the 
claims, but it exists and it's still nasty.
    We know that--in summary, we know that Katrina's has a 
devastating effect on the Department of Veterans Affairs 
medical care system. We should all know that what is most 
important now is full restoration of all veterans' medical 
care. And this is not about jobs, it's not about downtown, it's 
not about Tulane, it's not about LSU, it's not about public 
hospitals, it's about veterans.
    One person mentioned, and I was glad, about the PTSD, the 
added mental services that we are seeing now that the VA has to 
pick up. The VA is doing the very best they can now, but I can 
tell you again they are fragmented.
    Just recently on the Mississippi Gulf Coast, we had a 
soldier recently return from Iraq whose mother was a VA 
employee. He tried to get a PTSD appointment because he was 
having bad psychiatric flashbacks. He was given an appointment 
in six weeks. He committed suicide in the time he was waiting. 
We can't afford another death like that, we really can't.
    And I'm going to go back and mention, when I schedule an 
appointment now to go to Mobile for orthopedic care, it's a 
six-month wait for my next appointment. That's totally 
unacceptable.
    I thank you for allowing me to appear before this Committee 
on behalf of the Military Order of the Purple Heart. We have a 
lot of supporters here today from the Military Order of Purple 
Heart, and I now stand ready to take your questions.
    [The prepared statement of Mr. Cook appears on p. 71.]
    The Chairman. Thank you, Mr. Cook.
    I will say, by the way, that this Committee and Congress 
and the House did up that mileage rate to the Federal rate. 
That has not gone through the Senate yet or has been finally 
passed, but we have done our job in relationship to that. Just 
that little thing there.
    Mr. Cook. Thank you very much for that.
    The Chairman. Okay. Chuck Trenchard is the adjutant for the 
Department of the Louisiana Disabled American Veterans. Thank 
you very much for being here with us.

                  STATEMENT OF CHUCK TRENCHARD

    Mr. Trenchard. Thank you, sir. Mr. Chairman and Members of 
the Committee, thank you for the opportunity you have afforded 
me to come speak to you today on behalf of the Disabled 
American Veterans.
    The loss of the VA Medical Center in New Orleans has had a 
profound impact on both the quality and availability of 
appropriate healthcare for thousands of Louisiana and 
Mississippi veterans as well as veterans from both Alabama and 
the Florida panhandle. It is essentially that a new medical 
facility be constructed as soon as possible to ensure the well-
being of these veterans.
    The primary focus of this facility should be the care and 
treatment of America's veterans. Any other economic and 
political considerations in regard to the location of the 
facility are secondary and should be fulfilled only as a by-
product.
    This facility needs to be solely for the benefit of 
veterans and should be located in an easily accessible location 
safe from hurricanes and flooding. It should be placed in a 
location that will benefit the greatest number of veterans. It 
should be a dedicated facility not incorporated with any other 
programs.
    Whether we like it or not, this is a time of war and 
America's military are putting their lives on the line to keep 
our country safe as they have for over 200 years. As an 
instrument of national power, the military is trained to do 
what they are told to do, how they are told to do it, and when 
they are told to do it.
    Veterans are a unique group of people. They don't have to 
ask what they can do for their country. They know what to do 
and they do it well without regard for the risk. They have 
never kept their country waiting.
    Throughout the Spanish-American world, World War I, World 
War II, Korea, Vietnam, Panama, Kuwait, Afghanistan and now 
Iraq, veterans met the call to arms and successfully served to 
defend our Nation against all enemies. They have never kept 
America waiting. We owe it to our veterans to properly care for 
them now and not keep them waiting.
    As time goes by, the healthcare situation will get worse 
not better and America's veterans will suffer. We need to put 
politics and bureaucracy aside and do the right thing: Take 
care of our veterans now. After all, haven't they earned it? 
Thank you.
    [The prepared statement of Mr. Trenchard appears on p. 72.]
    The Chairman. Thank you.
    Bill Detweiler is Past National Commander of the American 
Legion, and just let me remind you we have your full statement 
for the record and we hope you can summarize that in about five 
minutes.

           STATEMENT OF WILLIAM M. ``BILL'' DETWEILER

    Mr. Detweiler. Will do. Thank you very much, Mr. Chairman.
    The American Legion appreciates the opportunity to come 
before this Committee this morning to discuss the status of 
veterans' medical care here in the city, in the New Orleans 
area.
    Despite the heroic efforts of Mr. John Church, Director of 
the VAMC in New Orleans at the time of Hurricane Katrina and 
its aftermath, it was quickly determined following the flooding 
that the hospital was beyond repair and would have to be 
replaced. That is why we are all here.
    The veterans that are treated for outpatient treatment here 
at the clinic are well taken care of; however, those veterans 
that require hospitalization and cannot be treated in the 
immediate area, as some of my colleagues have indicated, must 
be sent to other facilities where beds can be found, including 
but not limited to, Shreveport, Alexandria, Jackson, and other 
places. Unfortunately, the American Legion does not see an 
early end to this manner of care for the veterans of this area.
    As an example, if a veteran is diagnosed at the VAMC here 
in the outpatient clinic with a psychological problem that 
requires hospitalization, it takes some 10 to 12 hours from 
diagnosis to admittance in a hospital where a bed can be found. 
Such a long, tedious process causes extreme stress to the 
veteran and his family, further aggravating the veteran's 
medical condition.
    We suggest, Mr. Chairman, that the PTSD problems and other 
brain injury conditions evidenced in our returning servicemen 
and women from the chronic conflicts will only increase, 
placing a greater burden on an already depleted system. A new 
VAMC in New Orleans is urgently needed now.
    The American Legion suggests that you might consider a 
couple of recommendations. First, we believe that the 
association with the medical schools in the downtown area 
benefits the patients at the VAMC. The partnerships and long 
associations with LSU and Tulane Medical School, since it was 
established have been for the benefit of the veterans as well 
as to the community.
    The VAMC of New Orleans serves the medical community of 
this area as a teaching and research hospital, Just as the 
other veterans hospitals do throughout the VA medical system. 
Our veterans, like those in other parts of the United States, 
benefit from these associations because the hospitals in the VA 
system need the interns, residents, and doctors from the 
schools to augment the VA hospital staffs.
    Each year Tulane and LSU Medical Schools rotate over a 
hundred each of interns and other medical personnel through the 
VAMC. They provide the veterans of this area the best of care 
based on the latest discoveries in medical science.
    Currently, we have a shortage in medical professions in 
southeast Louisiana and the greater New Orleans area. Many of 
our doctors, nurses, and other medical professions have left 
the area after Katrina and have not returned. Thus, the medical 
schools provide the additional staff that is critical to the 
successful operation of the VAMC. In addition, the research 
that continues is also beneficial to the VAMC.
    As an example, while we sit here this morning, Dr. Paul 
Harch, a physician specializing in Hyperbaric Medicine at LSU 
Medical School is in Washington with his fellow colleagues of 
that particular specialty working to encourage Congress to make 
the necessary appropriation for a pilot project that will treat 
traumatic brain injuries in a little different manner. An 
appropriation request is before Congress to fund the scientific 
study that will be overseen by the Samueli Institute in 
Washington D.C., with Dr. Harch serving as the physician in 
charge here in New Orleans. And the proposal is for the LSU 
teaching hospital to serve as the primary site in a multi-
center study that will include the VAMC New Orleans; Dr. John 
Mendoza, a neuropsychologist with the VA; and Dr. Tim Duncan of 
the VA staff who are currently working with Dr. Harch on this 
project. This is just one example of the close working 
relationship that exists between the hospital and the medical 
schools.
    I also suggest to you that transportation is an issue. The 
veterans that use the VAMC New Orleans are generally veterans 
who do not have medical and healthcare insurance. Many are on 
fixed incomes, no place else to seek their medical care. The 
relocation of the VAMC to downtown New Orleans will provide a 
hospital that is convenient, by public as well as private 
transportation, and is easily accessible by our veterans 
population, the hospital staff, and the many volunteers who 
help take care of these men and women on a daily basis.
    I would leave you just with one comment. We are very 
fortunate in this city to have a young lady who has been 
recently appointed as the director of VAMC, and you will hear 
from her shortly. She made a comment in a quote that appeared 
in the American Legion Magazine in the November 2006 issue. She 
said: It's the VA's desire to be the engine that drives 
healthcare in the City of New Orleans and the metropolitan 
area. We want to be leaders. We want to provide a futuristic, 
high-tech, high-touch institution for veterans, in 
collaboration with our affiliated partners.''
    We believe that her vision is the proper vision and is in 
the best interest of the veterans of this area. Thank you.
    [The prepared statement of Mr. Detweiler appears on p. 73.]
    The Chairman. Thank you very much.
    Finally on this panel, we have Dr. Bill Penn, who wants to 
be known as an independent veteran. Welcome, Doctor.

                  STATEMENT OF BILL PENN, M.D.

    Dr. Penn. Thank you. I'm Billy Penn from Baton Rouge, 
Louisiana.
    Chairman Filner, Members of the Committee, thank you very 
much for allowing me, an independent veteran, the opportunity 
to present my views to you on rebuilding a veterans hospital.
    This is an issue that is a personal one for me and, as a 
veteran, it causes me great concern. Let me thank you for 
holding this hearing. As Members of the Veterans' Affairs 
Committee, you have an opportunity to assist the veterans in 
Louisiana to bring more awareness to the problems we have faced 
since Hurricane Katrina. It is my hope that today's hearing 
will highlight the opportunities we have to move forward to 
help bring the dream of a new veterans hospital to reality.
    As I mentioned earlier, I come to the Committee today as an 
independent veteran. I do not represent a particular 
organization, though I am a member of many. What I wish to 
convey to you is my assessment of the situation in which we 
find ourselves and the opportunities that we have now for 
moving forward with the VA Hospital.
    It is my understanding that Congress has already 
appropriated over $600 million to rebuild the VA hospital, but 
the VA has yet to make firm plans for rebuilding this facility. 
I ask the Committee and audience Members to consider today why?
    Why, when veterans need this hospital now more than ever as 
our veterans population is aging and as more men and women are 
returning from Iraq and Afghanistan, why does the VA continue 
to wait to build this hospital? Our veterans have sacrificed 
too much and have given so much for this country and this 
government to ask us to wait any longer.
    I commend the doctors, nurses, and other staff for 
operating under the worst of circumstances. Their efforts and 
accomplishments in preparing for Katrina and the actions in its 
wake were heroic and are to be commended. I only ask that those 
in the decision-making capacity make decisions and make them 
swiftly.
    Veterans, since Katrina, have been asked to travel hours 
for some of their healthcare needs. For example, veterans 
needing prosthesis for limb losses are on a waiting list and 
are transferred to another facility in other States. And 
unfortunately, in our State here, we are at least four hours 
from Shreveport, three hours from Alabama, six hours to 
Houston, four hours to Jackson, Mississippi, eight hours plus 
to Dallas.
    The VA hospital must be focused on the needs of veterans 
with post traumatic stress syndrome. As a personal example, I 
went for testing and examinations by a psychologist to try to 
help my post traumatic stress syndrome which I have experienced 
nightly for 54 years. The treatment for the post traumatic 
stress syndrome now since Katrina requires a seven week stay in 
Little Rock, Arkansas, for a program which I'm just becoming 
familiar.
    I give these examples just to illustrate what one goes 
through and why we need a VA hospital in south Louisiana as 
soon as possible, with beds for psychiatric use and ample space 
for veterans including parking and seating in waiting rooms.
    In my estimation, it's unacceptable for the VA to ask our 
veterans to wait any longer than they already have for this 
care to be restored in south Louisiana.
    I do not claim to have solutions on where this hospital 
should be or how big it should be. I only request that the 
healthcare needs of the veterans drive these decisions. We have 
an opportunity to show veterans and our men and women currently 
in uniform that we in the country are putting their interest 
first and not the interest of other groups.
    I urge Secretary Nicholson and the VA to work quickly to 
restore this very important facility with the healthcare need 
of our veterans on focus. Our veterans deserve no less. When 
the time came, we served our country. Please now respect us in 
our needs today.
    Thank you for the allowing me this opportunity. I will be 
answering any questions that you have.
    I am thankful for Mr. Filner for mentioning--was it $13 
billion or $13 million for services with mental health for 
veterans. As a POW of Korea, I not only never received 
healthcare but we still cannot ever speak about it any more 
because it might hurt other POWs still over there. It's way 
overdue, this post traumatic stress syndrome.
    I keep trying to put two and two together. We keep wanting 
to build this hospital where the other one was built. When the 
original Charity Hospital was built, it took 13 100-foot 
pilings on top of each other driven down before it hit any kind 
of solid ground. And with this city six feet below sea level, 
why are we so hasty to build in the same place? It would be 
like throwing good money out to bad. I don't know.
    Anyway, as I mentioned, I'm open for any questions you may 
have.
    [The prepared statement of Dr. Penn appears on p. 80.]
    The Chairman. Thank you, Doctor.
    Mr. Baker, the floor is yours.
    Mr. Baker. Thank you, Mr. Chairman. Dr. Penn, if I may ask 
you a question not directly on your subject matter. Was your 
practice in obstetrics?
    Dr. Penn. Yes, obstetrics-gynecology.
    Mr. Baker. Is your middle name Rivers?
    Dr. Penn. Yes.
    Mr. Baker. You delivered my wife's first baby 37 years ago. 
I can't believe it's been 36 years since I last saw you and I 
believe I paid my bill, so I think I'm good.
    Dr. Penn. I'll check.
    Mr. Baker. Both of my children are doing quite well and got 
off to a very good start thanks to your kind leadership there, 
so thank you for the service to my family.
    Dr. Penn. Any time somebody asks me that, told me I 
delivered their baby, my first answer is how did they do in 
school.
    Mr. Baker. They both did--well, they accounted for 
themselves satisfactorily. I'll put it that way. Thank you, 
sir.
    I noted that each of you made a comment about the urge and 
necessity for replacement of services; and, Mr. Detweiler, I 
wanted to ask you that particular question.
    Your testimony indicates a strong support for the downtown 
location. That is notwithstanding how long the time it may take 
or is there a time limit that would bracket your intended 
support for that approach?
    Mr. Detweiler. Well, you said, sir, that you drive up and 
down the highway and you see hospitals being built in two or 
three years. I'm for your two or three years. I don't know why 
there's so much bureaucracy involved in this hospital. I have 
no idea. There are a couple of hospitals that are sitting 
vacant now. Maybe they are destroyed beyond repair, I don't 
know, but those hospitals are sitting vacant. Well, I'm 
wondering about--you know, I initially thought maybe they could 
do something to bring the current VA hospital back. I'm assured 
that that's not possible.
    Mr. Baker. Yeah. That was an interesting point; because 
when I heard the Mayor talk about the water at the site, he 
said the basement was full and there was about mid thigh level 
water on the street and then he said two to three feet. Well, 
how does two to three feet of water take an entire facility out 
of service?
    Mr. Detweiler. I don't know, sir. I live in the lowest part 
of the city in uptown area adjacent to the Tulane campus. I'm 
within a couple of blocks of the bottom of the saucer. I had 
about four feet, maybe four and a half, but that was it and I 
was back--you know, sure, we had to have the whole thing gutted 
and do what you got to do to fix it up, but I don't know what 
the problem is as to why it would take so long.
    Mr. Baker. Well, let me propose something to you then that 
might make sense from your organizational perspective. Let's 
get all this planning business concluded 30, 60 days, let's get 
the Secretary to make some decision, but the organization would 
support whatever gets restoration of care in the shortest time.
    Mr. Detweiler. That's all we are interested in.
    Mr. Baker. Bingo.
    Mr. Detweiler. That's all we are really interested in.
    Mr. Baker. Well, that's all I was interested in. I wanted--
--
    Mr. Detweiler. I understood that these people are working 
closely together. I've seen reports as far as the sites are 
concerned in the downtown area where their aren't that many 
problems. As far as property is concerned, there are very few, 
if any. I think there were like 35 or less properties that had 
homestead exemptions on them meaning that there are no real 
residences down there. So I think there are good things that 
can come, but let's just stop talking and let's build it.
    Mr. Baker. Well, coming at it from a general perspective, 
we're on the same page, getting restoration of healthcare 
services, number one. If we can do it in the city with the 
proposal that is before us, fine, but somebody's got to explain 
to this Committee, I hope, why it's going to take until 2013 to 
get the doors open. And if there is an alternative--if there's 
an alternative out to be seriously examined and told to you why 
it will or why it won't work. We just got to get on with it.
    And I want to express to each of you my appreciation for 
you coming here today. These Members have traveled a long way. 
And I would take more time. We have another panel to come, but 
I don't want to be appearing to be dismissive of your 
appearance here today.
    I want to specifically say thank you, one, for your service 
to the country; and thank you, two, for coming here today; and, 
three, I got the message: We want this thing now, not later, 
and I am committed to get that as fast as we can. Thank you.
    The Chairman. Thank you, Mr. Baker. Mr. Jefferson?
    Mr. Jefferson. Thank you, Mr. Chairman. In line with what 
Mr. Baker said, I think everyone here in this audience and 
outside of this audience and on this Committee wants to see 
this facility built as quickly as possible. There's no benefit 
to delay it for anyone. Even these collateral things that we 
talk about as benefits don't occur unless the facility is put 
in place quickly, so that's everyone's commitment.
    As I appreciate it, it isn't a problem in the State of 
Louisiana nor LSU or Tulane nor the collaborative nor the 
planning process. It's probably what the VA's told us: It takes 
this long to build this facility. Now, it's incumbent upon us 
then to impress to the VA as much as we can to get this done. 
And I suspect if the trouble is building a hospital out of that 
time frame, it will take that timeframe wherever it builds it. 
So our job is to make sure it gets cut down and then answer our 
questions why it takes so long, so that's where I think we all 
are.
    I want to just ask, let me see, ask Mr. Detweiler. When 
your organization was meeting and considering this whole 
matter, where the hospital should be built and how it should be 
built and that sort of thing and you looked at the issues of 
Tulane and LSU and in terms of teaching, as you've explained 
it, and someone was suggesting a minute ago that there hadn't 
been maybe enough talk about veterans as talk about other 
things. Wasn't the view of your organization to talk about the 
collaboration, the availability of medical facilities, and of 
common use of the latest technology, wasn't that talking about 
those things the same--the whole matter of talking about 
patient care of veterans?
    Mr. Detweiler. Well, you can't have one without the other. 
I mean, sure, veterans--the care of the veteran is the thing 
that's uppermost in our mind. The question is: How do you 
render the best care? And if you have the research facilities 
attached and you have those staffs available and so forth, then 
you have the better chance for better care.
    And there have been a lot of things, just as I mentioned 
this particular doctor from LSU, things of that nature, have 
been through research between the hospitals, between the VA, 
between Tulane and LSU and other schools and schools around the 
country with the VA. The veteran gets the better care.
    Mr. Jefferson. Thank you very much. Mr. Trenchard, good to 
see you, sir. You say the facility should be solely for the 
benefit of veterans and should be located in an easily 
accessible location safe from hurricanes and flooding. Could 
you explain a little bit more exactly what you are looking for 
in a facility? Do you mean just for veterans and no one else or 
do you mean that--do you feel if there's a collaborative that 
somehow veterans' issues will be submerged in other 
considerations?
    Mr. Trenchard. I think once you mingle this with any other 
programs, it's going to detract from the quality healthcare 
that veterans are going to receive. I really believe that. I 
think it needs to be a dedicated facility for veterans. You 
start bringing in the Charity Hospital system or anything else 
into that, it's just going to muddy the water. You are not 
going to get the quality you need.
    The other thing, as far as location, I'm not an expert. I'm 
not going to tell you that I know the best place to build this, 
but it doesn't make too much sense to me to put it back down 
here where it's going to flood.
    You know, New Orleans was pretty lucky. Believe it or not, 
they were. They didn't get into the northeast quadrant of that 
hurricane. If that thing had come in around Grand Isle and it 
would have been hit by the northeast quadrant, I don't know 
think there's a levee around here or anything else that could 
have really protected this city. You take a look at what 
happened to Mississippi. New Orleans got it bad, but you take a 
look at Mississippi. There's nothing left standing up there.
    Mr. Jefferson. So all along the Gulf Coast is a threat that 
hurricanes can happen; is that right?
    Mr. Trenchard. That's right. And New Orleans has been very 
fortunate not to have been hit by one. Excuse me.
    Mr. Jefferson. Go ahead.
    Mr. Trenchard. I was born here in 1950, and over the last 
57 years, they've been pretty lucky. You know, Betsy was about 
the worst thing they had that came through here. And, you know, 
the law of averages being what it is, they are ripe for another 
one the way I see it. And I think if we rebuild down here in 
New Orleans, we got a good chance that we're going to have to 
turn around and rebuild that thing again.
    The other thing: They brought up that it was going to take 
like until 2010, 2011 to construct this elaborate levee system 
and everything else. Our guys can't wait that long. We need to 
build it some place we can build it now and not have to do all 
this extra construction and everything and don't have to worry 
about anything, knocking it down or anything.
    Mr. Jefferson. I know you aren't familiar with the levee 
planning in any detail and are picking up about what the Mayor 
said about the homes being completed down the line----
    Mr. Trenchard. Yeah.
    Mr. Jefferson [continuing]. But the things that broke here, 
they have been fixed now and have been fixed over the last 18 
months, the raising of the levees where the breaches took 
place, all those sorts of things, which is the notion that--
which was done first so the city could come back and start 
restructuring and stuff.
    But the levee system goes all the way, as you know, well 
down to Plaquemine. That part is down the road and will be 
built later. The point of it is here, anywhere on the Gulf 
Coast--are you saying it shouldn't be built anywhere along the 
Gulf Coast at all?
    Mr. Trenchard. No. I'm advocating that it would be better 
located further inland, and I'm not saying all the way in Baton 
Rouge. Some places that it can be built, just an example, maybe 
over by Hammond, maybe by Gonzales, further inland right off 
the interstate where it's readily accessible to veterans.
    You know, it's not just the New Orleans veterans. It's for 
guys coming from Mississippi, Alabama, and even the panhandle 
of Florida. They don't have a hospital yet and they are not 
liable to get one for a while either, although I'm sure they 
would like it.
    But, you know, the thing is, you know, I listen to them 
talk about these defective levees and this defective 
engineering and everything, but you know, at the time when 
those levees were constructed and all, I remember that, when 
all these levees were being built and they put those flood 
gates in and everything. You know, that was--they assured us 
that that was going to take care of the situation and that was 
based on the best knowledge they had at the time. Well, they 
found out from this major hurricane, which didn't hit at the 
worst point but it hit bad enough, that it didn't work. So how 
are they going to estimate--I'm kind of curious to see how 
they're estimating that one, say, does hit west of here in the 
northeast quadrant hits New Orleans dead on, how do they 
estimate what forces it's going to be able to withstand? I 
think that's kind of hard to calculate myself.
    Mr. Jefferson. I can have a response to it, but, you know, 
it's from living with the Corps for the last two years as to 
understand what they're doing, but I'll yield back my 
opportunity. I thank you for your testimony.
    The Chairman. Thank you, Mr. Jefferson. Thank you. Mr. 
Miller.
    Mr. Miller of Florida. Mr. Cook, I appreciate the 
description of where I come from. I don't believe I've ever 
been described as coming from the far flung area of Pensacola, 
but thank you, and I understand the distance that the veterans 
are having to drive right now in need of a veteran hospital and 
where you're having to go to get your care.
    Mr. Detweiler, you said the American Legion passed a 
unanimous resolution endorsement of rebuilding of the medical 
center with the development of the biomedical district to the 
downtown New Orleans area. Now, why--why was it so specific to 
that site and not just what you just said a few minutes ago to 
Mr. Baker?
    Mr. Detweiler. Because we thought that it would be better 
to be able to bring those facilities back together.
    I've lived with this, been involved with veterans' benefits 
and involved with the American Legion for over 40 years and 
I've worked with the hospital, met with those people and 
listened to the work that has gone back and forth between the 
Tulane and LSU and VA system. And having had the opportunity to 
visit many VA facilities around the country as a national 
commander watching what other hospitals enjoy with the 
relationship of medical schools, I think the average veteran 
gets better care.
    Mr. Miller of Florida. So you are saying that a veteran in 
a medical center that has no medical school attached to it is 
receiving substandard care?
    Mr. Detweiler. No, sir, I'm not saying that. I am saying I 
think that they would get better care, I think the opportunity 
for more personnel is there. I'm not saying, because I don't 
know what specific facility you may be referring to, that they 
would get less care. I'm saying that the opportunity for better 
care and the availability of current research is there.
    And we--you know, for example, we keep talking about PTSD. 
PTSD is a real serious problem. Finding a bed site in this area 
is almost impossible. That was my example about having to take 
10 to 12 hours from diagnosis here to get into a bed somewhere 
in the northern part of the State or Houston or Jackson, 
Mississippi, or somewhere else. That's going to continue to 
grow.
    I think what we are saying, that some four out of ten or 
six out of ten servicemen and women that come back from Iraq 
and Afghanistan are likely to be subjected or in some part of 
their life suffer from PTSD or some sort of brain injury, and 
this is a real concern. So all I'm saying is, it seems to me 
now we are for building a hospital as quickly as possible.
    Now, again, if Mr. Baker says and he knows of somebody that 
can build a hospital within two or three years, we are for 
that, okay? And I don't know why that somebody that can build a 
hospital within two or three years somewhere up the highway 
can't put that hospital back in the area that we discussed.
    Mr. Miller of Florida. I would say in defense of Mr. Baker 
and in defense of your other colleagues that are here----
    Mr. Baker. Please get this on the record: He's defending 
Baker.
    Mr. Detweiler. I know that.
    Mr. Miller of Florida. You appear to be the only person at 
the table that is defending going back into the same place to 
repeat Mr. Nagin's----
    Mr. Detweiler. Maybe.
    Mr. Miller of Florida. You are. On the record, you are.
    Mr. Detweiler. Right.
    Mr. Miller of Florida. I can't quite figure out the 
intensity that you have to go back downtown. Maybe there is a 
reason, maybe there's not. I don't know.
    Mr. Detweiler. There's no reason other than the fact that--
--
    Mr. Miller of Florida. My time is running out. It appears 
that, I don't know if you read this or not in your comment, you 
talk about the New Orleans Medical District initiative. Did you 
read this out of your statement that you've entered into the 
record, that the American Legion endorses such a joint 
facility, with the proviso, let me finish the question--with 
the proviso that the veterans will be treated in a separate 
hospital building and not mingled with other patients. You read 
that----
    Mr. Detweiler. Yes, sir. I wrote that, yes, sir.
    Mr. Miller of Florida. No. Did you read that out loud?
    Mr. Detweiler. No, sir, I didn't. I was under the gun.
    Mr. Miller of Florida. Okay. That was in the middle of 
your--I just saw----
    Mr. Detweiler. No, sir, I did not read. I took different 
paragraphs to try to cover different issues and not say the 
same thing as some of my other people here have said.
    Mr. Miller of Florida. So, a totally separate VA facility 
with no co-mingling of any patients. Do you understand that 
that is the way the project is moving forward today?
    Mr. Detweiler. I understand that there are two concepts, 
okay.
    Mr. Miller of Florida. That's probably the reason that we 
got the delay that we've got today. Two years later, we have 
two concepts; tomorrow, it will be three concepts.
    Mr. Detweiler. Well, let's say this. Let me just say this. 
If the VA wants to move forward, let's move forward then, 
forgot about the State.
    Mr. Miller of Florida. I think you are hearing that today.
    Mr. Detweiler. No. I heard that before. I heard that long 
ago. If the VA wanted to build a--rebuild that hospital some 
place within the downtown area or wherever, it would have moved 
forward. I don't understand why the VA has not moved forward.
    Mr. Miller of Florida. Because there are organizations like 
yours that are telling the VA that you want to rebuild downtown 
as a collaborative effort.
    Mr. Detweiler. This was not something that we--this is 
something that came about because of the fact that the VA and 
the State got together and we thought it was in the best 
interest to do this. Now, if the VA doesn't think that's in the 
best interest to get the healthcare back and move forward, then 
build the hospital. Don't worry about the State. Forget all of 
that. But why hasn't the VA moved forward? The VA is an 
independent agency. It could surely move forward if it wanted 
to.
    Mr. Miller of Florida. I think that Ms. Catellier, who you 
referenced and I've had an opportunity to work with her as 
well, will probably answer that question in the next round. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, gentlemen. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman. Just a 
couple of quick questions.
    We had a field hearing a couple of years ago in South 
Carolina talking about a collaborative effort in South Carolina 
with the VA and private industries, and there is an ongoing 
collaborative study group looking at the feasibility of 
building this facility. The report's due at the end of this 
September for the Louisiana area.
    One of the things we found in the South Carolina situation 
was the fact that veteran service organizations (VSOs) were not 
at that time involved in the process, so I guess my first 
question would be just a simple yes or no answer for each of 
the VSOs. Have you been involved in the collaborative study 
group effort that is supposed to report back this September?
    Mr. Cook. No, not for the Military Order of Purple Hearts.
    Mr. Trenchard. Not at all.
    Mr. Michaud. No for the Purple Hearts, no for the DAV.
    Mr. Detweiler. American Legion has taken it upon itself to 
meet with the VA, to meet with the staffs here. We've had two 
national commanders over the last two years come down and 
visit. They sat sit down and listen and were briefed on it. And 
the American Legion has an ongoing study that has been--I guess 
it's about five years, four or five years, ``A System Worth 
Saving.'' And they have come down and they have looked at this, 
at the plans and so forth, and felt very comfortable with that 
project.
    Mr. Michaud. Thank you. And that is a good report the 
American Legion puts out, ``A System Worth Saving.'' I 
appreciate it.
    Mr. Detweiler. Worth Saving. I think we are on our third or 
fourth year on that, yes.
    Mr. Michaud. Dr. Penn, have you been involved in that 
collaborative study group effort that's supposed to report back 
this September?
    Dr. Penn. No, not at all. I just--well, I mentioned a while 
ago I'm an independent. I belong to a lot of service 
organizations such as the ex-POW, American ex-POW, and the 
Marine Corp League; and everybody's quite concerned why is it 
going to take seven to eight years to build this hospital. It 
just is taking too long.
    And the last national geological survey facts I read were 
talking about the way we are losing so much marshland here in 
Louisiana that New Orleans would be a coastal city in 15, 20 
years. So it looks like it's going to be a lot of water here in 
New Orleans for a long time.
    Mr. Michaud. My second question for the VSOs. The Mayor 
mentioned that a lot of folks are coming back to the New 
Orleans region. Have you seen an increase or have your 
memberships come back or are they still out in other parts of 
the country? We'll start with Mr. Cook.
    Mr. Cook. We still have members who have departed the area. 
Some have returned, some are planning to return, and some are 
not returning. We have them go as far away as Denver, Salt Lake 
City, Birmingham, Alabama. We have--we are scattered from the 
inner New Orleans area and from the Mississippi Gulf Coast 
area. And no, sir, they are not all back; no, sir, they are not 
all coming back. We hope to see most of them back, but we 
don't--you know, we haven't done any studies or anything, but 
we do know that some will not come back.
    Mr. Trenchard. I've seen a lot of these people coming in 
from Lafayette, Baton Rouge, Houston; and if they are not back 
by now, I seriously doubt they have any great plans on coming 
back. I think the bulk of the people are back that are going to 
come back the way things are set up.
    I just think the whole--there's been a major shift of the 
amount of veterans right down here in New Orleans and I don't 
think you are going to see that many of them come back. We lost 
a number of chapters in this area that have never come back, 
and so that would be my view on it.
    Mr. Detweiler. We have veterans that have left and veterans 
that have come back. I can't say they are all back, I can't say 
that they are not coming back, but Katrina did cause the whole 
population to--you know, to scatter. There's no question about 
that.
    I think the best person to answer the question as to the 
effect upon the hospital is to ask Ms. Catellier when she 
speaks.
    Dr. Penn. Now, you know, it's been estimated over 4,000 
doctors have left Louisiana, left New Orleans rather. I know in 
Baton Rouge every day there's a notice in the paper there's a 
new attorney, new physician, new dentist setting up office in 
Baton Rouge, so I don't know how many of these people will come 
back.
    I was in a meeting the other day with some young people 
down here my daughter's age, 40 something years old, and they 
are all leaving New Orleans and they are not coming back.
    Mr. Detweiler. My son came back. He's in that age group.
    Mr. Michaud. Thank you, Mr. Chairman.
    The Chairman. We thank the panel. We thank you for being 
with us today and thank you for your service to our Nation's 
veterans that you do every day. Thank you so much.
    Mr. Detweiler. Thank you, Mr. Chairman.
    The Chairman. You will be excused and the last panel we 
will hear from is from Department of Veterans Affairs officials 
who are here.
    The Chairman. If everyone will come to order, we have Ms. 
Rica Lewis-Payton, Deputy Director of Network 16 of the 
Department of the VA. With her is Julie Catellier; is that 
right, Acting Director of the Southeast Louisiana Veterans 
Healthcare System. You've had some good press on the way here, 
Ms. Catellier, so welcome and we look forward to your 
testimony.
    Ms. Lewis-Payton. Actually, Mr. Chairman, because of that 
good press and the outstanding job, she's been permanently 
assigned to this position.
    The Chairman. Okay.
    Ms. Lewis-Payton. It's now a part of the record.
    The Chairman. Congratulations, I guess.

    STATEMENT OF RICA LEWIS-PAYTON, FACHE, DEPUTY DIRECTOR, 
    VETERANS INTEGRATED SERVICE NETWORK 16, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS, 
 ACCOMPANIED BY JULIE CATELLIER, DIRECTOR, SOUTHEAST LOUISIANA 
  VETERANS HEALTHCARE SYSTEM, VETERANS HEALTH ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Lewis-Payton. Mr. Chairman, Members of the Committee 
and Members of the Louisiana delegation, thank you for the 
continued support that Congress has given the Department of 
Veterans Affairs in our rebuilding and recovery efforts not 
only in southeastern Louisiana but also the entire Gulf region.
    Today, I will describe our ongoing healthcare restoration 
efforts in New Orleans and the current status of plans to 
rebuild our VA Medical Center.
    The Southeast Louisiana Veterans Healthcare System has made 
significant progress in meeting the healthcare needs of 
veterans in the greater New Orleans area. With the support of 
Congress, VA accelerated the activation of Community Based 
Outpatient Clinics (CBOCs) in the areas proposed under the 
care's program. New CBOCs are now open in Slidell, Hammond, and 
St. John's Parish. Currently, southeast Louisiana is served by 
six permanent CBOCs. Primary care and general mental health 
services are offered at each of these locations. Specialized 
mental health programs are currently provided and we are 
acquiring additional space and significantly expanding 
services.
    Plans are progressing to lease space for additional 
specialty care and ambulatory procedures. Patients requiring 
highly complex care are referred to other VISN facilities or 
care is obtained within the New Orleans community. Outpatient 
pharmacy services currently exist at all of our CBOCs and a 
$3\1/2\ million project to establish a new and enhanced 
pharmacy in New Orleans will be completed in November 2007. A 
newly constructed diagnostic imaging center will open on the 
New Orleans campus in September 2007 providing the full range 
of general radiology, CT and MRI capability. Dental services 
are provided in both Baton Rouge and Mandeville, and currently 
we have no patients on the waiting list in dental.
    In addition, in keeping with the national initiative to 
provide patient care in the least restrictive environment, 
southeast Louisiana has tripled the size of its community 
base--community--and home-based programs.
    In June of 2007, VA entered into an agreement with its 
affiliate, the Tulane University Hospital and Clinic to allow 
VA physicians to admit and manage the care of veterans in the 
Tulane Hospital. Veterans have responded favorably to this 
``virtual VA inpatient'' program because it allows them to 
remain near their families and support systems while being 
treated by their own familiar team of VA physicians and social 
workers.
    The Southeast Louisiana Veterans Healthcare System has 
served almost 30,000 unique veterans through May 2007. On 
average, 1,000 outpatients are seen in the CBOCs per day. It is 
projected that by year end more than 35,000 unique veterans 
will have been treated. This is nearly 90 percent of the pre-
Katrina level.
    There are currently 76 medical residents compared to 120 
before Hurricane Katrina. VISN 16 is working with its academic 
affiliates, the Tulane Medical School, and the LSU Medical 
School to place VA residents in medical facilities throughout 
VISN 16 until such time as full clinical programs return to the 
Southeast Louisiana Veterans Healthcare System.
    VA has always been committed to building a new medical 
center in the greater New Orleans area. The space planning 
process has been initiated and in preparation for construction. 
The analysis of an architectural-engineering (AE) firm to 
design the new facility is complete and the announcement of the 
selection will take place soon. The replacement medical center 
is expected to provide acute medical, surgical, mental health, 
and tertiary care services as well as long-term care.
    VA and LSU have signed a Memorandum of Understanding 
agreeing to jointly study state-of-the-art healthcare delivery 
options in New Orleans. VA is pleased to learn of the State of 
Louisiana's commitment of State funds for this project, and we 
will make a decision regarding the extent of its future 
collaboration with LSU after the report is completed.
    While VA remains committed to exploring this partnership 
with LSU, delays have arisen. To ensure these delays did not 
impact our ability to reconstruct the VA Medical Center in a 
timely manner, VA initiated a search to identify alternative 
building locations. This search resulted in two responsive 
offers. An initial market survey of the two sites has been 
conducted an further analyses are planned. VA looks forward to 
completing this process and will make a decision on this site 
in the near future.
    Thank you for the opportunity to be here today, and Ms. 
Catellier and I will be pleased to answer any questions that 
you may have.
    [The prepared statement of Ms. Lewis-Payton appears on p. 
81.]
    The Chairman. Thank you very much. Thank you for your 
service to our veterans. So everything is going fine.
    You know, Mr. Detweiler, I guess he said--you know, he said 
why hasn't the VA moved forward? I think that's the right 
quote. Now you are saying everything is moving forward. The 
perception is we are not. I mean why the--the disconnect, and 
do we have any dates that you could give us?
    Ms. Lewis-Payton. A couple of comments, sir. In terms of 
moving forward, we have worked diligently to ensure that we 
continue to provide quality healthcare services in the City of 
New Orleans. While it is not ideal, I can assure you that from 
the time we deployed mobile clinics a week after Hurricane 
Katrina until now, there's not a day that passes that we aren't 
discussing and developing and implementing plans to ensure 
veterans get care.
    As it relates to the construction, as you heard from panel 
Members here today, there are compelling arguments and 
divergent opinions about where that site should be. We have an 
obligation--we have an obligation to ensure that we do our due 
diligence in analyzing those options, but let me be extremely 
clear: At the forefront of all of those discussions and at the 
forefront of our decision is what's in the best interest of the 
veterans we have the privilege to serve.
    The Chairman. Thank you. Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman. Let me follow up on the 
Chairman's general line of questions.
    With regard to the issuance of a report which will precede 
your decision-making window, is there an expected report 
deadline or is that indeterminate yet?
    Ms. Lewis-Payton. There is expected report deadlines. As I 
indicated earlier, the initial analysis of the two sites has 
been completed. What we are in the process of doing now, and 
that should occur within the next two to three weeks, is the 
cost analysis associated with those two sites.
    As was also discussed here, there are costs associated with 
building downtown. We have to clearly understand what that 
means before we make those decisions. And based on that cost 
analysis, then a decision will be made whether or not we will 
do an environmental assessment of one site or two sites, and 
that will take a few months.
    Mr. Baker. So it would not be unreasonable to expect the 
preliminary report and findings within 45 days and then another 
three months for environmental assessments?
    Ms. Lewis-Payton. It would not be unreasonable to assume 
that.
    Mr. Baker. So that we would likely be close to the first of 
next year when we would be in a position to make the final, 
final decision?
    Ms. Lewis-Payton. Well, I would leave the actual date 
decision to the Secretary, but we should be in good position 
over the next couple of months to have done the analysis 
necessary on which that decision will be made.
    Mr. Baker. And are you at liberty to disclose where the 
sites are that are under consideration?
    Ms. Lewis-Payton. The two sites that are under 
consideration, of course, is the downtown site which is 
adjacent to the site identified by LSU; the second site is 
across from the Ochsner Hospital and it's a 28-acre tract.
    Mr. Baker. And how far is the Ochsner site from the 
downtown location?
    Ms. Lewis-Payton. Approximately 4.5 miles.
    Mr. Baker. 4.5 miles?
    Ms. Lewis-Payton. Yes.
    Mr. Baker. In earlier questions, I had asked the State 
officials and they were not clear as to elements of the 
construction requirements for the downtown site. One of those 
requirements, as I read their report, was securing the 
perimeter from the potential of a recurring flood event. I 
translated that as a levee. Do you understand whether that is 
correct? Will the downtown site as it is currently defined 
require leveeing in addition to the elevation of the principal 
building, 15 feet?
    Ms. Lewis-Payton. Ms. Catellier?
    Ms. Catellier. Good afternoon, Congressman Baker. Good to 
see you again.
    Mr. Baker. Thank you.
    Ms. Catellier. Actually, there has never been any 
discussion about a levee around the site. Earlier in the study 
report, which you referred to, consideration was given to 
building a 15-foot berm, so putting the hospital up.
    The current discussions are about doing pilings and putting 
the first floor of services at 25 feet, essentially the same 
thing.
    Mr. Baker. So initially two stories?
    Ms. Catellier. Yes, sir, that's correct.
    Mr. Baker. And what about the elevation of ramps and 
roadways to access that site?
    Ms. Catellier. There would have to be elevated ramps for 
sure.
    Mr. Baker. And are those costs, as far as you are 
conversant with the project, already determined and in the cost 
of the project or is that yet to be defined?
    Ms. Catellier. Those are being studied now as referenced by 
Ms. Lewis-Payton.
    Mr. Baker. And the defend-in-place position of eight days, 
should that be extended to the operative period for when the 
last event occurred that it took us the time to get the water 
out so that we know we have a reasonable certainty that we are 
capable of operating for the time of the crisis?
    Ms. Catellier. The best advice we've received from Homeland 
Security consultants and our own engineering staff is an eight-
day defend-in-place strategy is adequate.
    Mr. Baker. With regard to the choices of veterans, has the 
agency conducted a survey of veterans to determine if they have 
a preference in the matter; and if so, what is the scope of 
that survey?
    Ms. Catellier. Not to my knowledge.
    Mr. Baker. I've just been presented with a copy of the 
survey conducted and albeit by a competitor in the process, by 
Ochsner, indicating that in a survey of 600 veterans, some--
half of which are former patients, half of which are 
prospective patients, that 7.6 out of 10 would prefer the 
Ochsner site. Now, I don't know whether that's a valid survey. 
I don't want to place any particular credibility with it.
    Would it be unreasonable or is it out of common business 
practice--I don't know--for the VA to engage in a survey of the 
veterans in the 25-parish area that is likely to be served by 
this facility to get their opinions about this; and second 
part, is the time constraint to build a major factor in your 
ultimate or the Secretary's ultimate decision?
    If one project can be built in, say, two or three years 
less than another project, would that be a factor in 
determining which site would be selected?
    Ms. Lewis-Payton. As I mentioned earlier, all of these 
compelling arguments, including what the timelines will be, 
what veteran preferences are, all of those arguments, all of 
those opinions about what we should do will be taken into 
consideration as the Secretary decides his--makes a decision 
regarding this.
    Mr. Baker. So if I were to ensure that there would be a 
survey, I should just address those concerns to the Secretary 
and he would decide whether that action is appropriate; is that 
the process?
    Ms. Lewis-Payton. Yes, sir.
    Mr. Baker. Thank you very much. Mr. Chairman, I'm way over 
time.
    The Chairman. Thank you, Mr. Baker. Mr. Jefferson?
    Mr. Jefferson. Thank you, Mr. Chairman.
    Ms. Lewis-Payton--I want to ask you a question first. 
You're saying the cost analysis comes later--what--if I 
understood you correctly. What was the first--what was the 
initial analysis? What did that involve with respect to these 
two sites, if it didn't involve any concern about cost?
    Ms. Lewis-Payton. And we will get you the specifics as part 
of the record, but the initial analysis included things around 
egress to the site, the adequacy of the sites, how easy 
transportation methods were to the sites, some of those issues; 
and Ms. Catellier may want to add other considerations because 
I think you had members on the site evaluation teams.
    Ms. Catellier. Ms. Lewis-Payton is accurate. In addition, 
environmental concerns above sea level, below sea level, road 
egress, restaurants, hotels, proximity to the medical schools. 
Each of the criteria was given a weighted value and a team of 
experts, including architects, attorneys, and engineers toured 
in detail both sites and rated and ranked those sites.
    Mr. Jefferson. Now, of course, the Ochsner site and the 
site downtown, both are susceptible to being hit by a storm, 
are they not, it just depends on where the storm hits?
    Ms. Catellier. Yes.
    Mr. Jefferson. So what happened in New Orleans was the 
flooding that actually did the damage here; and what we have 
heard is that there's been some efforts made we all believe 
that will make that problem--that goes away. Some 300 years, it 
never happened until the levees failed.
    Now, so with respect to both sites, the issue of whether it 
can be a hurricane that hits it, it just depends on the path 
that the hurricane takes; isn't that true? And so that's--in 
other words, that's not an eliminating factor. In both cases, 
there's a problem.
    In your experience, Ms. Catellier, have you--are you 
familiar with the time it takes to build VA facilities in other 
places that you've seen recently built?
    Ms. Catellier. Yes.
    Mr. Jefferson. What is the average time it takes to build a 
VA hospital? And I know it's a big question, but----
    Ms. Catellier. Well, if I might qualify, just it really 
depends on the size and complexity of the facility.
    Mr. Jefferson. Well, give me a range kind of like, you 
know----
    Ms. Catellier. As a rule, a very large hospital like the 
one we are building, about a million square feet, requires an 
18-month design period, clinical experts and experts on our 
staff working with the architects. Once the design is 
completed, it's about a three-year construction project 
process.
    Once the construction is completed, it takes about six 
months to do what we call activation, which means get the 
furniture in, get all the finishing touches, and begin to admit 
patients, so a good round number is five years.
    Mr. Jefferson. So no matter where this hospital is built, 
it's going to take five years under the current way that things 
go?
    Ms. Catellier. That's what my experts tell me.
    Mr. Jefferson. All right. Now, is there any way that this 
can be shortened and this can be done more quickly that your 
experts are looking at to figure this out?
    Ms. Catellier. I'm not an engineer, sir. I'm a nurse.
    Mr. Jefferson. That's a good thing.
    Ms. Catellier. Those are the best timelines that I've been 
provided with by people who ought to know.
    Mr. Jefferson. So for those who say you have to build it 
right now today and in the morning, it can't happen no matter 
where it's built; it's going to take this period of time to get 
this done?
    Ms. Catellier. We begin with the design of the hospital. 
That begins the clock.
    Mr. Jefferson. Now, the design, where are we within the 
design phase of it now; do we know?
    Ms. Lewis-Payton. The initial space planning has been 
completed, the analysis of the AE firms has been completed as 
well.
    Mr. Jefferson. Now, with respect to either site here, if 
you can say so now, if the design were finished, let's say we 
are finished now just as a hypothetical, and could you complete 
the hospital facility in either place in that three-year 
construction timeframe?
    Ms. Lewis-Payton. That's based on the information we have.
    Mr. Jefferson. Okay. And could you then have it open and 
ready for patient support in another--it seems like I just saw 
the six months it seemed like. That would all work out on the 
timeline you are talking about?
    [Ms. Lewis-Paton nods head affirmatively].
    Mr. Jefferson. So with all of the collateral issues that 
everyone has been discussing today--and they really aren't 
collateral, they all evolve around patient care--the issue of 
LSU and Tulane and the teaching facilities and medical, 
education, and research capacities, all these things are 
weighed into your decisionmaking? Are these a part of your 
decisionmaking as well?
    Ms. Lewis-Payton. Yes, sir.
    Mr. Jefferson. The provision of these services to veterans?
    Ms. Lewis-Payton. Yes, sir.
    Mr. Jefferson. Have you measured whether these same--these 
same benefits can be derived if the hospital is in Ochsner, 
where Ochsner is located as opposed to downtown with respect to 
these schools and things to the process of veterans care?
    Ms. Lewis-Payton. That's part of the analysis that has been 
mentioned on a number of occasions here. The close proximity--
--
    Mr. Jefferson. Is that a possibility?
    Ms. Lewis-Payton [continuing]. Is a part of the evaluation. 
It is not the sole determining factor, but it is a component of 
the evaluation.
    Mr. Jefferson. It's an important part of the evaluation?
    Ms. Lewis-Payton. Yes, sir.
    Mr. Jefferson. Okay. Is the VA--when we first talked, Mr. 
Chairman, back in your office a long time ago, we were all 
concerned about the VA making a decision to build a hospital in 
our general area and then we kind of get narrowed down to 
downtown New Orleans in a minute.
    So the decision has been made by the VA, and the VA will 
reassure you, that we aren't talking about some other places 
along the Gulf Coast or in the southeastern United States. We 
are down to these two facilities where we are going to build; 
that's about it?
    Ms. Lewis-Payton. That's correct.
    Mr. Jefferson. That's it?
    Ms. Lewis-Payton. We were always committed to the greater 
New Orleans area.
    Mr. Jefferson. So the advertising, that was just done to 
make sure you had options in the event that it turned out that 
way, so we don't need to worry about that?
    Ms. Lewis-Payton. That's correct.
    Mr. Jefferson. Okay. I don't have any other questions.
    The Chairman. Thank you, Mr. Jefferson. Mr. Miller?
    Mr. Miller of Florida. If I could ask, as I understand it, 
between the two sites, one of the sites is going to have to go 
through a condemnation process or eminent domain, their title 
is not clear, we don't know the timeframe. The Ochsner site has 
clear title and that's not an issue. Do we have any idea of the 
amount of time difference between the two sites that that would 
take, that having to go through the process of acquiring the 
land that it would take?
    Ms. Lewis-Payton. I heard the Mayor indicate during his 
testimony about the timelines and I think that may be in the 
information from LSU as well. I can't remember the specifics in 
terms of the eminent domain process. Do you, Ms. Catellier?
    Ms. Catellier. Inclusive of eminent domain, we have 
delineated an 18-month access timeframe. We would need to have 
clear title to the land in 18 months, and the Mayor has 
guaranteed that he could deliver that.
    Mr. Miller of Florida. So it would take 18 months to get 
title to the land?
    Ms. Catellier. It may not, Congressman Miller. It may take 
less. Our outside boundary is 18 months.
    Mr. Miller of Florida. The Ochsner is zero because it's 
clear title, correct?
    Ms. Catellier. Yes.
    Mr. Miller of Florida. Did the Ochsner site flood?
    Ms. Catellier. No.
    Mr. Miller of Florida. It did not flood?
    Ms. Catellier. To the best of my knowledge, it did not.
    Mr. Miller of Florida. What is the reason for not 
demolishing the existing facility and rebuilding exactly where 
it stands today?
    Ms. Catellier. The existing facility sits on about six and 
a half acres of land, which would have been insufficient in the 
minds of the construction engineers. The studies have been 
commissioned to actually assess the market feasibility of the 
current land in the current site.
    Mr. Miller of Florida. Is the building being--I mean I know 
there's a CBOC in it, but we talked about a pharmacy and 
imaging. We are not putting them in that building, are we?
    Ms. Lewis-Payton. No, sir.
    Mr. Miller of Florida. So the real estate would be 
available then for sale potentially to somebody else?
    Ms. Lewis-Payton. As I said, the market feasibility should 
be released soon in its final form and the Secretary will 
likely make a decision about disposal.
    Mr. Miller of Florida. In February, I think it was in 
February, we passed the--the supplemental with $600 million in 
it.
    What exactly has VA been doing since February in regards to 
this issue, and I think I hear you saying we are dual tracked. 
We are going down one road as if we are not going to do the 
collaborative effort and we are going down the other road as if 
we were. We are not sitting still spinning our wheels, I hope?
    Ms. Lewis-Payton. That's absolutely correct, Congressman 
Miller.
    As I indicated earlier, significant effort and plans have 
been developed and in some cases implemented related to this. 
We have completed the analysis of the AE firm. That is ready 
for announcement. We have continued the work with LSU in terms 
of planning for a joint cooperative effort. Prior to that, we 
had a study group that assessed the feasibility of it. The two 
sites have been--the initial evaluations have been complete.
    So to answer your question, we have been very busy in those 
periods of time and have not been sitting just waiting for 
something to occur.
    Mr. Miller of Florida. If there was never a New Orleans VA 
Medical Center, would we be looking at building one here today? 
Do the numbers currently justify building a medical center?
    Ms. Lewis-Payton. Yes, sir, we believe they do.
    Mr. Miller of Florida. Would we be looking at building it 
downtown in a flood prone area if it had not been there 
originally?
    Ms. Lewis-Payton. When we look at the analysis of where our 
veterans are located, New Orleans really is central to that; 
and I yield to Ms. Catellier to better explain that.
    Ms. Catellier. Well, ours is a very regional healthcare 
system. One of the charts that I put up to better illustrate 
that for folks who may not know Louisiana or southeast 
Louisiana, you can see where the names of our clinics are. We 
kind of go in a circle around the lake. Currently with the 
location of our clinics, 80 percent of our patients----
    Mr. Miller of Florida. I'm just talking about between the 
two sites----
    Ms. Catellier. Okay.
    Mr. Miller of Florida [continuing]. Of downtown and the 
Ochsner site, which are the two sites that VA is currently 
looking at.
    Ms. Catellier. Each site would provide access to the 
patients who use us. Eighty percent of those people would be 
within an hour, so either site would work.
    Mr. Miller of Florida. Either site would work, but given 
that there wasn't a facility there and we are looking to put 
one today and you have a flood plain area and a non-flood plain 
area, you would still weight the flood plain area the same?
    Ms. Catellier. No. The flood plain area is one of the 
criteria, but it's not the only criteria and it wasn't weighted 
heavier than other criteria because you can mitigate for the 
flood plain.
    Mr. Miller of Florida. With money----
    Ms. Catellier. Yes, sir.
    Mr. Miller of Florida [continuing]. That can be used for 
other veterans' healthcare needs throughout the rest of the 
country. So you are taking dollars away from other veterans 
around the Nation just to rebuild a facility in a flood plain. 
It doesn't make sense.
    Ms. Lewis-Payton. Congressman Miller, I would like to add 
as well. You also--in this way, there's really difficulty in 
making these analyses and really coming up with what's the 
right decision in this case.
    You have the construction issues associated with those 
dollars, but there are also operational dollars that would far 
exceed what the construction costs are; and those types of 
operational assessments include the workload--I'm sorry, the 
lost productivity associated with travel. So all of those 
things have to be considered as well because we also share 
faculty between our medical affiliates, they are going back and 
forth between the sites. So all of these are considerations as 
well from an operational perspective.
    Mr. Miller of Florida. I'm way over time also. Can you 
provide that information to this Committee, that in that 
decisionmaking process the difference between construction 
costs and offset? This Committee needs to understand that.
    [The information from VA follows:]

        Comparison of construction cost vs. operational cost of a 
        hospital.

          The FY 2009 budget, Volume 4, Construction and Five Year 
        Capital Plan identifies on page 6-10, the present facility 
        operating costs is $189 million, the projected operating costs 
        of the new facility, including non-recurring and recurring is 
        $413.7 million and the total estimated project construction 
        cost is $625 million.

          Response: Depending on the location, size, scope, and budget 
        of the project, construction costs and operating costs vary. 
        The general definition of construction costs are expenses 
        incurred in the design (structure), overhead (services), and 
        implementation of a project. Operating costs generally are the 
        annual costs to sustain processes. Operational costs are both 
        recurring and non-recurring. Recurring costs are typically 
        utilities, electricity, staffing, and equipment maintenance. 
        Non-recurring costs include equipment purchase (i.e. MRI, CT 
        scan), and infrastructure maintenance. It is important to note 
        the design of VA facilities is governed by many regulations and 
        technical requirements. (VHA cleared--April 28, 2008)

    Mr. Miller of Florida. With the time running out, let me 
also say that southeast Louisiana with Ms. Catellier is in very 
good hands. If it can be done, she will get it done. I know 
because I've worked with her in the past on projects in my 
district and she'll do a wonderful job.
    Ms. Lewis-Payton. We absolutely agree.
    The Chairman. Thank you. Mr. Michaud?
    Mr. Michaud. Thank you very much, Mr. Chairman. Mr. Miller 
asked most of my questions, but you had mentioned in your 
statement, and I quote, that what is in the best interest of 
the veterans we serve is what you do.
    I guess my concern is: During the previous panel, three out 
of the four individuals when I asked whether they were involved 
in the ongoing collaborative study group efforts, they said no. 
So my concern is how well are you really working with the 
veteran service organizations in this area and I would 
encourage you to work closely with them. It's to your benefit 
as well as the veterans, and I'm just surprised that three out 
of four said that they weren't involved in that collaborative 
study.
    So hopefully you will allow VSOs to be involved in the 
process. It doesn't mean that you agree with them, but that 
they should definitely be involved in the process because I 
think both will benefit by that.
    Ms. Lewis-Payton. We absolutely agree. They are not members 
on the study group, but as part of our communication plan, that 
is definitely a component of that. And, Ms. Catellier, do you 
want to add to that?
    Mr. Michaud. And hopefully that communication plan is not 
one-way communication?
    Ms. Lewis-Payton. It's not, sir.
    Ms. Catellier. And, Congressman, that is very much a part 
of my role is to be the advocate for all veterans and all VSOs. 
I meet with these folks on a weekly and monthly basis formally 
and daily, informally and bring their concerns and their 
thoughts to the Committee.
    Mr. Michaud. So why did three out of four say they were not 
involved in the process?
    Ms. Catellier. I suspect because they are not at the table 
for the specific deliberations and that I'm acting as their 
agent to bring their concerns to the group.
    Mr. Michaud. Okay. My next question is--and you mentioned 
that 90 percent of the veterans pre-Katrina level are back. 
That's not counting the actual increase in workload. I know 
other VISNs have seen because of Iraq, Afghanistan, what have 
you.
    My question is--and I know they are being taken care of in 
CBOCs and what have you, but have you seen an increase in fee-
for-service or contracting out to rural hospitals and/or 
hospitals in general and what has that increase been since 
Katrina?
    Ms. Catellier. We purchase much of our care that we'd like 
to keep in the local community for the convenience of our 
veterans, so for those services we can buy, we do. And we'll 
spend about $30 million this year on purchased care.
    For complex care, especially cancer care and cardiac care 
and inpatient psychiatric care, which is not available in the 
local community, we refer our patients to our sister VA 
facilities within VISN 16 and we provide the transportation for 
the care.
    Mr. Michaud. How does that increase before Katrina? Is it--
--
    Ms. Catellier. For purchased care, the year before Katrina, 
it's about 10 times more.
    Mr. Michaud. Okay. Since Katrina--and we've heard that some 
veterans are coming back--has the VA looked at exactly how many 
veterans are coming back, the demographic disbursement of the 
veterans, how many are coming back and where are they coming 
back to.
    And do you have any information, if not available today, 
that you can provide the Committee?
    Ms. Catellier. I do. Let me just give you just a snapshot 
because I know time is short, and I've asked my assistant to 
just put up a chart to sort of show it.
    Our patients predominantly come from six parishes around 
the city. And as I said, we are a regional healthcare system, 
so whereas the population in Orleans Parish, which is the City 
of Orleans, is not as robust as we had seen, we are seeing that 
made up for--throughout the other parishes so that, as Ms. 
Lewis-Payton said, we are this year at about 90 percent. We'll 
hit our pre-Katrina workload by next year, we believe.
    So this chart shows you that for the three parishes in and 
around Orleans Parish, so Jefferson Parish, Orleans Parish, and 
St. Tammany Parish where we have our clinics, about 40 percent 
of our patients live there. About another 25 percent live up in 
the Baton Rouge area and then the rest is disbursed around 
southeast Louisiana. But what we are seeing is that, even 
though the city is not coming back to the same rate, the region 
is.
    One other fact that I find very interesting as a newcomer 
to the city is that we have a huge market penetration of 
veterans in our veteran population, more than any VA I've 
worked at. Fifty percent of veterans who live in Orleans Parish 
use the VA, they are enrolled for care; and in the other six 
predominant parishes, about 30 percent market penetration, 
which is very high in the VA.
    Mr. Michaud. Thank you. And, Mr. Chairman, if they could 
provide the charts for the Committee, it would be helpful. 
Thank you very much, Mr. Chairman. Thank you.
    [The charts, Southeast Louisiana Veterans Healthcare 
System, Map Showing the 23 Parishes with Clinics Serving 
Veterans in: New Orleans, Baton Rouge, Hammond, St. John 
Parish, Slidell, and Houma, Southeast Louisiana Veterans 
Healthcare System, Individual Patients Treated FY 2005-FY 2007, 
and Southeast Louisiana Veterans Healthcare System, FY 2007 
Patients by Parish, appear on pages 83 and 84.]
    The Chairman. Thank you. Thank you all for giving us this 
information and making sure that we and the VA focus on these 
issues. We thank the Supreme Court of the State of Louisiana, 
by the way, for hosting us.
    I would like to give Mr. Baker and Mr. Jefferson a couple 
of minutes each to just summarize their--their impressions of 
this hearing and where we go from here.
    Mr. Baker. Mr. Chairman, first, let me again express 
appreciation to you and others Members who have taken time from 
their schedule to be here today. I'm most appreciative. Most 
members of the audience attending would not know this is a very 
well-attended field hearing for events such as this, so it 
indicates the significant level of interest by the Committee in 
making the right decision here.
    I am also very encouraged by the representatives of the VA 
here in the last panel testifying today as to their process 
going forward. Certainly, I would like to see it expedited more 
quickly. And I only have one minor element to add to the list 
of already required elements for consideration, not that it 
would be determinative but that it would be another element on 
the long list, to include some sort of statistically 
significant sampling of the veterans as to their preferences 
for location.
    Outside of that, I think all the operational and 
construction elements that you have outlined are at the heart 
of this consideration are certainly appropriate and I think 
will yield the best decision possible and I'm going to support 
the agencies determinations as they go forward.
    I hope, however, that once these considerations are 
finalized that we can find a way; and if there is anything that 
the agency can bring to my attention that would be helpful in 
the expediting of the construction process, I certainly hope 
that more thought will be given to that.
    It does appear to be a little longer time than a market 
driven approach to a similar complex project; and if there are 
rules or requirements that simply obfuscate the goal and are 
not benefiting to the public interest, we should review those 
and try to be helpful to you.
    I certainly don't want to leave today without making the 
point that I am here to hopefully get the restoration of 
veteran services as quickly as possible. Wherever that decision 
is made, I'm for it. I just want it a little more quickly than 
we appear to be able to get it.
    I thank you. I yield back, Mr. Chairman:
    The Chairman. Thank you. Mr. Jefferson?
    Mr. Jefferson. Thank you, Mr. Chairman. And I would like to 
thank you and the Committee for coming down here today and 
spending the time with us and committing yourself as you have, 
each of you, to restoring our veterans' benefits in our area. 
And I thank you for the particular attention you paid to my 
comments to you as we have talked on these issues.
    I want to thank the dean of our delegation in Washington, 
Richard Baker, which has also been a steadfast supporter of our 
recovery here completely and totally; and I appreciate that 
from someone who's from Baton Rouge who has spent a lot of time 
with our efforts here and I know it's important to him.
    I started out in this building, so I have a few feelings 
about it. Thirty-five years ago, I was a law clerk here and 
now--the Supreme Court wasn't here then. It was a Federal 
District Court, and right up here where we are, we actually 
literally came upstairs if you had a problem at the District 
Court level because the Appeals Court was upstairs from where 
we were. And this building has been redone, and it was a 
Wildlife and Fisheries building redone as a Federal court 
building now redone as a State Supreme Court facility. It is 
magnificent and I'm glad you had a chance to see it, see what's 
happening to make this transition and to restore this beautiful 
old building.
    I want to say, though, to the particular issues today that 
we are talking about, I think it's been a very important 
hearing. And the folks you've heard from have been absolutely 
wonderful witnesses.
    I think the point we made is that our State and local 
people are trying to bear up to their end of responsibility, 
both with respect to funding for the restoration of a hospital 
here and for coming together in a collaborative sense with 
those who can provide care for the veterans.
    There was some questions early on about our State's 
commitment. I think those questions are answered or have been 
answered by this Legislature's actions in this particular 
session which just ended a few days ago.
    I think the issue of site selection that we've talked so 
much about, I first started out, I represented the area as a 
parochial advocate for it, but I think there are many arguments 
that have been made today that I think make this one that I can 
make on an objective basis if I had to, and I think that the 
issue is all around patient care.
    I think the veterans are right when they insist upon it, I 
think those at LSU are right when they talk about that as a 
core of our issue, and the Members here are right when they say 
that's really the issue we are talking about.
    When the place is constructed, wherever it's constructed, 
it will be a facility that will be able to serve veterans, but 
the real issue is going to be what happens once it is 
constructed and what facilities are going to be brought to bear 
to give patient's care, day in and day out.
    I think the argument for--that has been made here, no 
matter how one starts out about site, is that there will be 
better patient care for veterans if you have the collaborative 
efforts that we've talked about here, that we see in so many 
other places, between LSU and Tulane and other features of our 
healthcare system that are located in this medical corridor.
    And in each case, the population is going to have access, 
as the map shows from the six-parish area, they can make access 
to either site, but the issue of the care of the patient and 
the research and all the rest of it all tie to patient care I 
think and argues more for the location here and I hope that 
that will be taken into account.
    The issue of population, you've answered that I think quite 
adequately. I was concerned earlier about whether enough people 
are back or are coming back. And I said in the opening and it's 
been supported here, that even though they aren't back 
literally in the City of New Orleans, it's up to 65 percent of 
our population, they are around and about the city for the most 
part in other parishes that aren't a part of Orleans proper.
    So I would urge this Committee to keep looking at this area 
and to understand how important it is since we get past the 
most important question, the issue of veteran care, patient 
care, then look at how important it is to our recovery in the 
second place, how essential it is to bringing the city back and 
making it whole again and how much of a responsibility, last, 
for the Federal Government to get that done.
    I have said often and I don't want to keep sounding like a 
broken record, but the Mayor said it and I said it, others have 
said it. If the Federal Government had met its responsibility 
with respect to the design, construction, and maintenance of 
our levee system, we would not have had the flooding of the 
occasion, the destruction that took place here including the 
destruction of our medical healthcare facilities.
    So there is a unique Federal responsibility here we think 
to help to restore our city. So we argue for patient care in 
the first place; but the second place, if it weren't for the 
efforts of this community and others to help to restore our 
city because it was a Federal--the action or inaction, if you 
will, of the Federal Government that caused the flooding of our 
city's facilities in the first place.
    So I thank the Committee for coming here. I hope you can 
take these arguments back to our colleagues in the Congress and 
look forward to getting this done as quickly as we can, to 
restoring the VA facilities in our area. Thank you very much, 
thank all of you.
    The Chairman. Thank you. I want to thank all the Members of 
our Committee, the Committee staff. The Committee was very much 
engaged in this. I think we learned a great deal that we will 
bring back to Washington, DC, and we have focused our attention 
on the veterans, we have focused our attention on the speed at 
which the Federal Government can act to remedy the situation.
    We thank all of you for being here, we thank our last 
panel, and this hearing is adjourned.
    [Whereupon, at 12:44 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner
             Chairman, Full Committee on Veterans' Affairs
    Thank you, everyone, for coming today. This is a very important 
hearing on the future of VA healthcare in South Louisiana.
    We are here today to explore the challenges faced by VA and other 
healthcare facilities to provide high quality, safe healthcare to 
veterans and other citizens of this area.
    On the morning of August 29, 2005, Hurricane Katrina made landfall 
near the Louisiana-Mississippi border, causing significant destruction 
to a 90,000 square mile area of the Southeastern United States.
    In the three-state area of Louisiana, Mississippi and Alabama, VA 
facilities affected included the Gulfport, Mississippi and New Orleans 
medical centers; New Orleans regional benefits office; five community 
based outpatient clinics along the Gulf Coast; and the Biloxi VA 
National Cemetery.
    The VA's response to the hurricane and the safety of its patients 
has been recognized on numerous occasions as being outstanding.
    The hurricane had a major impact on the overall healthcare delivery 
system in Southeastern Louisiana and today, nearly two years later, the 
delivery of healthcare remains in flux as leaders struggle to come to 
some agreement on both the best location and the best partnerships to 
forge in order to provide timely, safe, high-quality healthcare to 
veterans and others.
    Today, veterans are seen at several different locations. Through 
the eight outpatient clinic locations throughout Southeastern Louisiana 
they are able to receive services that do include mental healthcare.
    Prior to Katrina, the New Orleans VA medical center had a 
longstanding partnership with Louisiana State University in New 
Orleans, Tulane University Schools of Medicine, and many allied health 
profession programs. It was also a primary teaching facility in the 
area.
    Congress appropriated $625 million, through two emergency 
supplemental appropriations, to move forward on building a new 
facility. On April 10, 2007, the Committee sent a letter to the 
Secretary urging VA to make their own decision without further delay.
    Today, we will hear from a number of interested stakeholders on the 
planning and future of VA healthcare in Southeastern Louisiana.
    We should keep in mind that moving ahead expeditiously to provide 
healthcare to veterans in the area is a top priority.
    Anything less than that, does a disservice to those who have served 
their country.
    Thank you all for attending the hearing today.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud
                    Chairman, Subcommittee on Health
    I would like to express my thanks to the Chairman for holding this 
hearing today. This is an important issue for the veterans of Louisiana 
and for our VA system.
    Veterans in south Louisiana have waited too long for a decision to 
be made on the future of healthcare delivery in this area.
    VA has the opportunity to be creative and to benefit from community 
assistance and input.
    I feel it is of the utmost importance to hear from the local 
leadership and stakeholders about the situation here and how best to 
resolve it.
    The decision needs to be made quickly, wisely and with effective 
use of tax dollars.
    And we must always remember that our responsibility here is to the 
veteran. They deserve to have access to the best possible care. That 
must be our guiding principle.
    With that, I look forward to hearing from the Members of the 
panels.

                                 <F-dash>
                 Prepared Statement of Hon. Jeff Miller
           Ranking Republican Member, Subcommittee on Health
    Thank you, Mr. Chairman.
    Many share my concerns about the topic of today's hearing, and I am 
grateful that this Committee is meeting to exercise its duty of 
ensuring that actions taken by VA are for the benefit of our nation's 
veterans.
    Nearly two years after Hurricane Katrina, there is still not a 
clear plan on how veterans' healthcare needs will be addressed in the 
region, and I am troubled by many of the proposals. The proposal 
receiving the most attention has cost estimates approaching $1.2 
billion, yet there is very little certainty about where this facility 
will be located.
    Taxpayers and veterans both can be better served if VA would look 
take a more fiscally responsible approach and situate a facility that 
won't be subject to a repeat of what happened to the old hospital. With 
a declining population of veterans in the area prior to Katrina, a 
medical center where veterans are actually located would provide a 
quicker path to delivering healthcare to those in need. Furthermore, 
new hospitals are going up all around our country at a third of the 
estimated cost.
    Veterans in Southeast Louisiana deserve timely access to healthcare 
just as veterans throughout the rest of the nation do. That is never in 
question. However, I question the proposed joint venture, and the 
significant amount of time that has lapsed with little progress makes 
me question that plan even more.
    Putting a replacement facility in a flood-prone area looks like no 
lesson was learned in the past, and putting a replacement facility back 
in the same area after years of population shift looks like VA isn't 
looking clearly toward the future.
    I look forward to today's testimony and hopefully constructive 
ideas on how veterans in this area can receive timely access to 
healthcare at a cost that best serves the interest of the taxpayers.
                                 <F-dash>
                Prepared Statement of Hon. C. Ray Nagin
                 Mayor, City of New Orleans, Louisiana
    I am C. Ray Nagin, Mayor of New Orleans, one of America's most 
beloved and culturally distinctive cities, and a city which is facing 
the challenge of recovering and rebuilding strategically after the 
worst natural and man-made disaster to occur in the United States of 
America. Our goal is to make our city stronger and better, and to 
provide improved services and opportunities to the citizens of our city 
and region. Among our most deserving citizens are our veterans, who 
have given of themselves to serve our country in times of war and 
peace.
    To Chair and Congressman Filner, Ranking Member and Congressman 
Buyer, distinguished Members and guests of the House Committee on 
Veterans' Affairs: Thank you for calling this hearing to discuss the 
future of ``VA healthcare in south Louisiana.'' The Veterans 
Administration (VA) Hospital has been an important presence in our 
community, and the construction of a new facility in downtown New 
Orleans would achieve several things: ensure that veterans receive the 
excellent state-of-the--art medical care they deserve; improve the 
provision of healthcare in general in the community; and dramatically 
impact the economy of our region.
    I would like first to thank the Congress for their continued 
support in the months since Hurricane Katrina and the subsequent 
flooding of our city. I also must thank the American people and our 
friends throughout the world for their unwavering generosity.
Role of the VA Hospital
    The VA Hospital has traditionally played an important role in 
ensuring the well-being of the over 200,000 veterans in southern 
Louisiana. The VA Hospital serves not only the veterans who live in the 
region, but the thousands who visit the city as tourists, for special 
events and for conventions. The construction of a new VA hospital in 
downtown New Orleans would greatly impact the availability, 
accessibility and quality of care for veterans. It would also help us 
to reclaim the many highly skilled and qualified medical specialists 
who were displaced after the storm, as well as to attract new medical 
professionals, facilities and businesses.
    The area where the hospital would locate is within a legislatively 
created medical district, encompassing more than 30 public, private, 
and not-for-profit organizations, including several colleges and 
universities (LSU, Tulane, Xavier, Delgado), several hospitals, two 
medical schools, nursing schools, medically related offices and 
businesses, and associated biotech companies.
    The presence of the VA Hospital in this district creates the 
synergy and leveraging ability that clustering of medical facilities 
can achieve. In this central location, it will continue to be a 
critical piece of the healthcare network of the New Orleans region. The 
physical proximity of institutions allows for sharing of expensive and 
ever changing technologies and diagnostic equipment. It also encourages 
human interaction and intellectual exchanges that can lead to more 
accurate diagnoses, varied treatment approaches and important scholarly 
and medical research and discovery.
    Pre and post Katrina, the area's bioscience institutions have been 
conducting cutting-edge research in areas such as gene therapy, cancer 
biology, peptide pharmaceutical design, and infectious diseases. 
Federal and private grant funding in New Orleans exceeded $180 million 
in 2003 and was growing substantially as New Orleans based institutions 
capitalized on their core strengths. In fiscal year 2005, the New 
Orleans area accounted for $129.8 million in awards from the National 
Institutes of Health, representing 74 percent of the total amount 
awarded within the entire state of Louisiana. Those organizations have 
come together to
    Many of these bioscience institutions have joined together to 
create the New Orleans Regional Biosciences Initiative (NORBI), one of 
the major redevelopment projects of the region. The new VA hospital 
would be an anchor in NORBI, along with other institutions such as 
Louisiana State University Health Sciences Center (LSUHSC) and Tulane 
University Hospital and Clinic. Their partnership with the VA would 
increase veterans' access to medical specialists and researchers.
    The VA Hospital is also a critical economic development engine for 
the City of New Orleans. The new facility would result in a capital 
investment estimated to be $650 million to $1 billion, with an annual 
impact of $500 million. If co-located with the planned new LSU teaching 
facility, together they would result in a capital investment of at 
least $2 billion and produce an annual impact of more than $1.26 
billion, including more than 20,000 construction jobs and more than 
10,000 full time professional positions.
Our Work to Retain the Hospital
    Recognizing the importance of such a development, the City of New 
Orleans, along with a coalition of regional partners, submitted a 
response to the Department of Veterans Affairs Request for Expressions 
of Interest to acquire a site for the construction of a medical center 
in the New Orleans Metropolitan Area. This medical district location 
for the VA Hospital has the support of the New Orleans Regional 
Planning Commission, the New Orleans City Council, and the Downtown 
Development District, each of which unanimously approved resolutions to 
keep the hospital downtown. In addition, the Louisiana chapter of the 
American Legion, with more than 1,000 delegates in attendance at its 
annual meeting last month, also unanimously supported the rebuilding of 
the VA Hospital in downtown New Orleans.
    The city and its partners have the financial means to expeditiously 
acquire the necessary land, which will be done with the support of a 
cooperative endeavor agreement (CEA) with the State of Louisiana. This 
CEA engages the state to use quick-take authority for public benefit 
for all of the land required for the VA site, something it is in the 
process of doing for the adjacent LSU location. Site acquisition can be 
accomplished within the VA's 18-month design timeframe for the 
hospital, so that construction can begin immediately upon completion of 
the design. The city can provide the necessary infrastructure for the 
site, including water, sewer and electricity, and has conducted 
preliminary site assessments which indicate environmental concerns will 
not be a problem.
    Much of the property that would be used for the project is 
currently non-residential. A large portion of it has been empty or 
underutilized, and this project provides an opportunity for further 
renewal of our urban core. Of the residential properties, most are not 
owner occupied, and the city has an agreement with an experienced non-
profit for assistance with relocations. Acquisition of the land by the 
city would provide property owners with a government buyout, ensuring a 
fair price and an opportunity to locate in areas they find more 
desirable.
    Though we realize there are significant advantages and cost savings 
to be had by co-location or coordination of services between the VA and 
LSU hospitals, our proposal to the VA is not dependent upon the 
building of any other facility.
Conclusion
    In closing, I would like to again thank you for the opportunity to 
discuss our plans and hopes for the reestablishment of this critical 
healthcare institution in post-Katrina New Orleans. We appreciate your 
commitment, as the Committee on Veterans' Affairs, to ensuring that 
those who have served our country receive the excellent medical 
services they deserve. The presence of the VA Hospital in our downtown 
medical district will allow it to take advantage of the clustering of 
clinical, research, teaching and commercialization facilities to 
achieve that goal for our veterans and our community.
                                 <F-dash>
   Prepared Statement of Michael Kaiser, M.D., Acting Chief Medical 
                                Officer
        Louisiana State University Healthcare Services Division
    Mr. Chairman and Members of the Committee, my name is Michael 
Kaiser, I am a pediatrician and Acting Chief Medical Officer of the LSU 
Healthcare Services Division, which consists of seven acute care 
hospitals and extensive outpatient clinics operated by the State of 
Louisiana. These include our rebuilt LSU Interim Hospital campus in New 
Orleans, which prior to Hurricane Katrina was a component hospital of 
what was legally known as the Medical Center of Louisiana-New Orleans 
and which was effectively destroyed by Hurricane Katrina. Similar to 
other local public hospitals across the country, this facility 
functioned as the core of the safety net for the uninsured and was the 
predominant site for the clinical training of physicians and other 
healthcare professionals.
    The now closed Charity Hospital (the other component facility of 
what was the Medical Center of Louisiana at New Orleans) sits across 
the street from the VA Hospital, which also suffered catastrophic 
damage in the storm. Following Katrina, nothing has occupied our time 
and attention more fully than the restoration of our public hospital 
and its clinics to serve the people of this region and the future 
healthcare professionals who train there.
    Of necessity, LSU has focused on both the present and the future. 
In the nearly two years since Katrina, we have moved from emergency 
facilities in tents to the opening of a small, interim hospital and a 
growing number of primary and specialty care clinics at several 
locations. Our capacity is not yet up to the level of need in the 
region, particularly in the availability of psychiatric services, some 
medical specialties and dispersed primary care clinics, but we have 
made significant progress. Other major additional steps will be taken 
in the months ahead.
    As we continue work to address immediate and critical needs in the 
community, LSU has kept a steady focus on the longer term. The region 
desperately needs not only additional healthcare resources, but also a 
way to develop and deploy those assets through a better, more efficient 
system than was possible before the storm. LSU has long worked toward 
fundamental improvements in its delivery system, such as through its 
award-winning disease management program, but the convergence of the 
need to rebuild and the heightened support today for both a reformed 
delivery model for care to the uninsured and for the financial and 
reimbursement reform necessary to make that new model possible, present 
realistic opportunities for our long-term agenda for change.
The VA Collaboration
    The potential collaboration between the Department of Veterans 
Affairs (hereafter VA) and Louisiana's state public hospital system is 
one propelled by unintended opportunity, but it is a core part of our 
strategic vision. We have a chance to jointly design and cooperatively 
operate a new facility that meets the needs of both institutions, and 
the patients they serve, while at the same time achieving significantly 
enhanced efficiency, cost savings and quality healthcare.
    The proposed collaboration is a logical step for reasons that 
extend beyond the destruction of Katrina. The adjacent VA and 
Louisiana-operated public hospitals have a long history of working 
together. Prior to the storm, the New Orleans VA purchased over $3 
million a year in clinical and other services from LSU, including 
Cardiothoracic Surgery, Radiation Therapy, and Dermatology services. 
Many physicians worked at both the VA and the Medical Center of 
Louisiana at New Orleans facilities and many medical residents, from 
both LSU and Tulane Schools of Medicine, rotated to both hospitals.
    For the past 18 months, I have chaired the planning efforts with 
the VA. First, the Collaborative Opportunities Study Group, cochaired 
with Mr. Michael Moreland, Director of the VA Hospital in Pittsburgh, 
looked at the possibility and feasibility of building together and 
sharing services. Once proved feasible, the Collaborative Opportunities 
Planning Group, cochaired with Mr. Ed Tucker, Director of the DeBakey 
VA Hospital in Houston, has been studying what services should be 
shared and the details of building together. The COPG continues to meet 
weekly in order to present a final report to the Secretary by the end 
of September, 2007.
    The creation of a VA-LSU campus in downtown New Orleans will create 
benefits for both partners that exceed what either can accomplish 
separately in different locations. We have a rare opportunity to 
develop a whole that is greater than the sum of its parts. There are 
enormous benefits to the community of a downtown medical complex 
anchored by the VA-LSU collaboration, bolstered by the Tulane and LSU 
health science centers, and building on a Level I Trauma program and 
centers of excellence in orthopedics, neurosciences and other 
specialties. These benefits will redound specifically to the patients 
of the VA and LSU systems, as well as to a larger population. It is the 
synergy created by working together that will enhance the services 
available to all our patients.
Where The Project Stands
    The Louisiana Legislature in its just completed 2007 Regular 
Session, approved capital outlay appropriations totaling $1,500,000,000 
for the project ($74,500,000 in HB 765 of the 2007 Regular Session and 
$1,425,500,000 in HB 2 of the 2007 Regular Session). These 
appropriations overstated the financial requirements for the facility 
by $300,000,000 because the legislature failed to make an adjustment 
for $300,000,000 previously allocated for this project, but moved in 
the waning days of the legislative session to the Road Home Program. 
Adjusting for this error leaves $1,200,000,000 for the new academic 
medical center which matches the cost estimate for the facility 
contained in the business plan completed by the Adams Group, a national 
hospital consulting firm, and overwhelming approved by both houses of 
the Louisiana Legislature. This funding comes from multiple sources as 
follows: $74,500,000 is from the State General Fund that is available 
immediately for land acquisition, planning, and construction; 
$225,500,000 will come from the sale of general obligation bonds that 
will be issued by the state as the need for additional cash becomes 
available; and, the final tranche, $900,000,000 will come from the sale 
of revenue bonds that will be issued after the general fund and general 
obligation bond moneys have been expended.
    The construction of the new academic medical center is being 
managed by the Office of Facilities Planning and Control which is an 
agency within the executive branch of Louisiana Government. Acquisition 
of land identified for the new academic medical center and the VA 
facility is already underway with contracts having been issued to 
complete title and appraisal work. Once the VA firmly commits to 
building at the downtown site, the City of New Orleans and the State of 
Louisiana are prepared to immediately proceed with land acquisition for 
the VA.
    Both LSU and the VA have conducted independent architect selection 
processes and are ready to announce the winning firms. If the same firm 
is not selected by each partner, a previously developed plan to work 
together with separate architects will be implemented.
    From this point forward and given the preparation of both partners, 
the process of building a new hospital complex together can proceed as 
quickly as choosing to build separately. Significant groundwork has 
been laid for a long term, mutually beneficial collaboration, and we 
are poised to see it to completion.
    Thank you again for your interest and for this opportunity to share 
LSU's perspective on these critical matters. Far from being an obstacle 
to healthcare reform as some have feared, the creation of a revitalized 
academic medical center complex in the city will be a catalyst for that 
reform. Particularly if LSU and the VA work together, it also will 
sustain a reformed system in the long run by supporting a viable, 
mission-driven system dedicated to improved access, the highest quality 
medical care and innovative healthcare education in a rebuilding 
community.
    Thank you.
                                 <F-dash>
        Prepared Statement of Frederick P. Cerise, M.D., M.P.H.
        Secretary, Louisiana Department of Health and Hospitals
    Introduction: Mr. Chairman and Members of the Committee, thank you 
for the opportunity to testify today on the future of veterans' 
healthcare in south Louisiana. I am Dr. Fred Cerise, Secretary of the 
Louisiana Department of Health and Hospitals (DHH), the leading state 
agency for healthcare in Louisiana.
    Louisiana and the Department of Veterans Affairs (VA) have had a 
successful relationship for many years as demonstrated by collaboration 
among the Department of Veterans Affairs-Southeast Louisiana Veterans 
Healthcare System (SLVHCS), Tulane University Health Sciences Center, 
and the Louisiana State University (LSU) Health Sciences Center.
    Further, the LSU Health Sciences Center Healthcare Services 
Division, which operates the system of public hospitals and clinics in 
Louisiana, and the SLVHCS have similar missions to provide primary and 
specialty care and other related medical services to their target 
populations. The two systems have several other things in common: both 
are public healthcare systems, both provide a high volume of outpatient 
care, and both are integrated systems. Additionally, physicians and 
residents from Tulane and LSU regularly rotate between the two systems. 
\1\
---------------------------------------------------------------------------
    \1\ LSU-HCSD, Status Report: LSU/VA Collaboration in New Orleans, 
May 2006.
---------------------------------------------------------------------------
    Post-Hurricane Katrina, these two healthcare systems, and 
ultimately the State and Federal Governments, have a tremendous 
opportunity to advance and strengthen this relationship into a formal 
partnership, creating better and more efficient healthcare for the 
citizens and veterans of Louisiana.
    Louisiana Healthcare Redesign Collaborative and the VA Vision: 
After Hurricane Katrina, the Louisiana Healthcare Redesign 
Collaborative was created through a legislative resolution to respond 
to the healthcare issues in the New Orleans region (Jefferson, Orleans, 
Plaquemines, and St. Bernard Parishes). The Collaborative was a forty 
member group charged with creating recommendations for a quality driven 
healthcare system for New Orleans. The Collaborative adopted the 
following vision: Health care in Louisiana will be patient-centered, 
quality-driven, sustainable and accessible to all citizens.
    The backbone of the redesigned system of care put forward by the 
Collaborative is the ``medical home.'' The goal of the medical home is 
to provide a coordinated approach to patient-centered care that is 
built on partnerships, to utilize health information technology, and to 
improve health outcomes. This is akin to the VA Vision that ``supports 
innovation, empowerment, productivity, accountability, and continuous 
improvement. Working together, [you] provide a continuum of high 
quality healthcare in a convenient, responsive, caring manner--and at a 
reasonable cost.'' \2\
---------------------------------------------------------------------------
    \2\ United States Department of Veterans Affairs, available at: 
http://www1.va.gov/health/gateway.html, (accessed on July 5, 2007).
---------------------------------------------------------------------------
    The medical home is the base from which primary care and other 
needed services are managed and coordinated in order to provide the 
most effective and efficient care. This includes specialty care, 
inpatient care, community preventive services and extension services 
for complex care needs. Investments in health information technology 
(HIT) and the recently established Louisiana Healthcare Quality Forum 
(LHCQF) will aid in creating ``system-ness'' and ensuring that 
improvements in quality occur.
    The medical home system is consistent with recommendations made by 
a number of professional societies. Additionally, it has the qualities 
and expectations consistent with those of a high performing health 
system and/or redesigned system as described by the Commonwealth Fund 
and the Institute of Medicine. Ensuring the coordination and 
comprehensive approach of the medical home model over time will improve 
the efficiency and effectiveness of the healthcare system and 
ultimately improve health outcomes.
    Louisiana is moving forward with the redesign of the healthcare 
systems in the hurricane affected areas. As a result of the recent 
legislative session, funding has been allocated to pilot the medical 
home system of care, including support for the development of regional 
health information exchanges, adoption of electronic medical records by 
providers, and the LHCQF.
    The VA as a Model for Healthcare: In July 2006, BusinessWeek 
magazine called the VA healthcare the best medical care in the U.S. A 
2004 article in The American Journal of Managed Care stated that 
``today, the VA is recognized for leadership in clinical informatics 
and performance improvement, cares for more patients with 
proportionally fewer resources, and sets national benchmarks in patient 
satisfaction and for 18 indicators of quality in disease prevention and 
treatment.'' \3\
---------------------------------------------------------------------------
    \3\ Perlin, Jonathan, et al, The Veterans Health Administration: 
Quality, Value, Accountability, and Information as Transforming 
Strategies for Patient-Centered Care, The American Journal of Managed 
Care, November 2004.
---------------------------------------------------------------------------
    The VA system is probably best known for its successful 
coordination of care and use of health information technology (through 
the VistA system). The Veterans Integrated Service Networks (VISN) 
created fundamental change in how healthcare was delivered to veterans. 
The VISN encouraged the coordination of care and resources of the 
medical centers, clinics, long-term facilities and other facilities. As 
a result, the VA experienced a reduction in hospital and long-term 
beds, and ultimately in hospitalizations. \4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    Health information technology is integrated in the VA system 
through its VistA system. The success of the VistA system was 
highlighted in the aftermath of Hurricane Katrina when VA facilities 
across the nation were able to access patient information for evacuees. 
Health information technology provides the VA an opportunity to monitor 
and improve quality. For example, the VA uses computerized physician 
order entry, which has shown to decrease rates of adverse drug events. 
\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    The VA also provides an avenue for healthcare research. In New 
Orleans alone, the VA has twenty-nine active research projects and is 
the home to the Mental Illness Research, Education, and Clinical 
Center. \6\ Furthermore, the cost per patient in the VA system is less 
than the national average. \7\
---------------------------------------------------------------------------
    \6\ United States Department of Veterans Affairs, State Summary: 
Louisiana, available at: http://www1.va.gov/opa/fact/statesum/LAss.asp, 
(accessed on July 5, 2007)
    \7\ Arnst, Catherine, The Best Medical Care in the U.S., Business 
Week, July 2006.
---------------------------------------------------------------------------
    The State's Commitment to the LSU-VA Partnership: The state's goals 
for healthcare are clear. Given the similar mission and goals between 
the state and the VA, a joint partnership between the two entities 
makes sense. What has been proposed is a move from three separate 
inpatient facilities that existed in New Orleans prior to Katrina to a 
single shared LSU-VA inpatient facility with a more dispersed network 
of clinics. Sharing of common physical plant needs and certain high-end 
clinical services will create significant operational efficiencies for 
our taxpayers and improved health benefits for all of the citizens we 
both serve.
    The state's commitment to this partnership is strong. The state has 
made the necessary commitment of funding for a new academic medical 
center in downtown New Orleans to replace the old Charity Hospital. 
Governor Kathleen Blanco recently signed Act 203, which allocates an 
initial $74.5 million for land acquisition and planning for the 
project. The authorizing legislation for the $225.5 million down 
payment called for in the business plan developed by Louisiana's 
Division of Administration was approved by the state legislature and is 
awaiting the governor's signature. The remainder of the project will be 
financed through general revenue bonds.
    In addition to the state's investments in the medical home pilots, 
HIT, and quality, the state has also committed $38 million to a cancer 
research institution, which will be established in downtown New 
Orleans. The presence of LSU and Tulane, combined with the VA and the 
new cancer center will create a medical district that will not only 
drive economic development in New Orleans, but will also provide state 
of the art healthcare to our citizens and veterans.
    There is widespread support for this endeavor. The Regional 
Planning Commission for Jefferson, Orleans, Plaquemines, St. Bernard 
and St. Tammany Parishes unanimously endorsed a resolution supporting 
the retention of a VA Hospital in downtown New Orleans. The Downtown 
Development District of New Orleans passed a similar resolution. The 
state legislature showed its support of the LSU-VA partnership by 
passing Senate Concurrent Resolution 76.
    The Unified New Orleans Plan (UNOP) identifies the LSU-VA 
partnership as one of its highest priorities for economic development. 
Input for the plan was received from every neighborhood in New Orleans 
and from a broad spectrum of community leaders. The Plan states that 
``the LSU/VA/University Hospital Complex is the key project to the 
reinvigorated medical district . . . it will foster technologically-
driven high performance companies that have the potential of creating 
quality jobs and economic diversification.''
    The state and the VA have similar visions for healthcare--to 
provide patient-centered, coordinated care that utilizes health 
information technology and improves health outcomes in the most 
efficient manner possible. The existing partnerships among the VA, 
Tulane, and LSU will only be strengthened through this proposed new 
model. Hurricane Katrina was a tragedy for the New Orleans region and 
for our country. Together, we have the opportunity to create something 
positive, new, and innovative in the wake of this terrible disaster.
    The shared inpatient facility with a dispersed network of clinics 
organized to better serve our citizens is not a simple rebuilding of 
old systems but the creation of a new model that makes sense for those 
receiving care and responds with clinical and financial accountability 
to the taxpayers supporting this care. I urge you to recognize the 
opportunity to do something truly innovative for our citizens and 
support this endeavor.
    Thank you for the opportunity to testify today.
           Prepared Statement of Alan M. Miller, Ph.D., M.D.
           Interim Senior Vice President for Health Sciences
                   Tulane University, New Orleans, LA
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to speak to you about the importance of fully restoring 
accessible healthcare and benefits services to our region's veterans 
and about Tulane's historic and present role in the provision of that 
care. Almost 23 months have passed since Hurricane Katrina devastated 
our city and our healthcare system. While we've seen enormous progress 
in some areas, in other areas progress has come at a distressingly slow 
pace. At this juncture, our primary focus should be the timely re-
establishment of the highest quality care possible for the men and 
women who have served our country.
    The VA has been a valued Tulane partner for nearly 40 years and 
during that time our faculty, residents, and medical students have 
worked side by side with the VA in providing outpatient and inpatient 
care for the 23-parish region, the education of our future physician 
workforce, and cutting edge medical research.
    Today, I'd like to focus my comments on four key areas:

    1.  Provision of care at the VA pre-Katrina;
    2.  The VA's and Tulane's roles in re-establishing medical care 
post-Katrina;
    3.  The importance of the VA in medical research;
    4.  Looking ahead to the biosciences
I. Tulane and the VA--Before the Storm
    Prior to Hurricane Katrina, Tulane University provided 
approximately 70 percent of the patient care at the VA, with more than 
75 Tulane faculty physicians serving joint appointments with the VA in 
many medical, surgical, and psychiatric sub-specialties and advanced 
clinical services. These included geriatrics care, coronary intensive 
care and post-traumatic stress disorders.
    Well-educated and trained physicians are essential elements in 
assuring access to quality healthcare services not only in New Orleans 
but throughout our country. Tulane's mission of healthcare, medical 
education and research is intimately intertwined with that of the VA, 
and each institution depends upon the other for success.
    Before August 2005, the VA Medical Center and Hospital in New 
Orleans provided training for approximately 140 residents, 120 of whom 
were from Tulane.
    The VA's integration with the health sciences centers at Tulane and 
LSU provided a critical synergy that was a key strength both for the 
New Orleans VA and the region's overall healthcare standing. It also 
provided a vibrant environment in which groundbreaking research took 
place. For example, Dr. Andrew V. Schally of the VA and the Tulane 
School of Medicine achieved international recognition as a Nobel 
Laureate for Medicine or Physiology for research that opened the door 
to new research in contraception, diabetes and mental retardation, as 
well as depression and other human mental disorders.
    In short, the VA, in tandem with the medical education programs at 
Tulane and LSU, had by August 2005 become a vital fixture in the 
healthcare landscape of New Orleans and the surrounding region, not 
only providing critical medical care but also playing a crucial role in 
graduate medical education and medical research.
II. Re-establishing Medical Care, Post-Katrina
    The actions of a number of local, state and Federal agencies have 
been questioned in the aftermath of Katrina, but the VA is not among 
them. The VA's swift response allowed the agency to successfully and 
safely evacuate hundreds of patients and employees as well as thousands 
of critical patient records. The presence of a significant number of 
Tulane faculty physicians, residents and staff was integral to the 
evacuation and crucial in re-establishing a presence in the community 
immediately following the storm.
    Today, the VA's outpatient clinics have reopened and visits are up 
to 75% of the pre-storm numbers. In addition, through its partnership 
with Tulane, the VA is now providing much-needed inpatient care at 
Tulane Hospital and Clinic as it strives to keep up with the rapidly 
expanding population. Currently, the VA is supporting an average of 26 
Tulane residents per month who are involved in outpatient care. If more 
VA beds were available, Tulane would increase the number of residents 
there to 70.
    Historically, Tulane Health Sciences Center faculty and staff have 
provided from 70-80% of the healthcare services at the area's VA 
locations. In addition to our residents, more than 40 Tulane physicians 
are currently providing services and training at various VA locations 
in the area, representing more than $2.2 million in physician 
compensation alone. In addition, numerous other Tulane faculty 
physicians are frequently available for service at VA locations as 
needed. The Tulane's Health Sciences Center is now actively recruiting 
new physicians to accommodate the increasing need in the area and has 
open searches for five faculty positions specifically to support the 
clinical mission at the VA.
    Tulane physicians at the VA represent numerous specialties and 
subspecialties, including cardiology, clinical immunology, 
endocrinology, family medicine, gastroenterology, general internal 
medicine, hematology/oncology, internal medicine, nephrology, 
neurosurgery, ophthalmology, orthopaedics, otolaryngology, psychiatry, 
pulmonology, radiation oncology, urology, and surgery.
III. The VA, Medical Education and Research: Vital Partnerships
    The VA Medical Center relies heavily on Tulane faculty to conduct 
important basic, clinical and translational research studies. In the 
year prior to Katrina, $1.2 million in VA-funded research projects were 
awarded, most of which were under the direction of Tulane faculty 
researchers. Tulane faculty had numerous clinical trials open at the VA 
prior to the storm in areas including cancer, diabetes and lung 
disease. Clinical research studies conducted at the VA Medical Center 
help ensure that our country's veterans, and ultimately its citizens at 
large, reap the benefits of this nation's substantial investment in 
cutting-edge treatments, technologies and pharmaceutical development.
IV. Looking Ahead: A Synergy of Innovation, Education and Healthcare
    As we look down the road five, 10, 20 years and longer, it's clear 
that the VA will be a cornerstone in the future of healthcare and the 
biosciences industry in the region. These industries already represent 
a significant share of New Orleans' regional economy. More than 8,000 
people are employed in the bioscience and health related fields, with 
the metro area ranking 67th in the country. Although New Orleans is 
still behind bioscience giants such as the San Francisco Bay area, 
Boston, and Research Triangle in North Carolina, the metro area 
currently outranks other up-and-coming centers including Nashville, 
Birmingham, Louisville and Greenville, South Carolina.
    Pre- and post-Katrina, the area's bioscience institutions have been 
conducting cutting-edge research in areas such as gene therapy, cancer 
biology, peptide pharmaceutical design, and infectious diseases. 
Federal and private grant funding in New Orleans exceeded $180 million 
in 2003 and is growing substantially as New Orleans-based institutions 
capitalize upon their core strengths. In FY 2005, the New Orleans area 
accounted for $131.4 million in awards from the National Institutes of 
Health (NIH), representing 71% of the total amount awarded within the 
entire state of Louisiana and 82% of all NIH funding in the Gulf Coast 
region including New Orleans, the Mississippi and Alabama Gulf Coasts, 
and the Florida Panhandle. NIH investment in the area continues to 
grow. Tulane University itself accounted for 46% of all NIH awards in 
the region from New Orleans through the Florida panhandle.
    Prior to Hurricane Katrina, the New Orleans Bioscience District was 
actively building a framework for entrepreneurial success. As a crucial 
component of that framework, the Louisiana State University Health 
Sciences Center (LSUHSC), Tulane University (TU) and the State of 
Louisiana formed both the Louisiana Gene Therapy Research Consortium 
and the Louisiana Cancer Research Consortium (LCRC). These partnerships 
are focused on leveraging the universities' research and education 
strengths to position the region as a leading center for clinical, 
biomedical and translational research, and to increase the area's 
competitiveness for large-scale research projects funded by the 
National Institutes of Health. In support of the region's efforts to 
expand its bioscience and biomedical infrastructure, the State of 
Louisiana also provided support for the creation of a 60,000-square-
foot New Orleans BioInnovation Center (NOBIC). This center is designed 
to support the area's growing bioscience community, to attract 
additional biotechnology investment, and to foster the 
commercialization of new technologies and pharmaceuticals developed in 
the vibrant New Orleans Bioscience District. With additional funding 
provided this year by the state legislature, construction will begin 
this fall in the downtown bioscience district on an $86 million cancer 
research facility, and the $60 million BioInnovation Center.
    The synergy generated by Tulane, LSU, the construction of the 
BioInnovation Center and the LCRC building, each within a few city 
blocks of the other, will create a rich, dynamic teaching and research 
environment that will rival any in the country. A strong VA Medical 
Center is a crucial component of this burgeoning bioscience hub that 
will maximize the potential of both the district and of the VA. It is 
hard to imagine the district without the VA, and the VA being built 
anywhere but the district.
    I want to thank each of you and your colleagues in Congress for 
demonstrating your strong commitment to re-establishing a permanent 
base of care for the region's veterans in New Orleans by appropriating 
more than $600 million for a new state-of-the-art VA Medical Center. 
Although it may have taken longer than many of us would have hoped, the 
state too has done its part in providing funding for a public hospital 
to be built in tandem with the VA. This leverages the Federal 
Government investment, providing substantial cost savings and 
demonstrating good stewardship of taxpayer dollars. In addition, the 
investments by the state, city, and our own institutions in the 
emerging bioscience district provide a unique opportunity to create a 
vibrant inter-reliant collaboration among key healthcare, education and 
research entities, all of which are crucial to the VA's mission. It is 
the hope of Tulane University, as well as that of the many local and 
regional stakeholders in the biosciences, that the VA and the City of 
New Orleans move quickly to begin the process of land acquisition, 
planning and construction so that we may re-establish the full spectrum 
of care for our rapidly growing veteran population.
    Once again, I thank you for allowing me to speak to Members of this 
Committee today. With your help, we will continue to bring healthcare 
in our city and region not just back to where it was, but into an even 
better future.

                                 <F-dash>
                Prepared Statement of Henry J. Cook, III
   National Senior Vice Commander, Military Order of the Purple Heart
    Chairman Filner, Members of the Committee, ladies and gentlemen.
    I am Henry J. Cook, III, National Senior Vice Commander of the 
Military Order of the Purple Heart (MOPH).
    It is my honor to appear before this Committee which is of such 
great importance to all veterans. The MOPH is unique among veteran 
service organizations in that our members are all combat wounded 
veterans who shed their blood on the battlefields of the world while 
serving in uniform. For their sacrifices they were all awarded the 
Purple Heart Medal.
    I am accompanied today by MOPH members and state officers of our 
organization from both Louisiana and Mississippi. Also present are 
ladies of the Ladies Auxiliary of the MOPH.
    I would like to preface my remarks today with a statement of thanks 
to the Department of Veterans Affairs in both Louisiana and Mississippi 
for the way that they reacted and took care of veterans when Hurricanes 
Katrina and Rita struck. Almost all other government agencies at both 
state and federal levels were overwhelmed by the sheer magnitude and 
consequences of those storms. However, the Department of Veterans 
Affairs Medical Centers and Regional Offices in both Louisiana and
    Mississippi maintained their focus on care for the veterans during 
this trying and challenging time. The services to the veterans provided 
by them were without equal and in some cases heroic in the way that 
veterans were cared for and moved from harms way by caring employees of 
the Department of Veterans Affairs. I ask that you also commend the 
Department of Veterans Affairs for the way that they continue care for 
veterans in the aftermath of that catastrophic event.
    Your Committee and the Department of Veterans Affairs Medical 
Center in New Orleans are both very important to members of the MOPH 
and all veterans from both Louisiana and Mississippi who were served by 
the New Orleans facility. As we sit here today, your Committee is here 
but the hospital is gone. From our perspective, the Department of 
Veterans Affairs medical system in the New Orleans and on the 
Mississippi Gulf Coast is struggling to deliver, at best, badly 
fragmented services to veterans.
    The MOPH is now looking to your Committee to restore the New 
Orleans Veterans Affairs Medical Center and the badly needed services 
it provided to our members and all veterans in this area. This should 
be done as soon as possible so as to prevent further loss of services 
and provide full restoration of earned entitlements and benefits for 
all veterans in this geographic area.
    To better explain what I meant earlier by services to veterans 
being ``fragmented'' I submit to you some specifics.
    That while the Department of Veterans Affairs in New Orleans is in 
fact providing services for veterans many of the veterans have to go to 
other locations to receive that care. In my particular situation, I 
received, prior to Katrina, orthopedic services from the New Orleans 
facility. Since that facility is gone, it took me more than six months 
to even schedule an appointment for an orthopedic services but I 
discovered that I had to travel to Mobile, AL to receive such services. 
Fortunately I am physically and financially able to travel to Mobile, 
AL and other locations but that is not true of many veterans. Further, 
the Department of Veterans Affairs, while having established ``travel 
pay'' for veterans who have to travel more than 28 miles for care, pay 
the grand sum of eleven cents per mile. More painfully the veteran must 
pay a deductible when travel pay is given to him out of the first three 
trips of each month. This, when gas is over $3.00 per gallon.
    We in the MOPH have members who now have to travel to Mobile, AL, 
Jackson, MS, Pensacola, FL and other more far flung destinations in 
order to receive continuing care from the Department of Veterans 
Affairs medical system. The present system of healthcare for the 
veterans in this area is fragmented according to every definition of 
that word. Please return to the veterans here a world class medical 
facility that can serve our membership and all veterans at one 
location. And I might add, do this as soon as possible to mitigate the 
continuing deprivation or the earned benefits and entitlements due our 
veterans.
    There is one other problem area relative to the loss of the 
Department of Veterans Affairs Medical Center and Regional Office in 
New Orleans that I would like to bring to your attention. This involves 
the loss of the ability of veterans to pursue their claims and obtain 
those pesky earned benefits again.
    The Director of the State Veterans Affairs (Claim division) for the 
state of Mississippi informed me that many veterans who were having 
their claims processed in the New Orleans Regional Office soon 
discovered that their claims had been transferred to the Jackson, MS 
regional office. The Jackson Regional Office willingly accepted this 
responsibility of seeing the veterans from New Orleans and the 
Mississippi Gulf Coast. In many cases involving veterans from New 
Orleans and the Gulf Coast veterans could not be located for medical 
appointments and documentation needed for their claims. Many veterans, 
widows and their children went for months without appropriate attention 
to their claims thereby adding to the pre-existing backlog of claims 
pending.
    Once located however, the veterans, widows and their children they 
were faced with the problem of travel to Jackson, MS to continue the 
process of their claims. This again placed an added burden on the 
veterans and in some cases, their widows who found travel of three 
hours or more not only difficult but expensive. During most of the 
first year after Katrina there were many veterans who were truly 
homeless and living in shelters or temporary trailers far from Jackson. 
This condition still exists today with many veterans still living in 
FEMA trailers and pressed financially.
    The transferring of all claims from the New Orleans and Mississippi 
Gulf Coast area created a terrible burden on the Jackson Regional 
Office and even though the personnel of that office were overwhelmed 
they tried hard to continue to deliver services to our veterans. While 
I do not know the status of the back log as of this date as a result of 
the loss of the New Orleans Regional Office due to Katrina, I do know 
that I hear the comments of those veterans who claims questions remain 
unanswered.
    In summary, we all know that Katrina had a devastating effect on 
the Department of Veterans Affairs medical care system in this area. We 
should all know that what is most important now is a full restoration 
of all veterans' medical services as soon as possible.
    Grandiose plans for what could be in the future are of no use to 
our members and veterans who have been deprived of earned benefits and 
care. The time is now, the need is now.
    Thank you very much for allowing me to appear before your committee 
on behalf of the MOPH.
    I am now ready to take any questions that you may have for me.

                                 <F-dash>
            Prepared Statement of Chuck Trenchard, Adjutant
          Disabled American Veterans, Department of Louisiana
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity you have afforded me to come speak to you today on behalf 
of the disabled American veterans.
    The loss of the VA medical center in New Orleans has had a profound 
impact on both the quality and availability of appropriate healthcare 
for thousands of Louisiana and Mississippi veterans as well as veterans 
from both Alabama and the Florida panhandle. It is essential that a new 
medical facility be constructed as soon as possible to ensure the well-
being of these veterans.
    The primary focus of this facility should be the care and treatment 
of America's veterans. Any other economic and political considerations 
in regard to the location of this facility are secondary and should 
only be fulfilled as a by-product. This facility needs to be solely for 
the benefit of veterans and should be located in an easily accessible 
location, safe from hurricanes and flooding. It should be placed in a 
location that will benefit the greatest number of veterans. It should 
be a dedicated facility, not incorporated with any other programs.
    Whether we like it or not, this is a time of war and America's 
military is putting their lives on the line to keep our country safe as 
they have for over 200 years. As an instrument of national power, the 
military is trained to do what they are told to do, when they are to do 
it, and how they are told to do it. Veterans are a unique group of 
people.
    They don't have to ask what they can do for their country. They 
know what to do and do it well without regard to the risks. They have 
never kept their country waiting.
    Throughout the Spanish-American War, WWI, WWII, Korea, Vietnam, 
Panama, Kuwait, Afghanistan, and now Iraq veterans met the call to arms 
and successfully served to defend our Nation against all enemies. They 
have never kept America waiting. We owe it to our veterans to properly 
care for them now and not keep them waiting.
    As time goes by, the healthcare situation will get worse--not 
better and America's veterans will wait and suffer. We need to put 
politics and bureaucracy aside and to do the right thing--take care of 
our veterans now! After all, haven't they earned it? Thank you.
                                 <F-dash>
          Prepared Statement of William M. ``Bill'' Detweiler
                Past National Commander, American Legion
    Mr. Chairman and Members of the Committee:
    The American Legion appreciates this opportunity to testify this 
morning before the Field Hearing of the House Veterans' Affairs 
Committee on veterans healthcare in Southeastern Louisiana, and the 
need to rebuild the Veterans Affairs Medical Center (VAMC) New Orleans 
without further delay.
    Mr. Chairman, during my brief oral testimony this morning I will 
make several recommendations on behalf of The American Legion, for 
consideration of the Committee as you consider the actions necessary to 
restore veterans healthcare in this area to a level that is second to 
none. I would request that you allow the filing and acceptance of my 
written testimony with attachments for the record and for the later 
consideration of the Members of the Committee.
    Thank you Mr. Chairman.
    The American Legion has taken a strong stand on the rebuilding of 
the VAMC New Orleans in the downtown area of the city. During its 
recent State Convention, June 8-10, 2007 in Alexandria, La., The 
American Legion, the largest veterans service organization with over 
29,000 members in Louisiana, unanimously adopted a resolution endorsing 
the rebuilding of the VAMC New Orleans in conjunction with the 
development of the bio-medical district in downtown New Orleans.
Current Status of Veterans Medical Care
    Despite the heroic efforts of Mr. John Church, the Director of the 
VAMC New Orleans at the time of Hurricane Katrina and its aftermath, it 
was quickly determined following the flooding that the hospital was 
beyond repair and would have to be replaced. The American Legion 
extends its sincere thanks and appreciation to Mr. Church for his 
leadership in the successful evacuation of the patients in the face of 
the approaching storm, and his heroic efforts to protect the staff and 
people who were trapped by the flooding in the hospital after the 
storm.
    Within a short time after the storms, clinical services were 
restored to the upper floors of the Lindy Boggs Building where hundreds 
of patients are now provided with daily outpatient treatment and care. 
We are most grateful to the Department of Veterans Affairs for the re-
establishment of these services and the opening of new outpatient 
clients in the Greater New Orleans Area.
    However, those veterans that require hospitalization can not be 
treated in the immediate area and must be sent to other facilities were 
beds can be found, including but not limited to, Shreveport and 
Alexandria, Louisiana, and Jackson, Mississippi, Unfortunately, The 
American Legion does not see an early end to this manner of care for 
these veterans.
    As an example if the veteran is diagnosed at the VAMC outpatient 
clinic with a psychological problem that requires hospitalization, the 
staff must process the veteran for transport; then transport the 
veteran to the hospital with the available bed; and process the veteran 
through the admittance to the hospital. Usually this process takes from 
10 to 12 hours, from diagnosis to admittance in the receiving hospital.
    Such a long tedious process causes extreme stress to the veteran as 
well as to his or her family, further aggravating the veteran's mental 
condition. We suggest, Mr. Chairman, that the PTSD problems and other 
brain injury conditions evidenced in our returning servicemen and women 
from the current conflict, will only increase, placing a greater burden 
on our already depleted system. A new VAMC New Orleans is urgently 
needed.
    But how do we solve these problems and restore the proper level of 
medical services to the veterans of the 23 parish (county) catchment 
area of the VAMC New Orleans? The American Legion suggests that you 
consider the following recommendations in your deliberations relative 
to veterans healthcare in this area.
Association With Medical Schools
    The veterans of the 23 parishes (counties) of Louisiana that form 
the catchment area for VAMC New Orleans have enjoyed the benefits of 
the VAMC's partnerships and associations with the LSU and Tulane 
Medical Schools since it was established. The VAMC New Orleans serves 
the medical community of this area as a teaching and research hospital, 
just as the other veterans hospitals do throughout the VA medical 
system. Our veterans like those in other parts of the United States 
benefit from these associations, because the hospitals in the VA system 
need the interns, residents and doctors from the schools to augment the 
VA hospital staffs. Each year Tulane and LSU Medical Schools rotate a 
hundred or more interns through the VAMC New Orleans, providing our 
veterans with the best of care, based on the latest discoveries in 
medical science.
    Currently we have a shortage of medical professionals in Southeast 
Louisiana and the Greater New Orleans Area. Many of our doctors, nurses 
and other medical professionals, who left the area after Hurricane 
Katrina, have not returned. The location of the VAMC New Orleans in the 
downtown area, in walking distance and close proximity to the Tulane 
and LSU Medical Schools, has allowed the staffs of the medical schools 
to easily move between the campuses of the Medical Schools and the 
VAMC, all for the betterment of our veteran patients. Thus, the Medical 
Schools provide the additional staff that is critical to the successful 
operation of the VAMC. In addition, the continued research, that is 
conducted by the medical schools, provides the patients at the VAMC 
with medical care that is second to none.
    We have just learned that yesterday, Sunday, July 8, 2007, Dr. Paul 
Harch, a physician specializing in Hyperbaric Medicine at LSU Medical 
School, journeyed to Washington at seek support with other doctors of 
similar specialties, from Congress for a pilot project that will treat 
traumatic brain injury. An appropriation request is before Congress to 
fund a scientific study to be overseen by the Samueli Institute in 
Washington, D.C., with Dr Harch serving as the physician in charge. 
Further, the proposal is for Charity Hospital New Orleans (LSU Teaching 
Hospital) to serve as the primary site in a multi-center study that 
will include VAMC New Orleans. Dr. John Mendoza, a VA Neuropsychologist 
and Dr. Tim Duncan of the VA staff, are working with Dr. Harch on this 
project. This is just one example of the close working relationship 
that has existed between the VAMC and the medical schools, a 
relationship that needs to continue.
    To build the new VAMC in an area that is not in the immediate 
proximity of the two medical schools would not be in the best interests 
of our veterans, nor the VA medical system. To do so would diminish the 
care that our veterans rightfully deserve and affect the ability of the 
VAMC to attract a qualified and efficient staff to properly operate the 
hospital. In short building of the VAMC anywhere, but in downtown New 
Orleans near our two medical schools, would not allow for the hospital 
to provide the level of care needed to properly treat our veterans. Our 
veterans would be the losers and that is unacceptable.
Transportation
    The veterans that use the VAMC New Orleans are generally veterans 
who do not have medical or health insurance. Many are on fixed incomes 
and have no place else to seek medical care. The relocation of the VAMC 
in downtown New Orleans will provide a hospital that is convenient, by 
public as well as private transportation, allowing easy access by our 
veteran patients, the hospital staff and the hundreds of volunteers who 
help care for these men and women on a daily basis.
    A VAMC located in downtown New Orleans will allow the patients, 
staff and volunteers from throughout the 23 parish (county) catchment 
area to access the hospital by major roadways and interstates; local 
and regional bus service; and rail.
New Orleans Medical District Initiative
    The American Legion suggests that the U.S. Department of Veterans 
Affairs and the veterans who rely on the VAMC New Orleans for medical 
services, inpatient as well as outpatient services, will benefit from 
the location of the VAMC within the area of the New Orleans Medical 
District. This district was established prior to the storms and has now 
been reconstituted to include a cooperative effort on the part of major 
medical institutions and agencies in the area. Our veterans and the 
community would benefit from the building of a joint facility with an 
LSU teaching hospital, with join common facilities, such as laundry, 
labs, and so forth., with separate towers for medical treatment. The 
American Legion endorses such a joint facility, with the proviso that 
the veterans will be treated in a separate hospital building and not 
mingled with other patients.
    We suggest that the State of Louisiana is on the right course at 
this time, having provided the funds to purchase the property, the 
planning and the design of the LSU hospital in the recent legislative 
session. We urge this Committee to push forward with the location and 
building of the VAMC without further delay.
    We believe, as expressed in a copy of the article ``A Marriage Made 
in Hell,'' which appeared in the November 2006 issue of The American 
Legion Magazine that we have an opportunity to rebuild the VAMC and do 
it right. We believe that our veterans will benefit, if the VA commits 
to the vision of Ms. Julie Catellier, the current Director of the VAMC 
New Orleans, as she expressed in referenced article, to wit:
    ``It's the VA's desire to be the engine that drives healthcare in 
the city of New Orleans and the metropolitan area. We want to be 
leaders. We want to provide a futuristic, high-tech, high-touch 
institution for veterans, in collaboration with our affiliated 
partners.'' (Page 58) A copy of the article is attached and made a part 
of this testimony.
    The American Legion believes in Ms. Catellier's vision.
    Having the VAMC downtown would also allow for a close relationship 
with the planned and funded cancer center and ``wet lab'' facilities 
which benefit our veterans with the latest methods of cancer treatment 
and gene therapy.
Community Support for the Downtown Location of the VAMC
    The American Legion is pleased to have community wide support for 
the relocation of the VAMC in downtown New Orleans, including but not 
limited to the City of New Orleans, the State of Louisiana, the New 
Orleans City Council, the Downtown Development District of New Orleans, 
the Regional Planning Commission (Jefferson, Orleans, Plaquemines, St. 
Bernard, and St. Tammany Parishes), U.S. Senator Mary Landrieu and 
other Members of the Louisiana Congressional Delegation. Copies of 
available resolutions and letters of support are attached hereto and 
made a part hereof.
Summary
    The American Legion urges the Committee to move forward and allow 
the VAMC New Orleans to be rebuilt for the benefit of our veterans 
without further delay in downtown New Orleans. It is a win-win 
situation for our veterans and the U.S. Department of Veterans Affairs. 
As Congressman Charlie Melancon (D-La) said in a hearing before this 
Committee in May 2006, in commenting on the rebuilding of the VAMC New 
Orleans, ``From an efficiency standpoint, it makes sense,--from a 
fiscal standpoint, it makes sense. And from a moral standpoint--after 
everything these Gulf Coast veterans have endured with these storms--it 
makes sense. This is a historic partnership for historic times.''
    Mr. Chairman I again extend the sincere appreciation of The 
American Legion for the opportunity to testify and submit our written 
testimony. I would also request that we be allowed to amend this 
testimony, if permitted and in a reasonable time to be set by you, Sir, 
if we receive any additional information, that we believe might be 
helpful in your deliberations. We look forward to continuing to work 
with you and your committee for the welfare of our Nation's veterans.
    Thank you!

                                 <F-dash>
                          THE AMERICAN LEGION
                   Louisiana Department Headquarters
              89th ANNUAL LOUISIANA DEPARTMENT CONVENTION
                         Alexandria, Louisiana
                          JUNE 8, 9, 10, 2007
        RESOLUTION IN SUPPORT OF THE BUILDING OF THE NEW ORLEANS
               VA MEDICAL CENTER IN DOWNTOWN NEW ORLEANS
    WHEREAS the U.S. Department of Veterans Affairs Medical Center at 
New Orleans, Louisiana, herein after referred to as ``VAMC'', has been 
located in the downtown area of the City of New Orleans at 1601 Perdido 
Street since its establishment; and,
    WHEREAS the VAMC has served as a teaching hospital with the Medical 
Schools of Tulane University, herein after referred to as ``Tulane'', 
and Louisiana State University, herein after referred to as ``LSU'', 
since its establishment; and,
    WHEREAS, as a result of the location of the VAMC in the downtown 
area of the City of New Orleans in close proximity and walking distance 
with the Tulane Hospital and Medical School and the LSU Medical School 
and Center, the veterans of the Greater New Orleans Area and Southeast 
Louisiana have been the beneficiaries of the close working and teaching 
relationship between the VAMC and the said Tulane Hospital and Medical 
School and the LSU Medical School and Center; and,
    WHEREAS, the VAMC and the LSU Medical School and Center that 
operated out of the Louisiana Medical Center at New Orleans, commonly 
known as ``Big Charity'', were severely damaged in Hurricane Katrina 
and Rita in the late summer and fall of 2005; and,
    WHEREAS, the VAMC and the Louisiana Medical Center at New Orleans 
have been deemed to be damaged to the extent that neither is fit to be 
reopened as a hospital, requiring that new facilities be built through 
appropriations from the United States and the State of Louisiana; and,
    WHEREAS, the U.S. Congress has appropriated and authorized an 
expenditure for the building of a new VAMC facility in union with a 
separate facility for the replacement of the Medical Center of 
Louisiana at New Orleans, all in proximity to the Tulane Hospital and 
Medical Center, which new VAMC. facility would restore the medical 
treatment benefits that were available to the veterans of the Greater 
New Orleans Area and Southeast Louisiana and restore the ability of all 
three facilities to continue their joint medical research and teaching, 
which further benefits the veterans of the area; and,
    WHEREAS, despite the continued promises by the Secretary of the 
Department of Veterans Affairs and his Staff, as well as promises by 
Members of Congress and Governor Kathleen B. Blanco and members of her 
Administration to the veterans community and the people of Southeast 
Louisiana, rumors continue to persist that despite these promises the 
real intent and desire of the U.S. Department of Veterans, some Members 
of Congress and the Blanco Administration, is to move the VAMC out of 
the downtown area of the City of New Orleans, which will threaten or 
terminate its relationship with Tulane and LSU causing a shortage of 
healthcare professionals working in the VAMC., all to the determent of 
the veterans community; and,
    WHEREAS, neither the U.S. Department of Veterans Affairs nor the 
State of Louisiana appears to be taking the necessary steps to move 
this joint project to fruition, all to the determent of the veterans, 
who need the restoration of the VAMC to provide the same services and 
benefits which they were receiving prior to Hurricanes Katrina and 
Rita, benefits and services that they earned in service to this Nation, 
when the freedoms, which we continue to enjoy, were treated.
    NOW THEREFORE BE IT RESOLVED by the Louisiana Department of The 
American Legion, in Convention assembled, June 8-10, 2007 at 
Alexandria, Louisiana, that the members of The American Legion do urge 
the Secretary of the Department of Veterans Affairs and the Governor of 
the State of Louisiana to proceed without further delay to take the 
necessary steps to build the joint VAMC facility and Medical Center of 
Louisiana at New Orleans in the downtown area of New Orleans in close 
proximity to the Tulane Medical Center and the Louisiana State 
University Medical Center. That such will restore the proper healthcare 
and benefits that the veterans of the Greater New Orleans Area and 
Southeast Louisiana are entitled to and enjoyed before the impact of 
Hurricanes Katrina and Rita.
    BE IT FURTHER RESOLVED that copies of this resolution be sent to 
the Secretary of the U.S. Department of Veterans Affairs, the Governor 
of Louisiana, Members of the Louisiana Congressional Delegation, the 
Joint Congressional Committee on Veterans' Affairs, the Department of 
Veterans Affairs for the State of Louisiana, the Chancellors of the 
Tulane Medical School and the LSU Medical School, and the news media 
outlets in the State of Louisiana.

            FORREST A. TRAVIRCA, III Commander

            ATTEST:

            DAVID SIMON, Adjutant

                        FOR CONVENTION USE ONLY

            APPROVED

            REFERRED TO CONVENTION COMMITTEE ON: RESOLUTIONS

            PASSED UNANIMOUSLY: June 10, 2007.

                                 <F-dash>
                        A Marriage Made in Hell
       Out of the hell that was Hurricane Katrina may come one of
                    VA's most historic partnerships.
                      The American Legion Magazine
                             November 2006
                    by Jeff Stoffer, Managing Editor
This is the fifth in a series on the status of VA's Capital Asset 
Realignment for Enhanced Services process. CARES looked 20 years into 
the future of the Nation's largest managed-care program and envisioned 
greater access, lower costs and increased efficiency. Two years later, 
that vision awaits final decisions and Federal funding necessary to 
fulfill the program's many promises across the Nation.

    Sixty-eight-year-old Charity Hospital in downtown New Orleans, a 
public-health institution that has treated poor and under-insured 
patients for generations, was transformed into a powerless hulking 
shell in September 2005. Hurricane Katrina howled through its 21 
stories. A noxious bisque of oily floodwaters lapped at its flanks for 
more than three weeks, leaving a ring still visible a year later. The 
lower level was swamped, destroying the electrical and mechanical 
systems. Mold and bacteria took over. In the days that followed 
Katrina's summary condemnation of Charity Hospital and almost 
everything near it, patients were evacuated to a U.S. Navy ship, then 
to Air Force tents on the surface of a parking lot, before outpatient 
and emergency services finally landed in a vacated Lord & Taylor 
department store. Inpatient care, like much of the city's population, 
was scattered everywhere--to other hospitals, other cities, even other 
states.
    By the hurricane's first anniversary in late August, vast 
residential swaths of New Orleans remained a tangle of uprooted trees, 
high weeds, broken glass and collapsed houses, some of which displayed 
spray-painted messages damning insurance policies that didn't cover 
flooding.
    The Louisiana State University-run Charity Hospital, however, found 
itself in a position of great hope a year after the hurricane. A unique 
partnership to build a brand new medical complex jointly with the 
Department of Veterans Affairs, which also lost its downtown hospital 
to Katrina, was coming together fast, a proverbial silver lining 
following one of America's most terrible storms.
    ``This is our opportunity to do it right, from the ground up,'' 
said Dr. Cathi Fontenot, medical director for LSU's Medical Center of 
Louisiana at New Orleans, the umbrella over Charity Hospital. ``We are 
talking about a new and improved version. This new replacement facility 
is not only absolutely necessary to continue to provide patient-care 
services that we all have been accustomed to. It's also necessary to 
support the academic institutions. This collaborative effort will speak 
to both. Doing it smarter, better and more efficiently than we have in 
the past is, I think, everyone's goal.''
    By last summer, LSU's medical school and VA--longtime collaborators 
in the delivery of veterans healthcare in New Orleans--were well along 
in their plans to pool their money, buy land and build a modern new 
facility together. Such a partnership is unprecedented in the history 
of VA, which for decades has benefited from medical-school affiliations 
that have fed tens of thousands of visiting research doctors, 
residents, interns, nurses and other caregivers into veterans health-
care facilities across the country. The New Orleans VA system has a 
particularly robust med-school affiliation program; LSU, Tulane 
University and other institutions allocate more than 500 care providers 
a year to the VA system. ``We are very fortunate to have both medical 
schools here,'' says William Detweiler of New Orleans, a past national 
commander of The American Legion. ``There are other states where they 
don't have a medical school associated with its VA hospital. Here we 
have two--and we always have--plus a nursing school.''
    Last summer, LSU and VA targeted a 37-acre property where flood-
ruined apartments could be razed, just a few blocks north of the old 
hospitals. Planners envisioned bed towers that would segregate VA 
patients from others in a facility connected by common services and a 
linking corridor. The cost-saving benefits--estimated at $400 million 
for VA over 30 years--would come from sharing agreements on such needs 
as power, parking, laundry, food, maintenance, and big-ticket medical 
equipment and operation.
    The New Orleans VA-LSU feasibility study followed the ``Charleston 
Model,'' patterned after negotiations between the Medical University of 
South Carolina and the Ralph H. Johnson VA Medical Center, which are 
working toward a joint facility in downtown Charleston, S.C. 
Ironically, it may not be Charleston but New Orleans--where urgent need 
and availability of emergency funds have sped the process along--that 
uses the Charleston Model to cut the ribbon on America's first combined 
VA-med school facility.
    Equally significant is that New Orleans could have the first new VA 
medical center built in nearly 20 years anywhere in the United States, 
at a time when veterans in Las Vegas, Denver and Orlando, Fla., have 
been fighting with Washington for budget commitments on long-overdue VA 
hospitals for years. Las Vegas, Denver and Orlando were identified as 
the three highest priorities for new VA medical centers when the 
landmark Capital Asset Realignment for Enhanced Services decision was 
released in 2004. So far, only one of those projects, Las Vegas, has 
received anything more than design and site-selection funding. And the 
half-funded Las Vegas VA Medical Center was passed over in the 2007 
budget. New Orleans was not identified by CARES, although the 
hospital's age and design make it a poster child for what former VA 
Secretary Anthony Principi called in his CARES decision ``legacy 
infrastructure'' where VA facilities nationwide exceed 50 years in 
average age and have grown ``out of step with changes in the practice 
of medicine.''
    The Federal share of the New Orleans project--about $675 million--
is already appropriated.
    The New Orleans study group followed the Charleston Model to plow 
through details like running a hospital on state and Federal budgets, 
legal and staffing issues, and keeping VA's identity separate in a 
facility shared with non-veterans. One key benefit of a joint facility 
is the opportunity to fast-forward both the 1950-built VA medical 
center and the 1939-built Charity Hospital out of their high-rise, 
inpatient-centered buildings and catch them up with the outpatient care 
revolution. Both the New Orleans VA and Charity Hospital were built at 
a time when going to the hospital typically meant long, multi-night 
stays in cavernous wings of many rooms. Katrina, for all the harm it 
caused, gave both facilities a chance to start over in a building that 
more closely matches the stop-and-go way in which 21st-century 
healthcare is delivered, divided almost evenly between inpatient and 
outpatient services.
    ``Both our institutions would benefit from savings and efficiencies 
by working together,'' VA Secretary Jim Nicholson said after the 
feasibility study was released. ``Most importantly, Louisiana veterans 
would receive world-class medical care in a modern, conveniently 
located site.''
    And so, Fontenot's face grows stern when discussing testimony 
delivered by one Member of Congress in a House Veterans' Affairs 
Committee hearing last spring. U.S. Rep. Richard Baker, R-La., 
cautioned lawmakers that while an LSU-VA partnership ``presents itself 
as an exciting opportunity,'' LSU may have more to gain from the 
project than does VA. Baker quoted from a study that described the LSU-
run Charity system as ``detrimental to the health of all Louisianans 
and is likely an important reason for the lower system quality, both in 
the public and private sector.'' He added that a joint LSU-VA venture 
``would be like entering into a three-way partnership in a real-estate 
development, and the third partner is bankrupt.'' He called on VA to 
closely examine Charity and seek reforms to ensure an equal 
partnership.
    To that, Fontenot simply says, ``I would invite Mr. Baker to debate 
this at any time. It is a false statement. There are people who equate 
that Louisiana is 49th or 50th in health-care outcomes with the fact 
that Louisiana has a very unique Charity system that is supported and 
funded by the state. There are people who say one equals the other. In 
fact, our disease-management programs are way ahead of most people in 
the country: diabetes, asthma, heart failure, breast--and cervical-
cancer screenings. Bring up all those measures, and we fare extremely 
well.''
    In the months following Hurricane Katrina, however, Charity was 
barely faring at all as an inpatient hospital. Like all other 
hurricane-hammered health-care facilities in the city, it was thrown 
into survival mode. ``Pretty much all the institutions were wiped 
out,'' Fontenot said. Tulane University's hospital, the other major 
player in the downtown medical market, was first to stir back to life. 
LSU and VA opened clinics at various locations around the city but 
still lacked independent inpatient care a year after the storm. 
Charity's sister facility, LSU's University Hospital, was nearly 
finished with a 200-bed renovation and was set to reopen late last 
summer, a temporary fix to help pick up a Charity Hospital patient load 
that before Katrina accounted for some 270,000 clinical and 130,000 
emergency-room visits a year.
    Demonstrators stood outside Charity in the months after Katrina and 
demanded the popular public hospital be reopened immediately. Some, 
including a former Charity emergency-room doctor, claimed damage 
reports were overblown and that with some work and political will, the 
facility could resume services sooner rather than later. A jointly 
built LSU-VA hospital would not be ready for patients until late 2011. 
That's a long time to wait for patients who, Detweiler points out, 
``have grown up in this town and have never gone to another facility 
besides Charity, for anything.''
    Pre-Katrina, Charity was known locally ``as the true safety net of 
the safety net,'' Fontenot said. ``There were certain services 
available at Charity in New Orleans that were not available for poor 
people anywhere else in the state. Our drawing area was not only 
regional, but it was statewide.''
    Much of the pressure at Charity came in the form of unscheduled 
visits. ``Historically, much of our patient population has just shown 
up in the emergency room, whether it was for a sore throat or an acute 
(myocardial infarction),'' Fontenot explained, adding that a stronger 
outpatient presence--much like VA's community-based clinic system--
would help solve that problem. ``If you begin to decentralize and 
deliver more primary care in the communities, then you don't have to 
treat the acute stroke because you have already been treating the 
hypertension for years. You don't have to treat the diabetic renal 
failure because you have already addressed the diabetes in clinics. We 
know how to deliver that care. The real challenge is getting the 
patients to buy into it, rather than depending on, `Oh, I don't have to 
keep that doctor's appointment. If I get sick, I'll just go to the 
emergency department.' '' Meanwhile, Katrina forced the 55-year-old New 
Orleans VA medical center to squeeze most of its clinical services onto 
two floors of former nursing-home space above a parking garage; 
everything else was destroyed. ``The predictions were that patients 
would not come back,'' said Julie Catellier, deputy director for 
disaster recovery in the Southeast Louisiana VA Healthcare System. 
``Actually, about 75 percent of our pre-Katrina veterans have returned, 
and more than 50 a day are enrolling with us. VA patients don't want to 
get their care anywhere else.''
    ``It's amazing to me that VA has come back as much as it has with 
as much work as they needed to do,'' said James Uzarski, a Vietnam War 
Army veteran who has come back. He noticed the makeshift clinic above 
the parking garage was getting crowded with patients last summer and 
said VA can't delay plans to restore full hospital services. ``They 
need to do whatever is quickest.''
    Sen. Mary Landrieu, D-La., a Member of the VA Military Construction 
Appropriations Subcommittee, announced in late July that construction 
of a new VA medical center in New Orleans was authorized, to be funded 
from the $19.8 billion 4th Hurricane Supplemental Appropriations Bill, 
passed a month earlier. Landrieu's announcement did not mention the LSU 
partnership. It focused more on the urgency of restoring VA services. 
``Now the veteran population is returning to pre-hurricane levels, and 
it is imperative that we have a facility that can accommodate the men 
and women who have fought so hard for Louisiana and the country.'' A 
new VA hospital could be expected to serve more than 39,000 veterans 
and provide more than 1,700 jobs, she added.
    Pre-Katrina construction estimates for a new Charity Hospital 
topped $800 million. Some calculate the cost of a new combined Charity-
VA complex at more than $1.2 billion.
    Construction is authorized, Federal funding has been appropriated, 
and confidence is high that a new hospital is one good thing that could 
come from the horror of Hurricane Katrina. The disaster also provided a 
lesson. ``One of the big issues we faced was how we would build this to 
sustain another hurricane, if that happens in the future,'' Catellier 
said. ``We went into it with the assumption that in the event of 
another major hurricane, we would build this one so we could just stay 
in it. We would have enough water, food, waste disposal, fuel--all 
those things--for eight days. We would become a refuge for the city and 
its patients. We would have a helipad, and we are looking at a boat 
ramp to get things in and out. It would all be a minimum of 15 feet 
above sea level.
    ``It's the VA's desire to be the engine that drives healthcare in 
the city of New Orleans and the metropolitan area. We want to be 
leaders. We want to provide a futuristic, high-tech, high-touch 
institution for veterans, in collaboration with our affiliated 
partners.''
    In the hearing last May before the House Veterans' Affairs 
Committee, the question was not how to build a new VA medical center in 
New Orleans, but if it should be done there at all. ``From an 
efficiency standpoint, it makes sense,'' Rep. Charlie Melancon, D-La., 
told his fellow lawmakers. ``From a fiscal standpoint, it makes sense. 
And from a moral standpoint--after everything these Gulf Coast veterans 
have endured with these storms--it makes sense. This is a historic 
partnership for historic times.''
VA Shines In Time of Crisis
    Amid all the breakdowns between the government and the people of 
New Orleans during and after Hurricane Katrina, the Department of 
Veterans Affairs distinguished itself locally and nationally as a 
leader through the crisis. From the successful evacuation of patients 
to the deployment of medical staff to assist other hospitals in the 
city, VA showed more agility and ability than one might expect from a 
Federal bureaucracy.
    ``Leadership, planning and professional training came to the fore 
in the face of almost overwhelming adversity,'' reported Michael Suter 
of New York, a member of The American Legion's System Worth Saving Task 
Force, which inspected the Southeastern Louisiana VA Healthcare System 
in New Orleans last February.
    ``Key to the situation, and where other institutions fell down, was 
communications,'' Suter reported, noting that VA's police 
communications system and quick response by Central Office in 
Washington were critical to the New Orleans medical center's 
performance in the disaster. ``Transportation was the other critical 
factor. Finding any way out once the waters had risen was a challenge, 
particularly given the scarcity of rolling stock (most of the city 
buses were inundated). But in a masterstroke worked out somehow between 
the facility's director and Washington, military vehicles were provided 
through the National Guard and were able to rescue all patients and 
staff.''
    VA successfully evacuated all 241 patients in the medical center 
during the flood, plus 272 employees and 342 family members. The 
Michigan Air National Guard sent two C-130s and 15 members of its 171st 
Airlift Squadron to evacuate the majority of patients to Houston.
    Within a week of the disaster, VA also had all of its area 
community-based outpatient facilities and five mobile clinics up and 
running.
    Last July, about 150 VA health-care workers were filling in at 
community hospitals around the city, helping cover a shortage of 
personnel at non-VA facilities, including nurses, radiology 
technicians, respiratory therapists and others.

                                 <F-dash>
                 Prepared Statement of Bill Penn, M.D.
              Baton Rouge, Louisiana (Independent Veteran)
    Chairman Filner and Members of the Committee, thank you very much 
for allowing me--an independent veteran--the opportunity to present my 
views to you on rebuilding our Veterans Hospital. This is an issue that 
is a personal one for me, and as a veteran, has caused me great 
concern.
    Let me also thank you for holding this hearing. As Members of the 
Veterans' Committee, you have an opportunity to assist the veterans in 
Louisiana in bringing more awareness to the problems we have faced 
since Hurricane Katrina. It is my hope that today's hearing will 
highlight the opportunities we have to move forward and help bring the 
dream of a new veterans' hospital to reality.
    As I mentioned earlier, I come to the Committee today as an 
independent veteran. I do not represent a particular organization, 
though I am a member of many. What I wish to convey to you is my 
assessment of the situation in which we find ourselves and the 
opportunities we have now for moving forward with the VA Hospital.
    Hurricane Katrina devastated veterans' healthcare in South 
Louisiana. I commend the VA for opening additional outpatient clinics. 
However, it is necessary that this hospital re-open as soon as 
possible.
    It is my understanding that Congress has already appropriated over 
$600 million to rebuild the VA Hospital, but the VA has yet to make 
firm plans for rebuilding this facility. I ask the Committee and 
audience Members to consider today: Why?
    Why, when our veterans need this hospital now, more than ever, as 
our veterans' population is aging, and as more men and women are 
returning from Iraq and Afghanistan, why does the VA continue to wait 
to build this hospital? Our veterans have sacrificed too much and have 
given so much for this country for the government to ask us to wait any 
longer.
    I commend the doctors, nurses, and other staff for operating under 
the worst of circumstances. Their efforts and accomplishments in 
preparing for Hurricane Katrina and their actions in its wake were 
heroic and are to be commended. I only ask that those in decision 
making capacities make decisions and make them swiftly.
    Veterans, since Katrina, have been asked to travel hours for some 
of their healthcare needs. For example, veterans needing prosthesis for 
limb loss are on a waiting list or are transferred to another facility 
in other states: 4 hrs. to Shreveport, LA., 2 hrs. to Alexandria, LA., 
6 hrs. to Houston, TX., 4 hrs. to Jackson, MS., 8 hrs. to Dallas, TX.
    This VA Hospital must also focus on the needs of veterans with Post 
Traumatic Stress Disorder. As a personal example, I went for testing 
and examinations by a Psychologist to try to help my PTSD, which I have 
experienced nightly for 54 years. The treatment for PTSD requires a 
seven week stay in Little Rock, Arkansas for a program with which I am 
just becoming familiar.
    I give those examples just to illustrate what one goes through and 
why we need a VA Hospital for South Louisiana as soon as possible, with 
beds for Psychiatric use, and ample space for veterans, including 
parking and seating in waiting rooms.
    In my estimation, it is unacceptable for the VA to ask our veterans 
to wait any longer than they have already for this care to be restored 
in South Louisiana.
    I do not claim to have solutions on where this hospital should be 
or how big it should be. I only request that the healthcare needs of 
the veterans drive these decisions. We have an opportunity to show our 
veterans and our men and women currently serving in uniform that we, as 
a country, are putting their interests first, and not the interests of 
other groups. I urge Secretary Nicholson and the VA to work quickly to 
restore this very important facility, with the healthcare needs of our 
veterans as the focus. Our veterans deserve no less. When the time 
came, we served our Country. Please, now, respect us in our needs 
today.
    Thank you again for allowing me this opportunity. I will be happy 
to answer any questions.
                                 <F-dash>
    Prepared Statement of Rica Lewis-Payton, FACHE, Deputy Director
 Veterans Integrated Service Network 16, Veterans Health Administration
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Members of the Committee, and members of the 
Louisiana delegation, thank you for the continued support the Congress 
has given the Department of Veterans Affairs (VA) in our rebuilding and 
recovery efforts not only in southeastern Louisiana but also the entire 
Gulf Coast region. Thanks to your support, veterans and VA employees 
living along the Gulf Coast continue to make great 
strides along the road to recovery from the devastation caused by Hurric
ane Katrina.
    Hurricane Katrina was one of the greatest natural disasters our 
Nation has ever faced. Our medical centers, the communities we serve, 
and the homes of veterans and employees sustained destruction on a 
monumental scale. Today, I will describe our ongoing healthcare 
restoration efforts in New Orleans, and the current status of plans to 
rebuild our VA medical center.
    The Southeast Louisiana Veterans Healthcare System (SLVHCS) has 
made significant progress in the last year in meeting the healthcare 
needs of veterans in the greater New Orleans area. With the support of 
Congress, VA accelerated the activation of Community Based Outpatient 
Clinics (CBOCs) in the areas proposed under the Capital Asset 
Realignment for Enhanced Services (CARES) program. New CBOCs are now 
open in Slidell, Hammond, and St. John's Parish, Louisiana.
    Currently, SE Louisiana is served by six permanent CBOCs. Primary 
Care and general mental health services are offered at each of these 
locations. Specialized mental health programs (including PTSD and 
substance abuse treatment) are currently provided and we are acquiring 
additional space to significantly expand these services. Inpatient 
mental healthcare is coordinated with the Alexandria and Shreveport VA 
Medical Centers.
    Plans are progressing to lease space for additional specialty care 
and ambulatory procedures. Patients requiring highly complex care are 
referred to other VISN 16 facilities or care is obtained within the 
community. Pathology and laboratory services have been enhanced in the 
past year. They are centralized at the Baton Rouge CBOC, Foster Avenue 
Division. Outpatient pharmacy services currently exist at all our CBOCs 
and a $3\1/2\ million project to establish a new and enhanced pharmacy 
in New Orleans will be completed in November 2007. A newly constructed 
Diagnostic Imaging Center will open on the New Orleans campus in 
September 2007, providing the full range of general radiology, CT and 
MRI capability. Dental services are provided at the Baton Rouge clinic 
and were expanded in April 2006 by leasing space in Mandeville, 
Louisiana. Currently there are no patients on the wait list for dental 
care.
    In keeping with the national initiative to provide patient care in 
the least restrictive environment, SE Louisiana has tripled the size of 
its Community and Home-Based care programs. This includes Home Based 
Primary Care (HBPC), telemedicine, contract community nursing homes and 
a unique ``Hospital in the Home'' program whereby teams of clinicians 
visit the patient in the home in order to shorten hospital stays or, if 
possible, avoid the need for hospital admission altogether. This is 
just one example of how VA is reinventing care to meet the specialized 
needs of veterans post-Katrina.
    In June 2007, VA entered into an agreement with its affiliate, the 
Tulane University Hospital and Clinic to allow VA physicians to admit 
and manage the care of veteran patients in the Tulane hospital. 
Veterans have responded very favorably to this ``virtual VA inpatient'' 
program because it allows them to remain near their families and 
support systems while being treated by their own familiar team of VA 
physicians and social workers. To the best of our knowledge, this has 
not been done elsewhere in the country.
    VA is using adaptability and flexibility to meet the needs of 
veterans during the recovery period from Hurricane Katrina. Patients 
are grateful for the response by their government and are seeking care 
within the SLVHCS in record numbers. SLVHCS has served almost 30,000 
unique veterans through May 2007. On average, 1,000 outpatients are 
seen in the CBOCs per day. It is projected that by year end, more than 
35,000 unique veterans will have been treated. This is nearly 90 
percent of the pre-Katrina level.
    There are currently 76 physician residents compared to 120 before 
Hurricane Katrina. In order to maintain the stability of the residency 
training programs and meet our obligation to educate America's 
physicians, VISN 16 is working with its academic affiliates, The Tulane 
University School of Medicine and the Louisiana State University School 
of Medicine, to place VA faculty, medical staff and residents, and 
student trainees at VAMCs throughout the VISN 16 Network until such 
time as full and robust clinical programs return to the SLVHCS.
    VA continues to work as expeditiously as possible to initiate 
construction on our replacement medical center and has always been 
committed to building a new medical center in the Greater New Orleans 
area. VA has initiated its space planning process in preparation for 
construction. The analyses of architecture and engineering (A/E) firms 
to design the new facility are complete, and an announcement of the A/E 
selection will take place soon. The replacement medical center is 
expected to provide acute medical, surgical, mental health and tertiary 
care services, as well as long-term care.
    VA and LSU have signed a Memorandum of Understanding (MOU) agreeing 
to jointly study state-of-the-art healthcare delivery options in New 
Orleans. VA is pleased to learn of the State of Louisiana's commitment 
of state funds for this project. This collaborative venture has the 
potential to improve operating efficiencies for both institutions and, 
if designed properly, to contribute to reforms of the region's 
healthcare system. The Collaborative Opportunities Planning Group's 
(COPG) final report is to be presented by September 30, 2007. VA will 
make a decision re- 
garding the extent of its future collaboration with LSU after that repor
t is completed.
    While VA remains committed to exploring this partnership with LSU, 
delays have arisen. To ensure these delays did not impact VA's ability 
to reconstruct the VA Medical Center in a timely manner, VA initiated a 
search to identify alternative building locations. This search resulted 
in two responsive offers. An initial market survey of the two sites has 
been conducted, and further analyses are planned. VA looks forward to 
completing this process and will make a decision on this site in the 
near future.
Conclusion
    Mr. Chairman, the Committee and the Louisiana delegation are 
partners with VA in seeing that southeast Louisiana veterans continue 
to receive the high quality healthcare they deserve and have come to 
expect.
    The construction of our new medical center will be an important 
part of our commitment to uncompromised excellence in healthcare 
services for veterans in New Orleans.
    Thank you for the opportunity to be here today. I will be pleased 
to answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] 37470A.002


[GRAPHIC] [TIFF OMITTED] 37470A.001


[GRAPHIC] [TIFF OMITTED] 37470A.003


                                 <F-dash>
Prepared Statement of Patrick J. Quinlan, M.D., Chief Executive Officer
             Ochsner Health System, New Orleans, Louisiana
    Mr. Chairman, Members of the Committee, thank you for this 
opportunity to appear before the Committee to update you on Ochsner 
Health System's commitment to healthcare for our Veterans. Your 
personal presence and concern are certainly appreciated by our citizens 
and our veterans.
    Ochsner Health System is an independent non-profit organization 
made up of seven hospitals and thirty-two clinics employing over 9,000 
people. Ochsner is one of the largest private employers in Louisiana. 
Ochsner Medical Center, located in Jefferson Parish, was one of only 
three hospitals to keep its doors open, despite the ongoing 
interruption of its business, during and after Katrina to care for all 
patients.
    Currently, Ochsner employs over 600 physicians and more than 120 
licensed mid-level health providers and is one of the largest, private, 
non-university based academic institutions in the country with over 350 
residents and fellows, proven research including bench research, 
translational research and over 700 clinical trials. In addition, we 
provide training for approximately 400 allied health students and over 
700 medical students from LSU and Tulane with little funding to support 
this mission. The importance of Ochsner's graduate medical education 
program has increased greatly since Katrina because we are the only 
fully functional academic center in the greater New Orleans area.
    As a Veteran myself and with a number of our employees as veterans, 
we are gravely concerned about the future of VA Healthcare in South 
Louisiana. Our veterans have waited far too long for the services of a 
new VA facility and it is time to make our veterans the number one 
priority in the decisionmaking process, followed by the potential cost 
of such a project to the taxpayers of this country.
    When the Department of Veterans Affairs issued a request for 
proposal for the location of a new medical facility, Ochsner Health 
System was pleased to submit a proposal to offer an alternative site to 
help keep the VA Medical Center in South Louisiana to better serve the 
healthcare needs of our Veterans.
    As a part of our proposal, we commissioned an independent research 
study of 600 Veterans including 300 current and former VA patients and 
300 potential VA patients living in eighteen parishes in South 
Louisiana to determine the optimal location for a new VA facility. 
Overwhelmingly, 76% of veterans indicated they prefer a suburban 
Jefferson Parish location to one in downtown New Orleans.
    We believe the Ochsner proposal offers a number of advantages that 
meet or exceed all the requirements of the Department of Veteran's 
Affairs criteria. The 28 acre site is owned free and clear by Ochsner 
in a great central location with easy access to major highways. It is 
above sea level and not located in a flood plain. Site preparation 
would be minimal. The location next to Ochsner Medical Center allows 
for the ability to avoid service duplication, address and share 
infrastructure needs and provide key clinical services as needed. 
Electronic connectivity is possible with Ochsner's complete ambulatory 
electronic medical record system. A coordinated Master Plan Development 
and construction could start immediately. With our extensive network of 
clinics and hospitals, Ochsner could provide facilities and assistance 
to the VA immediately. Most importantly, our Senior Management team and 
Board are committed to making this project their top priority. The 
project can be completed sooner, and veterans can be assisted now 
offering a smoother transition to the VA's new hospital.
    With the Ochsner site located only fifteen minutes from downtown, 
we will continue to encourage partnerships with both LSU and Tulane to 
help train future physicians and allied health professionals at Ochsner 
Medical Center which is the market leader in both patient preference 
and market share. The convenience of the Ochsner location to downtown 
would also provide the VA with ample opportunities to partner with the 
medical schools and support their training programs.
    Economic development for the region is important. One need only 
look to the Texas Medical Center comprised of more than 40 
collaborative institutions that covers an area the size of the Chicago 
Loop for the synergy that multiple health related entities can bring to 
the region. Ochsner's proposed site is part of a larger 50 acre site 
that can accommodate the development of additional programs and 
facilities in conjunction with local medical schools, biomedical 
research entities, and other important partnership opportunities within 
the medical industry. At the Ochsner site economic development can 
begin now, not years from now, helping the region recover sooner.
    Finally, we have a personal commitment to Veterans. We want to make 
sure the Veterans of this region are served to the best of our 
abilities. The potential for shared service agreements and shared 
infrastructure to avoid duplication and save cost are possible using 
the resources of Ochsner's complete array of clinical services and 
facilities. What you will find working with Ochsner is the ability to 
execute the plan with no bureaucracy and swift decisionmaking. We are 
ready to start tomorrow to help make a state of the art VA facility a 
reality for South Louisiana and beyond. Thank you for your time and 
consideration. I am happy to respond to any questions.

                                 <F-dash>
    Prepared Statement of Clayton P. ``Sonny'' Degrees, Jr., State 
                               Commander
 Department of Louisiana, Veterans of Foreign Wars of the United States
    While there are numerous problems within the VA Healthcare System I 
believe that the main concern of the majority of veterans in Louisiana 
is the rebuilding of the VA Hospital in New Orleans. Some people are 
against rebuilding a hospital in Downtown New Orleans. They think it 
should be moved to another location due to the fact that another 
hurricane like Katrina would cause costly damage to a new facility. The 
vast majority of veterans living in a 23 Parish area feel differently.
    The Downtown New Orleans VA Hospital serves as the main source of 
healthcare for almost 150 thousand veterans within this 23 Parish area. 
Without this facility there would be a terrible hardship placed on 
local outpatient clinics as well as the other two VA Medical Centers in 
the state. Not only that but also other VA Medical Centers in 
Mississippi and Texas. Many of our veterans would have to go to these 
out of state Medical Centers for specialty care and diagnostic exams 
that cannot be preformed in the Outpatient clinics.
    This is reason enough to rebuild the VA Medical Center in Downtown 
New Orleans.
    One of the other important reasons is that VA Medical Centers must 
rely on University Medical Training Facilities to be able to staff 
their Primary Care Clinics and Specialty Clinics within the VA hospital 
facility. If rebuilt in the Downtown New Orleans area there would be 
three medical training facilities for doctors and nurses that the VA 
Medical Center could potentially draw from on a daily basis. The reason 
this is necessary is that the VA Healthcare System does not receive 
mandatory funding therefore they do not have the funds to hire an 
adequate force of VA doctors and nurses to handle the patient load.
    The use of Student Doctors and Nurses does present a problem with 
the amount of time a veteran has to spend at a clinic which leads to 
large delays in veterans obtaining appointments in clinics, especially 
the specialty clinics. For example, a veteran checks into a clinic for 
a 9:00 a.m. appointment. VA in many cases schedules as many as 50 
veterans for the same time and they are checked in on a first come 
first serve basis. A veteran may wait as high as an hour or more then 
goes in to see a Student Doctor. The Student Doctor asked a number of 
questions and the veteran explains his/her problems. Then the Student 
Doctor goes and confers with the clinic's head doctor which in turn 
comes in to the room and the process is repeated again. By the time the 
veteran leaves he/she has spent as much as two hours in the clinic. 
This is one of the reasons the system bogs down and it takes veterans 
so long to get an appointment. Proper funding of the VA Healthcare 
System would allow VA to hire a well trained medical staff adequate 
enough to handle the patient load.
    Finally, there is the issue of clerical staff at the VA Medical 
Centers. In recent years the VA's inclination to hire unconcerned 
people has truly amazed me. Many of the clerks project the attitude 
that they are doing the veteran a favor by just being there instead of 
realizing that without the veterans they would not have a job. And, the 
situation is getting worse by the day. There is entirely to much 
socializing during working hours between female employees and male 
employees. In most cases this slows down the check in process for the 
veterans. While these are not all the problems with the healthcare 
system, it does give one a picture of what goes on during a normal day 
at most VA facilities.
    I will not be able to attend the hearing in New Orleans on Monday, 
however I have contacted the District 1 Commander Marshall Hervron who 
will be making contact with you today. He and I have talked and he can 
adequately express the position of the Department of Louisiana Veterans 
of Foreign Wars. If you need anything further from me then don't 
hesitate to contact me.

                                  <all>

</pre></body></html>
